<html>
<title> - S. 2442, S. 2465, S. 2479, S. 2480, AND S. 2503</title>
<body><pre>[Senate Hearing 113-419]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-419

 
            S. 2442, S. 2465, S. 2479, S. 2480, AND S. 2503

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 9, 2014

                               __________

         Printed for the use of the Committee on Indian Affairs


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
90-791                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b8dfc8d7f8dbcdcbccd0ddd4c896dbd7d596">[email&#160;protected]</a>  

                      COMMITTEE ON INDIAN AFFAIRS

                     JON TESTER, Montana, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
TIM JOHNSON, South Dakota            JOHN McCAIN, Arizona
MARIA CANTWELL, Washington           LISA MURKOWSKI, Alaska
TOM UDALL, New Mexico                JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                MIKE CRAPO, Idaho
MARK BEGICH, Alaska                  DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii
HEIDI HEITKAMP, North Dakota
        Mary J. Pavel, Majority Staff Director and Chief Counsel
              Rhonda Harjo, Minority Deputy Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 9, 2014.....................................     1
Statement of Senator Barrasso....................................     2
Statement of Senator Crapo.......................................    17
    Prepared statement...........................................    17
Statement of Senator Flake.......................................    43
    Prepared statement...........................................    44
Statement of Senator McCain......................................    46
Statement of Senator Tester......................................     1
Statement of Senator Udall.......................................    18
Statement of Senator Walsh.......................................     3
    Prepared statement...........................................     4

                               Witnesses

Black, Michael S., Director, Bureau of Indian Affairs, U.S. 
  Department of the Interior.....................................     5
    Prepared statement...........................................     6
Canfield, Michael, President/CEO, Indian Pueblos Marketing, 
  Indian Pueblo Cultural Center..................................    57
    Prepared statement...........................................    58
Counts, Hon. Sherry J., Chairwoman, Hualapai Tribe...............    53
    Prepared statement...........................................    55
Fisher, Hon. Llevando, President, Northern Cheyenne Tribe........    19
    Prepared statement...........................................    21
Melendez, Hon. Arlan, Chairman, Reno-Sparks Indian Colony........    48
    Prepared statement...........................................    50
Tom, Hon. Aletha, Chairwoman, Moapa Band of Paiute Indians.......    47
    Prepared statement...........................................    48

                                Appendix

Board of Supervisors of Mohave County, Arizona, prepared 
  statement......................................................    71
Charter, Steve, Northern Plains Resource Council, prepared 
  statement......................................................    76
DeSoto, Randi, Chairwoman, Summit Lake Paiute Council, prepared 
  statement......................................................    77
Graham, Patrick J., State Director, The Nature Conservancy, 
  prepared statement.............................................    86
La Paz County Board of Supervisors, prepared statement...........    80
Letters for the record 


Lowery, Hon. Elwood, Chairman, Pyramid Lake Paiute Tribe, 
  prepared statement.............................................    78
Manning, Hon. Lindsey, Chairman, Shoshone-Paiute Tribes of the 
  Duck Valley Indian Reservation, prepared statement.............    73
McAllister, Francis, Vice President of Land & Water, Freeport 
  Minerals Corporation, prepared statement.......................    82
Reid, Hon. Harry, U.S. Senator from Nevada, prepared statement...    69
Resolution No. 40-2014...........................................    93
Response to written questions submitted by Hon. Jon Tester to 
  Hon. Arlan Melendez............................................    94
Temoke, Gerald, Chairman, Elko Band Council, prepared statement..    75


            S. 2442, S. 2465, S. 2479, S. 2480, AND S. 2503

                              ----------                              


                        WEDNESDAY, JULY 9, 2014


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. Jon Tester, 
Chairman of the Committee, presiding.

             OPENING STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    The Chairman. The Senate Indian Affairs Committee will come 
to order.
    This afternoon the Committee is going to be holding a 
legislative hearing on five bills affecting land and water 
resources in Indian Country. We are going to first discuss S. 
2442, the Northern Cheyenne Lands Act. The bill would primarily 
exchange mineral rights between the Tribe and a private 
company. In the early 1900s, the United States was supposed to 
provide the Northern Cheyenne Tribe the full subsurface estate 
within the boundaries of its reservation. However, the United 
States failed to include approximately 5,000 acres of 
subsurface rights which are now owned by Great Northern 
Properties. This bill would address that past mistake. The 
company is willing to transfer its mineral interests within the 
reservation to the tribe. In return, the Secretary of Interior 
will give the company mineral interests off-reservation that 
are currently managed by the Bureau of Land Management.
    This transfer would give the tribe full ownership of the 
subsurface estate within its reservation boundaries. The tribe 
would release all claims it has against the United States for 
failure to provide these interests to the tribe more than a 
century ago.
    S. 2442 was introduced by Senator Walsh and myself. Senator 
Walsh has joined us here today to talk about the bill as well 
as Northern Cheyenne Tribal President Llevando Fisher. We will 
hear from Llevando a little bit later.
    We are also going to hear testimony about S. 2479 and S. 
2480, which are two bills affecting tribes in Nevada. S. 2479 
and S. 2480 would convey lands to eight tribes in Nevada for 
housing, economic development, conservation and cultural 
purposes.
    We are also going to discuss S. 2503, the Bill Williams 
River Water Rights Settlement Act of 2014. This bill is a 
result of the Hualapai Tribe and its neighbors working together 
in a positive manner to work out their issues. I have seen a 
good number of water settlements in Montana and I know how much 
easier it is that these settlements can be accomplished if 
everyone is working together to find solutions to reach common 
goals. Senator Flake will be joining us shortly, I hope, to 
talk about this bill and the benefits it will provide to all 
the parties involved.
    And finally, we will discuss S. 2465, the Albuquerque 
Indian School Land Transfer Act. The Albuquerque Indian School 
provided education to Indian students for nearly a century. 
After closing down in the 1960s, sections of the property have 
been transferred to 19 Pueblos which own the land jointly. 
Together, the Pueblos have used this property for economic 
development activities including a hotel and an Indian Pueblo 
cultural center. The cultural center has become a tourist 
attraction in Albuquerque and provides education and cultural 
activities related to the Pueblos. S. 2465 would transfer a few 
more acres of land jointly to the Pueblos.
    I want to thank everybody for being here, everybody who is 
going to be testifying today. And with that, I would ask 
Senator Barrasso if he has an opening statement.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman, for 
holding today's hearing. I want to welcome my friends to the 
Committee, Senator Walsh, and I understand Senator Flake will 
be joining us shortly.
    For Indian tribes, natural resources provide significant 
economic, cultural and social benefits to the communities. As I 
have stated in prior hearings, on some reservations, oil and 
gas or coal reserves represent by far the number one best 
opportunity for prosperity. So we should be asking, what can 
Congress and the Administration do to help tribes and their 
members make use of these resources, if in fact that is what 
they want to do. For that reason, I have introduced S. 2132, 
the Indian Tribal Energy Development and Self-Determination Act 
Amendments of 2014. That is a bill, Mr. Chairman, that we can 
get signed into law this year and kick start tribal energy 
development.
    Reducing excessive and unnecessary regulations, reforming 
outdated approval processes and working with, not against, 
tribes that want to develop their resources I believe is a good 
starting point. We must also be sensitive to the barriers that 
the energy-producing tribes face getting the resources to 
viable markets, both domestic and foreign. Access to pipelines, 
to rails, to refiners and shipping ports is critical. Congress 
can and will need to play a role to ensure that tribes not only 
have the ability to make their resources and develop their 
resources but also have access to the markets.
    So I welcome the witnesses and look forward to the 
testimony. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Barrasso.
    We are going to now hear testimony from Senator Walsh and 
hopefully before you get done, Senator Walsh, Senator Flake 
will be here to explain the Bill Williams Water Rights Act.
    But for now, Senator Walsh, my colleague from Montana, who 
is the chief sponsor of S. 2442, the Northern Cheyenne Lands 
Act, the floor is yours to talk about this bill. Senator Walsh.

               STATEMENT OF HON. JOHN E. WALSH, 
                   U.S. SENATOR FROM MONTANA

    Senator Walsh. Thank you, Mr. Chairman, Chairman Tester, 
Vice Chairman Barrasso, for the honor of testifying before this 
illustrious Committee.
    I am here today to provide testimony in support of S. 2442, 
the Northern Cheyenne Lands Act. This is an important bill for 
the Northern Cheyenne, a tribe in southeast Montana. I 
appreciate Chairman Tester's co-sponsorship of this 
legislation.
    I also want to thank Northern Cheyenne President Fisher for 
his leadership on this issue and look forward to his testimony.
    In my second week as a United States Senator, I traveled to 
the Northern Cheyenne Reservation and heard directly from 
tribal leadership about the importance of fixing a century-old 
wrong that has significantly reduced the tribe's ability to 
pursue economic development opportunities on their reservation. 
I also heard about a variety of land consolidation challenges 
and trust responsibilities on the reservation that could be 
improved.
    In 1900, when the original boundaries of the Northern 
Cheyenne Reservation were expanded, the Federal Government 
failed to acquire the underlying mineral rights for the tribe. 
Approximately 5,000 acres of coal and other mineral rights were 
lost to the tribe. Currently, Great Northern Properties holds 
these mineral rights underlying the tribe's land. This bill 
provides a long-overdue solution. The Northern Cheyenne Lands 
Act conveys to the tribe 117 million tons of coal under about 
5,000 acres held by Great Northern Properties. Once the 
conveyance is completed, these mineral rights will be held in 
trust on behalf of the tribe. In exchange, Great Northern 
Properties will receive 112 million tons of federally-owned 
coal on the Bull Mountains and the East Fork area.
    Our bill keeps surface owners in the Bull Mountains whole 
under current law. This bill also clears the way for a revenue 
sharing agreement where the tribe will receive royalty payments 
from Great Northern Properties on any revenues the company 
earns through the development of Federal coal tracts conveyed 
in this legislation.
    Senate Bill 2442 also directs the Secretary of the Interior 
to take into trust 1,567 acres of land for the tribe. These 
lands hold significant cultural value for the Northern 
Cheyenne. This is a simple fix that will allow the tribe to 
consolidate more of its land for its members, promote tribal 
self-governance and protect culturally-important sites.
    This bill also transfers important trust funds to the tribe 
and aims to reduce fractionation on the reservation, including 
through the Interior Department's land buyback program.
    In conclusion, I strongly urge the Committee to support the 
Northern Cheyenne Lands Act in order to consolidate land 
ownership, correct a century-old wrong, create jobs and revenue 
and promote tribal self-governance. Thank you again, Mr. 
Chairman, for this opportunity. I appreciate your support.
    [The prepared statement of Senator Walsh follows:]

  Prepared Statement of Hon. John E. Walsh, U.S. Senator from Montana

    Thank you Chairman Tester and Vice Chairman Barrasso for the honor 
of testifying in front of this illustrious committee. I am here today 
to provide testimony in support of Senate Bill 2442, the Northern 
Cheyenne Lands Act. This is an important bill for the Northern Cheyenne 
Tribe in southeast Montana and I appreciate Chairman Tester's co-
sponsorship of this legislation.
    I also want to thank Northern Cheyenne President Fisher for his 
leadership on this issue and look forward to his testimony.
    In my second week as a United States Senator, I travelled to the 
Northern Cheyenne Reservation and heard directly from tribal leadership 
about the importance of fixing a century old wrong that has 
significantly reduced the tribe's ability to pursue economic 
development opportunities on their reservation. I also heard about a 
variety of land consolidation challenges and trust responsibilities on 
the reservation that could be improved.
    In 1900, when the original boundaries of the Northern Cheyenne 
Reservation were expanded, the federal government failed to acquire the 
underlying mineral rights for the tribe. Approximately 5,000 acres of 
coal and other mineral rights were lost to the tribe. Currently, Great 
Northern Properties holds these mineral rights underlying the tribe's 
land.
    This bill provides a long overdue solution. The Northern Cheyenne 
Lands Act conveys to the Tribe 117 million tons of coal under about 
5,000 acres held by Great Northern Properties. Once the conveyance is 
completed, these mineral rights will be held in trust on behalf of the 
Tribe. In exchange, Great Northern Properties will receive 112 million 
tons of federally-owned coal in the Bull Mountains and the East Fork 
area. Our bill keeps surface owners in the Bull Mountains whole under 
current law.
    This bill also clears the way for a revenue sharing agreement, 
where the Tribe will receive royalty payments from Great Northern 
Properties on any revenues the company earns through the development of 
federal coal tracts conveyed in this legislation.
    Senate Bill 2442 also directs the Secretary of the Interior to take 
into trust 1,567 acres of land for the tribe. These lands hold 
significant cultural value for the Northern Cheyenne. This is a simple 
fix that will allow the tribe to consolidate more land for its members, 
promote tribal self-governance, and protect culturally important sites.
    The bill also transfers an important trust fund to the Tribe and 
aims to reduce fractionation on the reservation, including through the 
Interior Department's Land Buy-Back Program.
    In conclusion, I strongly urge the Committee to support the 
Northern Cheyenne Lands Act in order to consolidate land ownership, 
correct a century-old wrong, create jobs and revenue, and promote 
tribal self-governance.
    Thank you again for this opportunity to testify.

    The Chairman. Senator Walsh, thank you for your testimony. 
We appreciate your leadership on this bill. Thank you for 
taking time out of what I know is a very busy schedule to come 
introduce this bill to the Indian Affairs Committee.
    As they would say in elementary school, you are dismissed 
and we will bring up the next panel. Thank you very much, 
Senator Walsh.
    Our next panel is going to be Mike Black, and what we are 
going to do, Mike, we have five bills up here today. We are 
going to give you ten minutes, if you need all ten, use all 
ten. If you need a little more, we will give you a little bit 
of flexibility. Typically we hold people to five minutes for 
their full testimony but I don't think you can get through 
these bills in that amount of time. Because we want to hear the 
Department's opinion.
    What we are going to do is, we will let you get started 
here in a moment. If Senator Flake shows up, we will find out 
how busy he is, we might kick it over to him and then back to 
you again.
    With that, we have Mike Black, who is the Director of the 
Bureau of Indian Affairs at the Department of Interior. Your 
entire written statement will be a part of the record.
    With that, I appreciate your coming up. I know you are 
busy. But I appreciate your coming up to visit with us about 
these five bills.
    With that, the floor is yours.

   STATEMENT OF MICHAEL S. BLACK, DIRECTOR, BUREAU OF INDIAN 
            AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Black. Good afternoon, Chairman Tester, Vice Chairman 
Barrasso and members of the Committee. Thank you for the 
opportunity to provide testimony for the Department of Interior 
on the five bills that are the subject of this legislative 
hearing.

    Regarding S. 2442, the Northern Cheyenne Lands Act, the 
Department of Interior appreciates the diligent work of the 
entire Montana Congressional delegation to seek an equitable 
solution to a vexing and complex situation regarding ownership 
of the mineral estate underlying Northern Cheyenne Indian 
Reservation. The Department supports the goals of the 
legislation and would like to work with the sponsor and the 
Committee on modifications to the bill.
    The issues in this bill are complex. The Department 
recognizes the unique role Congress can play in arbitrating 
difficult situations. The department recognizes that we have a 
unique trust responsibility to the Northern Cheyenne Tribe and 
therefore we are committed to finding an equitable solution 
consistent with the Federal Land Policy Management Act and 
departmental policy.
    S. 2442 reflects the dedication of the Montana delegation 
and the stakeholders to resolve this complex situation. First, 
by directing the Secretary of Interior to take approximately 
1,567 acres of tribally-owned fee lands into trust for the 
tribe. Second, the bill conveys 5,007 acres of subsurface coal 
and iron mineral estate currently held by Great Northern 
Properties within the reservation to the tribe, while 
transferring federally-held coal interests to GNP in 
compensation. The mineral estates conveyed to the tribe would 
be held in trust by the United States for the benefit of the 
tribe.
    S. 2465, the Albuquerque Indian School Land Transfer Act, 
directs the Secretary for the Department of Interior to 
transfer four parcels of land, or approximately 11.11 acres of 
federally-owned lands located in Albuquerque, New Mexico into 
trust for the benefit of the 19 Pueblos in New Mexico. S. 2465 
also provides that these lands, once transferred into trust, 
shall be used by the 19 Pueblos for the educational, health, 
cultural, business and economic development of the Pueblos and 
any private or municipal encumbrance, right-of-way restriction, 
easement of record or utility record or utility service 
agreement in effect on the enactment of this bill shall remain.
    The bill also prohibits Class I, Class II and Class III 
gaming.
    The Department supports S. 2465, but has concerns regarding 
the bill as it is currently drafted. While the bill does 
provide a definition of the property in Section 3, the 
Department has a map and legal description of the land referred 
to in the bill that is more specific, and we recommend that the 
language be inserted into the bill to reflect this map and 
legal description.
    Also, the Department is concerned that the limitations and 
conditions language in Section 3(e) of the bill is not specific 
enough and we would like to work with the Committee and sponsor 
and others to ensure that we have access to certain parcels of 
those lands which are currently used by the Southern Pueblos 
Agency for a warehouse and equipment storage yard.
    S. 2479, the Moapa Band of Paiutes Land Conveyance Act, 
directs that approximately 26,000 acres of public land in 
southern Nevada be held in trust for the Moapa Band of Paiutes. 
The Department supports S. 2479 and would like to work with the 
sponsor and the Committee on modifications concerning energy 
transmission corridors, recreational opportunities and 
protection of sensitive species.
    S. 2480, the Nevada Native Nations Lands Act, provides for 
the Secretary of Interior to hold various lands in trust for 
the benefit of a number of federally-recognized tribes in 
Nevada subject to valid and existing rights. These lands, 
totaling nearly 93,000 acres, are currently primarily managed 
by the Bureau of Land Management. The bill also includes a 
conveyance of BLM-managed lands to Elko County, Nevada for 
public purposes.
    Placing land into trust for tribes is a top priority of 
this Administration. The Department of Interior supports S. 
2480 with a few concerns explained in my written testimony. In 
particular, we would like to work with the sponsor and the 
Committee on amendments which would address concerns about 
mineral development as well as a few boundary modifications.
    S. 2503, the Bill Williams River Water Rights Settlement 
Act of 2014, would authorize, ratify and confirm two agreements 
which together result in a number of issues in the Bill 
Williams River Basin, including issues relating to a southern 
transfer of water rights to serve Freeport Minerals Corporation 
mining operation in the Lower Colorado River Multi-Species 
Conservation Program, as well as resolving certain water rights 
issues among Freeport, the United States and the Hualapai 
Tribe. While the Administration supports the goals of the bill, 
we have significant concerns about the waiver of sovereign 
immunity provisions that must be resolved before the 
Administration can fully support the bill. We look forward to 
working with the parties, the bill's sponsors and this 
Committee to address the issue.
    This concludes my statement and I will be happy to answer 
any questions the Committee may have. I assumed I only had five 
minutes.
    [Laughter.]
    [The prepared statement of Mr. Black follows:]

  Prepared Statement of Michael S. Black, Director, Bureau of Indian 
                Affairs, U.S. Department of the Interior
                  S. 2442, Northern Cheyenne Lands Act

    Good morning Mr. Chairman and Members of the Committee. Thank you 
for inviting the Department of the Interior to provide testimony on S. 
2442, the Northern Cheyenne Lands Act. The Department of the Interior 
appreciates the diligent work of the entire Montana congressional 
delegation to seek an equitable solution to a vexing and complex 
situation regarding the ownership of the mineral estate underlying the 
Northern Cheyenne Indian Reservation. The Department supports the goals 
of the legislation and would like to work with the sponsor and the 
Committee on modifications to the bill.
    S. 2442 includes significant improvements over an earlier version 
of the proposal on which we testified during the 112th Congress. We 
appreciate the efforts of the delegation to address many of the issues 
previously highlighted by the Department. The issues in this bill are 
complex and the Department recognizes the unique role Congress can play 
in arbitrating difficult issues. The Department recognizes that we have 
a unique trust responsibility to the Northern Cheyenne Tribe and 
therefore we are committed to finding an equitable solution consistent 
with the Federal Land Policy and Management Act (FLPMA) and Department 
policy.

Background
    The Northern Cheyenne's relationship to these lands is without 
dispute. Despite the Tribe's forced relocation from this area to 
Oklahoma in 1877, the Northern Cheyenne walked back to southeastern 
Montana to reclaim their ancestral lands, and the reservation was 
established a few years later in 1884. Today, the tribe has 
approximately 10,000 enrolled members; about 5,000 of those members 
live on the reservation. Beyond some agriculture pursuits such as 
cattle ranching, there are few economic opportunities for Tribal 
members.
    In 1900, approximately 5,000 acres of the mineral estate underlying 
eight sections of land remained in private ownership when the 
boundaries of the Northern Cheyenne Indian Reservation were expanded. 
Great Northern Properties (GNP) is the holder of this mineral estate 
underlying tribal lands, which was acquired from the Northern Pacific 
Railway. All other mineral interests underlying the Reservation are 
held by the Federal Government in trust for the Tribe.

S. 2442
    S. 2442 reflects the dedication of the Montana delegation and the 
stakeholders to resolve this complex situation. First, S. 2442 directs 
the Secretary of the Interior to take approximately 1,567 acres of 
Tribal-owned fee-lands into trust for the Tribe. Second, the bill 
conveys 5,007 acres of subsurface coal and iron mineral estate 
currently held by GNP within the Reservation to the Tribe, while 
transferring Federally-held coal interests underlying 7,952 acres in 
the ``Bull Mountains'' tracts and 1,420 acres in the ``East Fork'' 
tracts to GNP in compensation. The mineral estates conveyed to the 
Tribe would be held in trust by the United States for the benefit of 
the Tribe. The bill also includes provisions for revenue sharing and 
waiver of legal claims and precludes mining except by underground 
techniques on the ``Bull Mountains'' and ``East Fork'' tracts until 
written consent of the surface owner is obtained and except as 
determined in the BLM's Billings Resource Area Resource Management 
Plan. Finally, the bill authorizes transfer of the Northern Cheyenne 
Trust Fund to the Tribe's Permanent Fund.
    As the Committee is aware, restoring tribal homelands is one of 
this Administration's highest priorities. S. 2442, Section 4, directs 
the Secretary of the Interior to take approximately 1,567 acres of land 
into trust for the Tribe. A portion of these lands are within the 
Tribe's current reservation, but two other locations are outside the 
Tribe's current reservation and are located in the state of South 
Dakota. The Department supports taking these lands into trust. S. 2442 
refers to two maps, the ``Northern Cheyenne Land Act--Fee-to-Trust 
Lands,'' dated April 22, 2014, and the ``Northern Cheyenne Land Act--
Fee-to-Trust Lands--Lame Deer Townsite,'' dated April 22, 2014, 
evidencing the lands to be taken into trust for the Tribe by the 
Secretary of the Interior. While the legislation references the maps by 
title, the Department highly recommends the use of legal descriptions 
to describe the property to be taken into trust for the Tribe.
    In accordance with FLPMA and Department policy, we require equal 
value exchanges and completion of an appraisal consistent with Uniform 
Appraisal Standards when the Department enters into exchanges of land 
or interests in lands. S. 2442 seeks to address equalization based on 
estimated coal tonnage without standard appraisal practices or a 
mechanism for adjusting the acreage to achieve equal value. While the 
Department understands that S. 2442 seeks to address tribal settlement 
issues that are beyond the scope of FLPMA and Department of Justice 
regulations on equal value exchanges, we would like to work with the 
sponsors to ensure that the principle of equal value is maintained, and 
appraisals are consistent with Uniform Appraisal Standards.
    The Department notes that the Federal coal interests referred to as 
the ``East Fork'' tracts may encompass part of an alluvial valley floor 
which may complicate the conveyance and the future development of these 
tracts. Under the Surface Mining Control and Reclamation Act, coal 
parcels occurring under or near an alluvial valley floor qualify for an 
exchange of the affected fee coal for unleased Federal coal if certain 
conditions are met. Alluvial valley floor exchanges would be processed 
pursuant to FLPMA. Completing such an exchange can be a lengthy and 
complicated process.
    It should also be noted that the 60-day deadline for conveyance of 
mineral rights is not sufficient to complete the necessary analysis 
under the National Environmental Policy Act and the Department suggests 
changing this to a minimum of 120 days. Additionally, the Department 
suggests rephrasing Sec. 5(a)(1)(A) to avoid directing a private entity 
to complete a conveyance, and instead ensure that any exchange is 
optional on the part of the private party.
    Finally, Section 7 of the bill directs the Secretary, in 
consultation with the Tribe, to prepare and submit to the Committee an 
inventory of fractionated land interests held by the United States in 
trust for the benefit of the Tribe or individual Indians on the 
Reservation, and to provide periodic reports regarding obstacles to 
consolidating trust land ownership on the Reservation.
    The Department, through the BIA, currently inventories the 
fractionated lands held in trust for the Tribe and held in trust for 
individual Indians of the Tribe. The BIA has provided such inventory to 
the Department's Land Buy Back Program for Tribal Nations (Buy-Back-
Program), the Northern Cheyenne Agency Superintendent and the Northern 
Cheyenne Tribal Outreach Coordinator. The inventory identifies the 
lands that are suitable for agriculture on the Northern Cheyenne 
Reservation. The majority of the trust lands suitable for agriculture, 
which include allotted and Tribal owned lands, are currently leased and 
if the lands are not leased then they are being used by their owners 
primarily for agriculture.
    The Buy-Back-Program has been collaborating with the Tribe to 
address the land fractionation issue on the Northern Cheyenne Indian 
Reservation (Reservation). The Buy-Back Program purchases fractional 
interests in trust or restricted land from willing sellers at fair 
market value for immediate transfer and consolidation of those 
interests for the tribe with jurisdiction over those interests. The 
Buy-Back Program, which was created as a result of the Cobell 
Settlement and authorized by the Claims Resolution Act of 2010, has 
been working closely with the Tribe since the fall of 2013 and has 
completed extensive mapping of the Reservation, land valuation work, 
and has entered into a cooperative agreement with the Tribe for the 
Tribe to perform educational outreach to Northern Cheyenne landowners. 
The Buy-Back Program intends to begin purchasing fractional interests 
at the Reservation in the fall of 2014. The work being done, in 
consultation with the Tribe, already includes preparing some form of an 
inventory of fractionated land interests, especially for those lands 
that potentially may be bought by the Tribe through the Buy-Back 
Program from willing sellers. The Department would like to work with 
the Sponsor, the Committee, and the Tribe on ways to achieve the goals 
of Section 7 of the bill without duplicating efforts already underway.
Conclusion
    Thank you again for the opportunity to testify on the Northern 
Cheyenne Lands Act. The Department strongly supports efforts to find a 
fair and equitable solution to the long-standing issues facing the 
Northern Cheyenne Tribe and is committed to continuing to work 
cooperatively towards this end. The Department welcomes the opportunity 
to resolve these issues for the benefit of the Northern Cheyenne Tribe.

                                S. 2465
    Good afternoon Chairman Tester and Vice Chairman Barrasso, and 
Members of the Committee. Thank you for the opportunity to provide 
testimony on behalf of the Department on S. 2465, a bill to require the 
Secretary of the Interior to take into trust four (4) parcels of 
Federal land for the benefit of certain Indian Pueblos in the State of 
New Mexico.
    S. 2465 deals with the status of certain lands as they directly 
relate to the Secretary of the Department's authority to receive 
through a transfer of federal lands and take such lands into trust for 
federally recognized Indian tribes. President Obama committed to work 
with the federally recognized Indian tribes on a government-to-
government basis on matters that affect such federally recognized 
Indian tribes. It is in the spirit of this commitment that the 
Department looks forward to the opportunity to work with this Committee 
and members of Congress, the nineteen (19) Pueblos in New Mexico, as 
identified in S. 2465 to achieve the goals of S. 2465.
    S. 2465 directs the Secretary for the Department of the Interior to 
transfer four (4) parcels of land into trust for the benefit of the 
nineteen (19) Pueblos in New Mexico, as defined in the bill, comprising 
approximately 11.11 acres of Federal land located in Albuquerque, New 
Mexico. S. 2465 also provides that these lands, once transferred into 
trust, shall be used by the nineteen (19) Pueblos for the educational, 
health, cultural, business, and economic development of the nineteen 
(19) Pueblos, and any private or municipal encumbrance, right-of-way, 
restriction, easement of record, or utility service agreement in effect 
on the date of enactment of S. 2465, shall remain. The bill also 
prohibits Class I gaming, Class II gaming, or Class III gaming. The 
Department supports S. 2465, but has several concerns regarding the 
bill as it is currently drafted.
    The nineteen (19) Pueblos, as defined in the bill, were previously 
transferred similar parcels of federal land, approximately 8.4 acres, 
in trust for their benefit in 2008. Public Law 110-453. While S. 2465 
does provide a definition of the property in Sec. 3, the Department 
does have a map and legal description of the land referred to in S. 
2465 that is more specific and recommends that language be inserted 
into S. 2465 to reflect this map and legal description. The Department 
appreciates the opportunity, provided in the bill, to conduct a survey 
satisfactory to the Secretary of the Department to determine the exact 
acreage and legal description of the land.
    The Department is concerned that the ``limitations and conditions'' 
language in Sec. 3(e) of S. 2465 is not specific enough for the Bureau 
of Indian Affairs (BIA), to continue utilizing those parcels while the 
parcels are held in trust for the nine (19) Pueblos. The BIA currently 
utilizes one parcel to house the fire program for the Southern Pueblos 
Agency and the other parcel has a warehouse and an equipment storage 
yard, again for the Southern Pueblos Agency. The warehouse and yard 
store construction and transportation equipment for the BIA Roads 
Program and Natural Resources Program in the BIA Southwest Regional 
Office. The Department recommends inserting language that allows the 
BIA to continue to utilize these parcels for current BIA purposes.

           S. 2479, Moapa Band of Paiutes Land Conveyance Act
    Thank you for the opportunity to testify on S. 2479, which directs 
that approximately 26,565 acres of public land in southern Nevada be 
held in trust for the Moapa Band of Paiutes. The Department supports S. 
2479 and would like to work with the Sponsor and the Committee on 
modifications concerning energy transmission corridors, recreational 
opportunities, and protection of sensitive species.

Background
    The Moapa Band of Paiute Indians (Tribe) is a federally recognized 
Indian tribe that resides on the Moapa River Reservation (Reservation). 
The Reservation was initially set aside in 1874, and is currently 
comprised of approximately 71,954 acres in southern Nevada.
    The lands proposed in S. 2479 to be held in trust for the Tribe are 
adjacent to the existing Reservation. Most of the lands are currently 
managed by the Bureau of Land Management (BLM) Las Vegas Field Office 
under its 1998 Las Vegas Resource Management Plan (RMP). This RMP is 
under revision to address renewable energy development, energy 
transmission, sensitive species, cultural resource protection, and 
recreation issues. The draft RMP is currently expected to be available 
for public review later this year and a Record of Decision is expected 
by early 2016.

S. 2479
    Subject to valid existing rights, S. 2479 transfers approximately 
26,565 acres of public land currently administered by the BLM and the 
Bureau of Reclamation to be held by the United States in trust for the 
Tribe. Under the bill, the Secretary of the Interior would be required 
within 180 days of enactment to complete a survey to establish the 
boundaries of the land to be held in trust. S. 2479 provides that this 
land shall not be used for class II or III gaming, and can be used only 
for traditional and customary uses, stewardship conservation for the 
benefit of the Tribe, residential or recreational development, or 
renewable energy development. Any other use would require the Tribe to 
pay to the Secretary the fair market value of the lands, as determined 
by standard appraisal practices. Application of this process to land 
taken into trust is not a familiar approach, and the Department would 
need to conduct additional review and analysis before taking a position 
on this portion of the legislation.
    Currently, several important rights-of-way cross the lands proposed 
to be held in trust in S. 2479, including the West Wide Energy Corridor 
which crosses the western portion of the proposed lands. The Old 
Spanish Trail, a national historic trail, crosses the southern portion 
of the proposed lands, and many of the lands identified are also 
important recreation areas. The southern portion of the proposed lands 
is also habitat for the three-corner milkvetch, a BLM-sensitive plant 
species, listed by the State of Nevada as ``critically endangered.'' 
All of these matters are being addressed in the RMP revision, which 
will cover 3.1 million acres in southern Nevada, including all of the 
acreage identified to be held in trust in S. 2479.
    The Department supports S. 2479, and recommends it be amended to 
address the land management concerns identified above regarding energy 
transmission. To ensure that this area continues to be an important 
corridor for renewable energy development and transmission in the 
future, we recommend that energy transmission be an identified use of 
the lands under the bill.
    The Department would also like to have further discussions with the 
Sponsor and Committee regarding the fair market value provisions in 
Sec. 3(d)(2)(B). We would be glad to work with the Sponsor and the 
Committee on proposed amendments to the bill.

Conclusion
    Thank you for the opportunity to testify in support of this 
legislation which will provide important benefits to the Tribe.

                S. 2480, Nevada Native Nations Lands Act

    Thank you for the opportunity to provide the views of the 
Department of the Interior (Department) on S. 2480, the Nevada Native 
Nations Lands Act. S. 2480 is a bill that provides for the Secretary of 
the Interior to hold in trust for the benefit of a number of Federally-
recognized tribes nearly 93,000 acres of Federal lands managed by the 
Bureau of Land Management (BLM) and the United States Forest Service in 
Nevada. The bill also provides for the conveyance of about 275 acres of 
BLM-managed lands to Elko County for public purposes. Placing land into 
trust for tribes is a top priority for this Administration. The 
Department of the Interior welcomes opportunities to work with Congress 
on lands to be held in trust and supports S. 2480, with a few concerns 
noted below. The Department defers to the U.S. Department of 
Agriculture regarding National Forest System Lands.
    Some of the parcels identified in this legislation contain lands 
that are Preliminary General or Preliminary Priority Habitat for the 
Greater Sage-Grouse. The potential listing of the Greater Sage-Grouse 
under the Endangered Species Act is a serious concern of the Federal 
Government. That decision by the U.S. Fish and Wildlife Service is 
expected in 2015. Additionally, most of the lands proposed to be held 
in trust occur within existing grazing allotments, and transfer of 
jurisdiction over these lands would likely affect the current 
permittees.

S. 2480
    Following is a discussion of the provisions of the bill by title 
with an explanation of the Department's views as they relate to each 
contemplated transfer.

Elko Motocross Land Conveyance, Title I
    Title I of S. 2480 would convey approximately 275 acres of BLM-
managed lands to Elko County, Nevada, for a public motocross park. The 
conveyance would be subject to valid existing rights. The land is to be 
used only for purposes consistent with the Recreation and Public 
Purposes (R&PP) Act and includes a reversionary clause if the lands are 
used for other purposes. The bill requires the county to pay all 
administrative costs associated with the transfer. The BLM regularly 
works with local governments and non-profits to lease or convey public 
lands for recreational and other public purposes at very low cost. The 
BLM supports the transfer of this parcel of land to Elko County for a 
motocross park.
    We recommend the addition of a clause allowing the Secretary to add 
reasonable terms and conditions to the transfer. For example, it might 
be necessary to include in the conveyance documents a provision for 
maintenance access by a right-of-way holder to an existing oil and gas 
pipeline in the lands to be conveyed. A ``terms and conditions'' clause 
would allow us to address this and similar situations. Additionally, 
the Department of Justice recommends that Section 102(a) of the bill be 
revised to make absolutely clear that the city or county would have to 
agree to the proposed conveyance, which is what we understand the 
sponsor intends. Finally, we recommend clarifying that the conveyance 
is subject to compliance with other federal laws, such as the National 
Environmental Policy Act.

Conveyance of Land to Indian Tribes, Title II
    Title II of S. 2480 provides that seven areas of public lands are 
held in trust for specific Native American Tribes in Nevada. The bill 
includes a provision requiring surveys of the lands within 180 days of 
enactment. S. 2480 also provides that land shall not be used for Class 
II or III gaming, and can be used only for traditional and customary 
uses, stewardship conservation for the benefit of the Tribe, 
residential or recreational development, renewable energy development, 
or mineral development. Any other use would require the Tribe to pay to 
the Secretary the fair market value of the land, as determined by 
standard appraisal practices. Application of this process to land taken 
into trust is not a familiar approach, and the Department would need to 
conduct additional review and analysis before taking a position on this 
portion of the legislation.
    The Department and the BLM strongly believe that open communication 
between the BLM and tribes is essential in maintaining effective 
government-to-government relationships. In this spirit, the BLM has had 
a cooperative working relationship with the Tribes and the Department 
is pleased to support the provisions concerning lands to be held in 
trust for the benefit of these Tribes. In general, the Department would 
like to discuss further with the sponsor and Committee the fair market 
value provisions in Sec. 202(b)(2)(B) and (C). We would be glad to work 
with the sponsor and the Committee on proposed amendments to the bill. 
Specific comments about each proposed area follow.

(a) Trust Land for Te-Moak Tribe of Western Shoshone Indians of Nevada 
        (Elko Band)
    Section 201(a) provides that approximately 373 acres of BLM-managed 
lands are to be held in trust for the benefit of the Te-Moak Tribe of 
Western Shoshone Indians, Elko Band, subject to valid existing rights. 
These lands are adjacent to an existing parcel held in trust for the 
Elko Band and are identified in the BLM's Elko Resource Management Plan 
as suitable for disposal. The Department supports holding these lands 
in trust for the Elko Band.

(b) Trust Land for Fort McDermitt Paiute & Shoshone Tribe
    Section 201(b) provides that approximately 19,094 acres of BLM-
managed lands are to be held in trust for the benefit of the Fort 
McDermitt Paiute and Shoshone Tribe of the Fort McDermitt Indian 
Reservation, subject to valid existing rights. These lands are adjacent 
to and surrounding the existing Fort McDermitt Indian Reservation. The 
BLM notes that this area contains Preliminary General Habitat for the 
Greater Sage-Grouse. The Department supports holding these lands in 
trust for the benefit of the Tribe, but would like to work with the 
sponsor on minor technical and boundary amendments.

(c) Trust Land for Shoshone Paiute Tribes
    Section 201(c) provides that approximately 82 acres of land are to 
be held in trust for the benefit of the Shoshone-Paiute Tribes of the 
Duck Valley Indian Reservation, subject to valid existing rights. The 
lands to be held in trust under this section are currently managed by 
the United States Forest Service, and the Department of the Interior 
defers to the Forest Service on the current management of those lands.

(d) Trust Land for Summit Lake Paiute Tribe
    Section 201(d) provides that, subject to valid existing rights, 
approximately 941 acres of BLM-managed lands are to be held in trust 
for the benefit of the Summit Lake Paiute Tribe. These lands would 
expand the existing Summit Lake Indian Reservation to entirely surround 
Summit Lake. The Department supports holding these lands in trust for 
the benefit of the Tribe.

(e) Trust Land for Reno-Sparks Indian Colony
    Section 201(e) provides that approximately 13,434 acres of BLM-
managed lands are to be held in trust for the benefit of the Reno-
Sparks Indian Colony, subject to valid existing rights. The lands are 
adjacent to the current reservation. The Department supports the 
proposed land transfer in Section 201(e), but would like to work with 
the sponsor to address boundary modifications to ensure manageability. 
In particular, the BLM notes that the proposed configuration would 
isolate some BLM-managed land. Isolated, irregularly shaped parcels 
like these are difficult to manage, especially in terms of public 
safety, recreation, energy development or transmission, grazing, and 
fire suppression.

(f) Trust Lands for Pyramid Lake Paiute Tribe Land
    Section 201(f) provides that three areas comprising approximately 
30,669 acres of BLM-managed land are to be held in trust for the 
benefit of the Pyramid Lake Paiute Tribe, subject to valid existing 
rights. The three areas to be held in trust are adjacent to the current 
reservation, which surrounds the southeast portion of Pyramid Lake. 
Section 201(f) would consolidate land-administration. The Department 
supports holding these lands in trust for the Pyramid Lake Paiute 
Tribe.

(g) Trust Land for Te-Moak Tribe of Western Shoshone (South Fork Band)
    Section 201 (g) provides that three areas totaling approximately 
28,162 acres of BLM-managed land are held in trust for the benefit of 
the South Fork Band. The two northern areas identified for transfer are 
near or adjacent to portions of the existing reservation. The third 
parcel is primarily composed of the Red Spring Wilderness Study Area, 
which would be released by the bill.
    The Department supports holding these lands in trust, especially 
the interspersed lands in the northern parcels, where the proposal 
would consolidate checkerboard lands, improving land management. We 
note, however, that there is currently great interest in oil and gas 
development on and near the southern parcel, and the impact of the 
exception provided in Section 201(g)(2)B(ii) on future development is 
unclear. We would like to further discuss these provisions with the 
sponsor and Committee.

Conclusion
    The Department of the Interior welcomes opportunities to work with 
Congress and tribes on holding lands in trust. We support the intent of 
the legislation and look forward to working with the Sponsor and the 
Committee to address the issues we have outlined in this testimony.

    S. 2503, Bill Williams River Water Rights Settlement Act of 2014
    Good afternoon, Chairman Tester, Vice Chairman Barrasso, and 
Members of the Committee, I am Michael Black, Director of the Bureau of 
Indian Affairs at the Department of the Interior. I am pleased to 
provide the Department of the Interior's views on S. 2503, the Bill 
Williams River Water Rights Settlement Act of 2014. S. 2503 would 
authorize, ratify and confirm two agreements which together resolve a 
number of issues in the Bill Williams River basin, including issues 
related to a sever and transfer of water rights to serve Freeport 
Minerals Corporation's mining operation and the Lower Colorado River 
Multi-Species Conservation Program as well as resolving certain water 
rights issues among Freeport Minerals Corporation (Freeport), the 
United States and the Hualapai Tribe. While the Administration supports 
the goals of the bill, we have significant concerns about the waiver of 
sovereign immunity provision in S. 2503 that must be resolved before 
the Administration can support the bill. We look forward to working 
with the parties, the bill's sponsors, and this Committee to address 
this issue.

Background
    The Hualapai Tribe's main Reservation of approximately 1 million 
acres is located on the south side of the Colorado River and includes 
Grand Canyon lands. The main Hualapai Reservation is the home of the 
famous Grand Canyon West Skywalk and other tourist facilities that are 
a significant source of the Tribe's economic development. In addition 
to its main Reservation, the Tribe has a smaller Executive Order 
Reservation of approximately 60 acres along the Big Sandy River, 
located in the Bill Williams River basin.
    The Hualapai Tribe claims water rights in the Colorado, Verde, and 
Bill Williams River basins. Negotiations regarding potential settlement 
of the water rights claims of the Hualapai Tribe in Arizona have been 
ongoing since 2011, when the United States established a negotiating 
team to negotiate a comprehensive settlement of all of the Tribe's 
water rights within the State of Arizona One matter addressed in the 
negotiations has concerned applications filed in 2010 by Freeport to 
sever and transfer certain water rights in the Bill Williams River 
basin for the benefit of mining operations at its Bagdad Copper Mine. 
The Department of the Interior protested those applications to protect 
federally reserved water rights, including water rights that the 
Department holds in trust for the Hualapai Tribe and rights associated 
with lands held by the Department's Fish and Wildlife Service (FWS) and 
Bureau of Land Management (BLM).
    S. 2503 would approve two agreements in which, among other things, 
Freeport agrees to confirm the Tribe's water rights claims related to 
the small Executive Order Reservation. Initially, the Tribe's primary 
objective was to negotiate a comprehensive settlement for both its main 
Reservation and its smaller Executive Order Reservation. Early in the 
negotiations, however, serious technical issues were identified with 
respect to water infrastructure projects proposed for the main Hualapai 
Reservation that required the investigation of additional alternatives 
before the Tribe's water rights in the Colorado River basin could be 
resolved. At the same time, the Hualapai Tribe, Freeport, and the 
United States decided that negotiations over certain time sensitive 
issues related to Freeport's sever-and-transfer application should 
proceed.
    As a result, the originally contemplated comprehensive settlement 
was split into two phases. The first phase, which is the subject of S. 
2503, focuses on resolution of certain water rights issues in the Bill 
Williams River basin involving the Tribe, the Department of the 
Interior, the Arizona Game and Fish Commission, and Freeport. It is 
expected that future negotiations, to which all the parties, including 
Freeport, have committed, will address additional water rights of the 
non-tribal parties in the Bill Williams River basin, as well as a 
comprehensive settlement of all the Tribe's water rights claims for its 
main Reservation.

Legislation and Agreements
    S. 2503 would authorize, ratify, and confirm two agreements, the 
Big Sandy River-Planet Ranch Water Rights Settlement Agreement and 
Hualapai Tribe Bill Williams River Water Rights Settlement Agreement 
and direct the Secretary of the Interior to execute both agreements. 
These Agreements would waive the objections of the settling parties to 
Freeport's sever-and-transfer application in return for securing 
various benefits to the Tribe and the United States. There is no on-
going general water rights adjudication in this basin to provide a 
mechanism by which all of the water rights users in the basin could be 
bound. Consequently, the Agreements are settlements among only some of 
the water users in the Bill Williams River basin, including most 
importantly Freeport, which claims significant, if not the largest, 
water rights in the basin. I will summarize the key features of each of 
these two agreements.
    First, the Big Sandy River-Planet Ranch Water Rights Settlement 
Agreement would facilitate the severance and transfer of certain water 
rights owned by Freeport on property known as ``Planet Ranch'' along 
the Bill Williams River. The Agreement would resolve pending objections 
by Interior Department bureaus and the Arizona Game & Fish Commission, 
enabling a portion of Freeport's water rights on Planet Ranch to be 
moved upstream to a well field owned by Freeport along the Big Sandy 
River, a tributary to the Bill Williams River. Freeport pumps water 
from the well field and transports it to Freeport's Bagdad Mine located 
approximately 25 miles from the Big Sandy River. Under the Agreement, 
Freeport would agree to a ``diversion limitation'' or cap on its 
withdrawals from the well field and other specified groundwater wells 
at its historic maximum pumping level of 10,055 acre-feet per year. 
This cap would provide an important measure of predictability regarding 
future flows in the Big Sandy River, where downstream federal interests 
include wilderness areas managed by the Bureau of Land Management and 
the Bill Williams National Wildlife Refuge administered by the Fish & 
Wildlife Service. Importantly, water that is not transferred to the 
well field would remain at Planet Ranch. The Bureau of Reclamation 
(Reclamation) would lease some of that water along with Planet Ranch 
lands for the Lower Colorado River Multi-Species Conservation Program 
(MSCP). The leased water rights and land would provide important 
environmental protection in furtherance of the MSCP. Under the 
Agreement, the lands leased by Reclamation would be permanently donated 
by Freeport to the Arizona Game and Fish Commission.
    Next, the Hualapai Tribe Bill Williams River Water Rights 
Settlement Agreement would secure a number of benefits and protections 
for the Tribe, including non-Federal funding of certain measures that 
could lay groundwork for a later comprehensive settlement of all of the 
Tribe's water rights in the State of Arizona. This Agreement provides 
that Freeport will agree to reserved water rights of 694 acre-feet per 
year for the approximately 60 acres of land that the Department holds 
in trust for the Tribe and 560 acres it holds in trust for allottees in 
the Bill Williams River basin. Freeport would also implement certain 
protections for the Tribe's water uses on culturally significant lands 
that the Tribe holds in fee. Finally, the Tribe would receive a 
substantial contribution from Freeport into the Tribe's Economic 
Development Fund, which would be used to help meet water related needs 
on the Tribe's main Reservation on the Colorado River. Freeport would 
contribute an additional $1 million to enable completion of the ongoing 
study of water supply alternatives for the main Reservation, which is 
an important pre-requisite to, and a key step facilitating, the Tribe's 
goal of reaching a final settlement of its Colorado River claims in the 
future.

Remaining Concerns and Conclusion
    S. 2503 provides a number of benefits for all of the parties--the 
Hualapai Tribe, the Interior Department, the Arizona Game & Fish 
Commission, and Freeport Minerals Corporation--as well as the many 
parties that are participants in the Lower Colorado River Multi-species 
Conservation Program. The parties have negotiated intensively within 
the last year to reach agreement on the two settlement agreements 
addressed in S. 2503 and have resolved many issues. However, there is 
still one important issue and a few smaller matters to be worked out 
with respect to both these agreements. As a result, the Administration 
cannot support the legislation as introduced, but we would support an 
amended bill that adequately addresses our concerns.
    Most significantly, we oppose the bill's inclusion of a new, ad hoc 
waiver of the sovereign immunity of the United States. These 
Agreements, like other settlements that the United States enters into, 
can be enforced against the United States through existing avenues, 
including general waivers of sovereign immunity, such as those provided 
in the Tucker Act, the Administrative Procedure Act, and the McCarran 
Amendment.
    Piecemeal waivers of sovereign immunity for particular matters do 
not aid in the uniform resolution of underlying disputes but tend to 
promote wasteful litigation and may lead to conflicting outcomes. There 
are few standards to guide the application of such waivers, creating 
the prospect of resource-intensive litigation over procedural and other 
matters that are well-established in the context of existing sovereign 
immunity waivers. Nor is it clear how various state or federal forums 
will understand such waivers in relation to existing administrative and 
judicial review processes, creating the possibility of conflicting 
results.
    While several Indian water rights settlement acts include sovereign 
immunity waivers, those settlements comprehensively quantified and 
resolved tribal water rights claims with finality. In
    contrast, this bill resolves no tribal water rights with finality 
and will not result in a court-approved water decree determining basin-
wide water rights. Moreover, the bill does not reach all trust or other 
federally reserved claims in the basin and otherwise lacks the 
hallmarks of a traditional Indian water rights settlement. In addition, 
the waiver of sovereign immunity in S. 2503 is in some ways broader 
than any waiver to date in an Indian water rights settlement, for the 
first time expressly extending to suits filed in state court against 
the United States relating to particular settlements.
    The United States has repeatedly communicated its concerns about 
the waiver of sovereign immunity to the parties, and proposed 
alternative ways to address the parties' enforcement concerns. Although 
the parties and the United States have not reached agreement on an 
alternative to the proposed waiver of sovereign immunity as of this 
time, we are committed to continue working with the parties and the 
Committee to find solutions to this issue.
    In addition, the Department has concerns about the language and 
scope of the proposed waivers of claims. Language in the waivers and in 
other provisions concerning the ``capacity'' in which the United States 
is acting in various instances must be refined. The two agreements 
include different water rights confirmations, waivers, and reservations 
of rights, which apply differently to the United States depending on 
the capacity it is acting in, so it is important that this it be 
accurately described. We are currently working with the parties to 
revise language to address our concerns regarding the various 
capacities in which the United States is participating in the 
agreements. Finally, the waivers do not expressly specify that the 
United States is not waiving claims concerning impacts to water quality 
as opposed to water rights injury, as we believe is necessary. There 
are also some additional important technical changes in the agreements 
and bill that must be resolved.
    The Department looks forward to working with the parties, the 
sponsors, and the Committee to fix the one remaining significant issue 
in the legislation so that the United States can support the bill. 
Thank you.

    The Chairman. That is pretty efficient. I hope the next 
panel takes note of how efficient you were. That is good. You 
got through those five bills pretty well, and I appreciate your 
testimony.
    I have some questions on each one. I understand the 
reasoning behind the Administration's reluctance to endorse S. 
2442, Senator Walsh's bill, without an appraisal of the value 
of coal located on the parcels that we are talking about. Such 
an appraisal could be lengthy, it could be cumbersome. And as 
the Administration notes in the testimony, we have been dealing 
with this issue for some time. This is not a new issue.
    Is the Department taking the efforts to assess the value of 
the mineral interests since the mineral conveyance was first 
contemplated about a decade ago?
    Mr. Black. I don't believe there has been a full evaluation 
and appraisal at this point. I do understand there has been a 
contractor that worked with GNP and the tribe to evaluate the 
actual tonnage that is involved here. There are a lot of other 
factors, including the value of the actual coal in the 
different areas as well as the marketability and other things 
that would require a lot more analysis on our part at this 
point.
    The Chairman. How long do you think that analysis would 
take if you were to start?
    Mr. Black. That I don't have a good feel for right now. I 
will be happy to get back to you on that.
    The Chairman. Okay. And just curious, it is not like this 
issue is going to go away, 100 years ago, as Senator Walsh 
said, promises were made but not fulfilled. Why isn't the 
Department being a little more proactive on the appraisal?
    Mr. Black. I think at this point there hasn't been anything 
necessarily for us to appraise. There were some other parcels 
that were included in previous bills, it has been changed 
somewhat over the last year or two. So I think undertaking a 
fully extensive and expensive process at that point would not 
necessarily best serve the process.
    The Chairman. In your opinion, does appraisal have to 
happen for this bill to move forward?
    Mr. Black. In accordance with departmental policy and the 
Federal Land Policy Management Act, yes, we would be required 
to do that. We are required to do a value for value type 
transaction.
    The Chairman. Is Congress required to do that?
    Mr. Black. I think if Congress, whatever Congress puts in 
the bill, that is what we are going to have to do.
    The Chairman. Okay. On S. 2479 and S. 2480, your testimony 
that you submitted states that the Administration would like to 
see some small changes in the Nevada transfer bill, mostly 
making sure that the boundaries are correct and that certain 
Federal conservation efforts or access rights are maintained. I 
don't want to put words in your mouth but that is about what we 
read. Does the Administration have draft language that it has 
prepared to be able to share with us, the Committee, or do you 
have a time frame? If you don't have the language, do you have 
a time frame on when that language might be ready?
    Mr. Black. I don't have an exact time frame right now. But 
we can have that to you fairly quickly. I do know our staff has 
been working with the various Congressional offices to ensure 
that we are working through some of these. I don't think 
anything is a major issue. There are some boundary issues and 
survey issues that we need to address, as well as some of the 
other things you mentioned, energy corridors, et cetera.
    The Chairman. Okay. Well, what I would just ask, I don't 
know what a reasonable time is. We are dealing with five bills 
today, we are going to have a markup on a number of bills at 
the end of this month if they are ready to be moved. So if you 
have language that would be pretty easy to get done, if you 
would get it to us and we could get agreement from the bill 
sponsors, then we might be able to move this bill out at the 
end of the month.
    On S. 2480, the Nevada Land Transfer Act, transfers 93,000 
acres out of your control. Are there other departments or 
agencies that you would suggest that the tribes look to for 
assistance in planning and using these lands, the Office of 
Indian Energy at the Department of Energy, as an example?
    Mr. Black. I think all of the above would be worthwhile for 
the tribes to look at for assistance as they move forward with 
how they are going to manage those lands. The lands wouldn't 
come out of our control, they basically come from BLM ownership 
over to Bureau of Indian Affairs ownership, on behalf of the 
tribe.
    The Chairman. Is the BIA prepared to assist the tribes?
    Mr. Black. Certainly.
    The Chairman. And S. 2480 would release the Red Spring 
Wilderness Study Area from further study. Give us some more 
information on the details of that release and what that means 
for the land being transferred to the tribe.
    Mr. Black. Basically that would take the land out of that 
WSA, or I forget the exact term, but it takes it out of that 
WSA. The only people that can do that is Congress. So if 
Congress does that, and we are supportive of that at this 
point, there is another WSA right there in the area that we 
would continue to work with.
    The Chairman. Okay, that is good. On the Albuquerque 
conveyance, your statement on S. 2465 mentions a concern with 
the restrictions in 3(e) that may prevent the BIA from 
continuing its operations on the land. Section 3(e) does say 
that any existing restrictions already in effect shall remain 
in effect. So I am a little bit confused by the concern.
    Mr. Black. Our concern there primarily is that it is 
addressing rights-of-way and other easements and encumbrances. 
Right now we currently use those two parcels that I mentioned 
in my testimony for Southern Pueblo Agency. We just want some 
assurance, or maybe language that will give us a little more 
comfort. Talking with the Pueblos and others, I don't think 
that is going to be a problem. It is just something we wanted 
to make sure we noted.
    The Chairman. Have you talked to Senator Udall about this?
    Mr. Black. No, not at this point, but we certainly will.
    The Chairman. That would be good.
    Mr. Black. It is a very simple thing.
    The Chairman. You don't see this as a major blockage?
    Mr. Black. No.
    The Chairman. It is just a simple fix. Good.
    Mr. Black. We look forward to being able to transfer the 
remainder of those lands over to the Pueblos.
    The Chairman. That is perfect. I think this is another one, 
all five of these, frankly, if we can work out the problems 
that are there, we might be able to get something done, 
hopefully in this Congress.
    On the sovereign immunity provisions in S. 2503, the Water 
Rights Settlement, your testimony states concerns with the 
sovereign immunity and claims waiver provisions in S. 2503. Can 
you tell us how these issues could be resolved?
    Mr. Black. Honestly, I can't, sir, I am an engineer, not a 
lawyer. That is a question I am definitely going to have to 
defer to our solicitors in DOJ to provide a written response to 
you. And we are happy to do that.
    The Chairman. Are discussions currently going on at this 
point?
    Mr. Black. Yes, they are.
    The Chairman. So this is not new to them?
    Mr. Black. No, not at all.
    The Chairman. Okay. So the same kind of deal as the 
previous question, if you can get us that information it will 
enable us to move forward.
    Mr. Black. Yes.
    The Chairman. And if you want a time lines, I could say 
have it here in two weeks or three weeks, or one week, or 
tomorrow. But I won't do that to you because I know you, Mike, 
and I know you will get them here as quickly as possible.
    Mr. Black. Yes. I will do everything I can.
    The Chairman. Your testimony also recognizes that this is 
unique settlement and that the Administration is insisting on 
specific sovereign immunity language more consistent with past 
water rights settlements. Your testimony refers to these 
provisions as ad hoc provisions. But if this is a unique 
settlement, can we really use the standard boilerplate language 
that has been used in past settlements?
    Mr. Black. Again, I am going to have to get back to you on 
a more specific answer for that, as it relates to the water 
rights settlement and the sovereign immunity provisions.
    The Chairman. Okay, that sounds good. That is all I have, 
but since we have two members here, I will defer to them to see 
if they have any questions. Senator Crapo, do you have 
questions for Mr. Black?

                 STATEMENT OF HON. MIKE CRAPO, 
                    U.S. SENATOR FROM IDAHO

    Senator Crapo. No, thank you, Mr. Chairman, I just want to 
thank you for holding this hearing and I have a statement that 
I will just put into the record.
    [The prepared statement of Senator Crapo follows:]

     Prepared Statement of Hon. Mike Crapo, U.S. Senator from Idaho
    Thank you, Mr. Chairman, for holding this important hearing today.
    S. 2503 is a particularly innovative approach to Indian water 
rights settlements.
    Similar to the 2004 Snake River Act that approved Idaho's Nez Perce 
Agreement in the Snake River Basin Adjudication, this Phase One Indian 
water rights settlement brought together the Federal Government, an 
Indian Tribe, the State and non-federal water users to advance 
interests on all sides.
    Both are pioneering examples of collaboration that illustrate how 
Indian water rights can secure long-term future relationships between 
the Federal Government, Indian country, the State and non-federal water 
users.
    I am encouraged to see these types of negotiations succeed in Idaho 
and now Arizona.
    Thank you.

    The Chairman. Thank you for being here, Senator Crapo.
    Senator Udall, do you have anything? I just got done 
thoroughly grilling Mike Black on your bill. Do you have any 
questions you would like to ask him?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, first of all, Chairman Tester, 
for thoroughly grilling him and asking him all about it. I 
understand he has some concerns and we look forward to working 
with him to resolving those and making the Committee 
comfortable with the bill.
    The Chairman. So then you know, he looks forward to working 
with you, too.
    Senator Udall. Good.
    The Chairman. That is good.
    Senator Udall. Thank you very much.
    The Chairman. So with that, Mike, thank you very much for 
being here. We very much appreciate the time that you spent in 
front of the Committee. We will be working with you to get the 
issues on your concerns on your concerns and with all these 
issues.
    Mr. Black. Thank you.
    The Chairman. You bet.
    Now we are going to ask the third panel to come to the 
table. We are going to hear from Northern Cheyenne President 
Llevando Fisher, then we are going to hear from Chairwoman 
Aletha Tom of the Moapa Band of Paiute Indians, Chairman Arlan 
Melendez of the Reno-Sparks Indian Colony, both from Nevada. 
Chairwoman Sherry Counts of the Hualapai Tribe has joined us 
from Arizona, and finally, Mike Canfield, President of the 
Indian Pueblos Cultural Center has come to us from New Mexico. 
Each witness today will discuss the bills that are impacting 
their tribes. We have five bills, we have five witnesses and we 
have five minutes per witness.
    I would ask that you try to stay as close to that five 
minutes as you possibly can. The reason is because if you do 
that, it will give us more time for questions, which are always 
very beneficial. I want to thank you all for traveling, for the 
most part, a long distance to get here. We thank you for being 
willing to testify in front of this Committee.
    Before we start with you, President Fisher, I would kick it 
over to Senator Udall, if he would like to introduce Mr. 
Canfield.
    Senator Udall. Chairman Tester, thank you very much. I 
would like to introduce Mr. Canfield and say a few words about 
the bill, too.
    I am pleased to see Mike Canfield here testifying on behalf 
of S. 2465. He is a member of the Laguna Pueblo. Mike has more 
than 35 years of experience working in Indian Country and 
providing leadership and organization development expertise to 
tribal governments and tribally-owned organizations across the 
Country. I think he has done a very good job there.
    Mike became involved with the Indian Pueblo Cultural Center 
in Albuquerque almost 20 years ago as a board member. He 
transitioned into the CEO role in 2011. The corporation 
currently employs 180 people and is responsible for over $30 
million in annual revenue. The bill Mike is testifying on 
behalf of is a small, yet important land transfer to the 19 
Pueblos of New Mexico. In 1884, a tract of land in New Mexico 
was set aside for the construction of what became the 
Albuquerque Indian School. The school provided an education to 
Pueblo and other Indian students until the 1960s when the 
United States determined land was no longer needed for Federal 
Indian school purposes. In 1969, the United States began a long 
process of transferring the land into the jurisdiction and 
control of the 19 Pueblos of New Mexico. S. 2465 finalizes that 
process with the transfer of 11 acres consolidating several 
small parcels of contiguous land with the 44 acre tract that 
has been held in trust for the Pueblos since 1993. The Indian 
Pueblo Cultural Center property itself has been held in trust 
for the Pueblos since 1978.
    The Indian Pueblo Cultural Center is a real jewel and 
Chairman Tester, I would invite you out to the North Valley in 
Albuquerque to see that. It is on the development of the former 
Albuquerque and Indian School Reserve. It is instrumental for 
the economic development, and Mike knows this very well, the 
economic development of the 19 Pueblos. Mike has stated that 
the vision of the Albuquerque Indian School District is to 
become a self-sustaining district that they can manage as a 
micro-economy, a district where the Pueblo can conduct 
government-to-government relations, a central location for 
celebrating Pueblo arts and culture and a district that will 
provide significant economic development opportunities for the 
local community, including the 19 Pueblos of New Mexico. So I 
am proud to support the legislation and proud to have Mike as a 
friend and look forward, as we move through this, to asking him 
some questions.
    Thank you very much for letting me introduce him.
    The Chairman. Absolutely. Thank you, Senator Udall.
    Before we get to President Fisher, I would like to 
introduce a couple folks who came with President Fisher from 
the great State of Montana, Tracey Robinson and William Walks 
Along, welcome to both of you, to the Senate Indian Affairs 
Committee.
    With that, President Fisher, you are up.

STATEMENT OF HON. LLEVANDO FISHER, PRESIDENT, NORTHERN CHEYENNE 
                             TRIBE

    Mr. Fisher. Chairman Tester and Committee members, I am 
Llevando Fisher, President of the Northern Cheyenne Tribe of 
Montana. It is my second term as president and I have served 
many terms on the council.
    I would like to thank Senator Walsh for introducing S. 2442 
and thank the Committee for holding the hearing. I ask that my 
written statement be included in the record.
    Land is everything to the Northern Cheyenne Tribe. It is 
vital to us culturally, spiritually and to provide food and 
shelter. Our reservation is about 450,000 acres. Thanks to the 
courage and sacrifice that has been made, the tribe controls 95 
percent of its surface and all but 5,000 acres of the 
subsurface on the reservation.
    At the same time, the tribe has many economic and social 
challenges. The Northern Cheyenne Lands Act is designed to 
address these challenges by giving the tribe more control over 
the land, mineral and trust fund. This bill is a tribal bill. 
Over 20 years ago, during my first term as tribal president, I 
approached Great Northern Properties about the possibility of 
GNP transferring the rights to the tribe. Since then, many 
times, our resources have been dedicated to reaching agreement.
    Section 4 of the bill transfers the fee land to the United 
States in trust, north of the land or on our reservation. The 
reservation is good economic development for truck stop 
business facilities to support our program. The rest of the 
land is in South Dakota, adjacent to Bear Butte, a land that is 
sacred to our tribe, where our prophet Sweet Medicine received 
the sacred arrows from Bear Butte, along with the cultural ways 
of our people. Placing that land into trust will protect the 
land from commercial development and preserve its spiritual 
uses for our tribe and other Indian tribes who worship there.
    Section 5 will correct the error that over 114 years ago a 
Federal agent followed to follow the direction of Congress to 
acquire ownership of 5,000 subsurface acres within the 
reservation to the tribe. To correct the error, the Great 
Northern Properties will transfer these coal tracts to the 
tribe, a total of 117 million ton of coal. In return, the 
United States will transfer tracts containing 112 million tons 
of Federal coal to GNP. The tribe would waive all claims 
against the United States for the failure to acquire the 5,000 
acres for the tribe before.
    The tribe and GNP have agreed that the tribe would get 40 
percent of any revenue that GNP receives from the development 
of coal. This would be the first time the tribe has received 
any funds from coal mining surrounding our homeland.
    Section 6, transfer of $5 million of trust fund, was 
created by the tribe in 1992 water settlement to the tribe. The 
tribe can get a better transfer of the investment than the 
Office of Special Trust with a government fund that has been 
successful for many years. The principal of the funds will be 
invested in revenue and used for tribal programs such as 
education, heating bills and burial services. In exchange, the 
tribe will waive claims against the United States for 
misfunding the trust fund.
    Section 7 concerns land consolidation and agriculture. 
There is very little farm land on the reservation to do our 
tribal farm. A large area with suitable conditions must be in 
place. We have not been able to identify the place because our 
land is too fractionated. Section 7 would require Secretary of 
Interior to report to the Committee about the nature of the 
land consolidation on the Northern Cheyenne where agriculture 
is a possibility there. The tribe has worked with the Montana 
delegation introducing bills in previous Congresses to 
accomplish some of the goals in the current bill. This bill is 
35 percent different than the other bills incorporated in many 
other tribal compromises. The bill does not provide the tribe 
with the $7 million of funds addressed in the mineral 
development where our reservation is the primary recipient. The 
current bill does not include Federal coal that is about to be 
mined by the previous resident.
    The current bill involves Federal tracts near existing 
mines that are not controversial on more [indiscernible] that 
are identified in the [indiscernible]. This bill kind of 
protects the surface rights owner of that Federal tract for the 
first time. However, the tribe would like to work with the 
Committee on the language of Section 5 of S. 2442 that prevents 
surface mining in the tract subject to a 1984 BLM resources 
management plan. We believe that the current language will 
limit the tribe's income from these tracts if it was developed.
    In conclusion, S. 2442 is a tribal bill supported by the 
National Congress of American Indians, Montana tribal leaders, 
and the State land board. It will address many of the 
longstanding unjust suffering from the tribe at the hands of 
the Federal Government and give the tribe additional tools to 
enhance self-governance and economic development opportunities.
    We look forward to working with the Committee. Thank you.
    [The prepared statement of Mr. Fisher follows:]

    Prepared Statement of Hon. Llevando Fisher, President, Northern 
                             Cheyenne Tribe

    Chairman Tester and Committee Members, I am Llevando Fisher, 
President of the Northern Cheyenne Tribe of Montana. Some people call 
me ``Cowboy.'' I was elected as President by vote of our Tribal 
membership and my term expires in November 2016. Prior to that, I was 
elected by the people to serve as President in 1992 and to multiple 
terms on our Tribal governing body, the 11-person Northern Cheyenne 
Tribal Council. I am pleased to be here today to testify on behalf of 
the Northern Cheyenne Tribe in strong support of S. 2442, the Northern 
Cheyenne Lands Act. Today, I am accompanied by Tribal Councilmembers 
Eloise Snow and Tracy Robinson and Tribal Administrator William 
Walksalong. I want to thank Senator Walsh for introducing S. 2442 and 
thank the Committee for holding this hearing.
    If S. 2442 is enacted, several long-standing paramount issues for 
the Northern Cheyenne will finally be resolved and the Tribe's ability 
to control its land, mineral resources, and trust funds will be greatly 
enhanced. This will improve the Tribe's ability to self-govern and 
control its own destiny and will provide sorely needed economic 
development opportunities. I want to stress that the Northern Cheyenne 
Lands Act is a Tribal bill. The bill has four key elements.
Summary of S. 2442
    First, S. 2442 directs the Secretary of the Interior to take 
certain fee lands owned by the Tribe into trust. As authorized by 
Section 4, certain land that the Tribe has acquired in fee over the 
years with its very limited resources would be transferred into trust 
status. Most of the land is on-Reservation, with two of the parcels 
adjacent to other land near the Reservation already held in Trust for 
the Tribe. The remaining land is located very close to our most 
precious sacred site, Bear Butte in South Dakota. By transferring those 
lands into trust status, the Tribe would strengthen the permanency of 
its land holdings, eliminate jurisdictional ambiguities, increase 
economic development opportunities, and protect an important sacred 
site. On the lands in Montana, the Tribe would attempt to engage in 
economic development, such as a convenience store and truck stop, and 
build facilities for important social programs. For the sacred lands in 
South Dakota, trust status will ensure their protection from commercial 
development.
    Second, Section 5 of the bill directs the Secretary to accept eight 
subsurface sections owned by Great Northern Properties (GNP) and 
located within the Reservation into trust for the Tribe. The Secretary 
is directed to transfer sections of federal coal to GNP as compensation 
for the on-Reservation tracts. Our Reservation will finally be made 
whole by rectifying an error made by the United States over a century 
ago. Congress directed the acquisition of land to expand the 
Reservation and the federal agent charged with this responsibility 
failed to acquire 5,000 subsurface acres of prime coal on our 
Reservation. Those subsurface acres would be transferred to the Tribe 
by the private company that currently owns them, GNP. This would 
fulfill commitments made to the Tribe in 2002 by the Montana 
Congressional delegation, other federal officials, and the State of 
Montana when the Tribe dismissed a lawsuit against the United States. 
GNP would receive coal from the United States and the Tribe would be 
granted a 40 percent interest in any revenue GNP receives from that 
coal if it is ever developed. This would be a badly needed revenue 
stream which would help mitigate the many impacts of the mineral 
development that has encircled our Reservation and our people for many 
years.
    Third, the Secretary is directed to transfer to the Tribe a trust 
fund that was created for the Tribe and is currently held by the United 
States Office of Special Trustee (OST). As authorized by Section 6, a 
fund that originated from the Northern Cheyenne Reserved Water Rights 
Settlement Act of 1992 would be transferred to the Tribe's permanent 
fund and held in perpetuity to fund important basic services such as 
educational programs, home energy bills, elderly needs and burials, all 
of which often go unfunded due to lack of resources. The fund is 
currently held for the Tribe's benefit as the ``Northern Cheyenne Trust 
Fund'' by OST and its earnings are credited to the Tribe.
    Fourth, Section 7 directs the Secretary to prepare an inventory of 
fractionated lands within the Northern Cheyenne Reservation that the 
United States holds in trust for the Tribe or individual Indians and to 
provide information about the suitability of those fractionated lands 
for agricultural purposes. The Tribe believes that agriculture could be 
an important source of income, employment, and pride to Tribal members 
in the future; however, there is very little farming on the Reservation 
today. The inventory called for by Section 7 will help the Tribe direct 
its land consolidation efforts toward creating Tribal-owned tracts 
suitable for agriculture, which would create another source of income 
and employment for the Tribe and its members. Section 7 also directs 
the Secretary to periodically report the Tribe's progress toward land 
consolidation and economical agricultural use of trust land, including 
``lessons learned'' in the process, to this Committee and the House 
Committee on Natural Resources no less than once per year for the next 
five years.
    Attached to my written statement is a document that summarizes the 
Northern Cheyenne Tribe's dramatic struggles over the past 40 years 
with coal-related development, which provides perspective on why the 
enactment of the Northern Cheyenne Lands Act is just and appropriate. I 
also attached copies of a letter signed by each member of the State of 
Montana's Board of Land Commissioners (consisting of the State's five 
top elected officials), a resolution of the Montana-Wyoming Tribal 
Leader's Council, and a resolution of the National Congress of American 
Indians, each supporting S. 2442 and urging its passage. Finally, I 
have included two maps--one showing how our Reservation has been 
encircled by coal-related development projects, and another showing our 
Reservation, its communities and the network of on-Reservation roads 
serving those off-Reservation projects. As discussed in greater detail 
herein, these projects force extensive unmitigated impacts onto our 
Reservation and people, while the Tribe and its members are excluded 
from the compensating benefits (impact funding, employment, and 
commercial opportunity) of such development. I request that all these 
documents be included in the hearing record.

Preserving and Protecting Tribal Land is of Paramount Importance to the 
        Northern Cheyenne
    We Northern Cheyenne cherish our land. To us, our land is 
everything. It has provided for our families for centuries. After we 
were forcibly relocated to the Oklahoma Territory in 1878 as 
retribution for our resistance to non-Indian domination and our 
participation in the Battle of the Little Bighorn (the Custer Battle), 
we (uniquely among all other tribes so relocated) trekked back to our 
historic homeland in Montana. This journey came at great cost to the 
Tribe--death, imprisonment and other deprivations--as we were hounded 
along the way by thousands of hostile U.S. military soldiers and 
settlers. We eventually made it back to Montana to reclaim our homeland 
and the Northern Cheyenne Reservation was later formally established by 
Presidential Executive Order in 1884.
    Today, the Northern Cheyenne Reservation is bordered on the west by 
the much larger Crow Indian Reservation and on the east by the Tongue 
River. Our Reservation is truly the homeland of the Northern Cheyenne. 
The Reservation population is approximately 90 percent Northern 
Cheyenne. Non-Indian presence on the Reservation is minimal. A majority 
of our approximately 10,000 Tribal members reside on the Reservation. 
Traditional Cheyenne values and culture still thrive on the Reservation 
and the Cheyenne language is still spoken. The Reservation remains 
culturally distinct from the surrounding land and communities.
    Of its 447,000 acres, over 95 percent of the Reservation surface is 
owned, controlled and used by the Tribe and its members. The primary 
land uses are cattle grazing, some timber harvesting, and ceremonial 
and subsistence use. Non-Indian use of Reservation lands is minimal. 
Despite the Tribe's success in controlling much of the Reservation, 
there are a few areas where the Tribe strongly desires to shore up 
control and ownership, and those areas are addressed in the Northern 
Cheyenne Lands Act.
    Despite extremely limited resources, the Tribe has continued to 
prioritize land acquisition within the Reservation and purchased 
approximately 1600 acres of land it now owns in fee. Section 4 of S. 
2442 authorizes the Secretary of the Interior to transfer that fee land 
into trust status. Much of that land is located in areas that could be 
commercially developed in our population center of Lame Deer. By 
transferring the Reservation lands into trust, the Tribe's jurisdiction 
to regulate those lands would never be questioned and Tribal beneficial 
ownership of that land would be essentially permanent for future 
generations because it is more difficult to convey trust land than fee 
land.
    The legislation also authorizes the Secretary of the Interior to 
take into trust 635 acres adjacent to the Bear Butte State Park in 
South Dakota which the Tribe purchased. Bear Butte is on the National 
Register of Historic Places and a National Historic Landmark. Bear 
Butte is considered by many Native Americans, including members of the 
Northern Cheyenne Tribe, as a sacred place. Bear Butte is our Mount 
Sinai. It is where our prophet Sweet Medicine received the Sacred 
Arrows along with the ceremonies and cultural ways of our people. The 
Sacred Arrows remain protected by our traditional leaders to this day. 
These lands also serve as a base for tribal pilgrimages. By placing the 
lands in trust, the United States would be furthering the Tribal goal 
of protecting Bear Butte from commercial development that is 
inconsistent with its spiritual importance. Placing the lands into 
trust will preserve their spiritual use by our Tribe and other Indians 
who worship there.

The Tribe's Ownership of the Reservation Mineral Estate is Plagued by a 
        Century-Old Federal Error
    The entire Reservation mineral estate--except for the eight 
sections that are the subject of Section 5 of S. 2442--is owned by the 
Tribe as a single entity. Because of the paramount importance to us of 
our land, we have a sacred duty to pursue ownership of the eight 
sections. Securing ownership of those eight sections has been a 
priority of the Northern Cheyenne for decades, including when I served 
as Tribal President 20 years ago, and S. 2442 will finally accomplish 
that goal.
    The eight sections of subsurface are also of great commercial 
value. The coal is very high quality and relatively easy to mine 
economically. Several decades ago, those subsurface rights were leased 
to Peabody Coal Company for valuable consideration by the then-owner, 
Burlington Northern Railroad. Although those leases are no longer in 
force, we don't want to repeat that experience again. But, without 
ownership of that subsurface, we at best have limited power over, and 
would suffer impacts and gain scant benefits from, the development of 
the coal.
    We have been continuously deprived of ownership of the eight 
subsurface sections since 1900 because of a federal error. In 1900, 
because of hostilities and violence between Northern Cheyenne, non-
Indian settlers and illegal squatters on or adjacent to the Tribe's 
1884 Reservation, Congress directed Indian Inspector James McLaughlin 
to purchase the legal and illegal non-Indian interests on and near the 
Reservation so that the Reservation could be enlarged eastward to the 
middle of Tongue River. Inspector McLaughlin proceeded to do so, paying 
the legal and illegal settlers between $1500 and $2000 per claim. In 
contrast, Inspector McLaughlin paid only $25 per family to Northern 
Cheyennes then living on federal land previously allocated to them east 
of the Tongue River. The Reservation was then expanded eastward to mid-
channel of the Tongue River by Presidential Executive Order in 1900.
    In performing his duties, Inspector McLaughlin made a critical 
error. Although he purchased all lands within the Reservation (as 
expanded) then owned by Northern Pacific Railway, Inspector McLaughlin 
missed eight sections of subsurface owned by the Railway. For 114 
years, the United States has failed to remedy this error by not 
acquiring this valuable mineral estate for the Tribe. Approximately 20 
years ago, Great Northern Properties purchased the entire inventory of 
railroad subsurface in Montana, including the eight sections within the 
Northern Cheyenne Reservation. If the Northern Cheyenne Lands Act is 
passed, the Tribe would waive all claims related to this error.

A Tribal Initiative to Rectify the Federal Error Which Could Result 
        in Much-Needed Tribal Income from Off-Reservation Mineral 
        Development
    The Tribe, on its own initiative, approached GNP with a proposal to 
resolve by agreement the 114-year old federal error which deprived the 
Tribe of ownership of the eight sections of Reservation subsurface now 
owned by GNP. The beginning of this process is documented in a 1993 
letter from the Tribe's mineral consultant to the Tribe's attorney 
reflecting a conversation with GNP's President, who was receptive to 
the idea. A copy of that letter is attached and I request that it be 
included in the hearing record. The Tribe successfully negotiated and 
drafted a written agreement with GNP committing GNP to deed its eight 
sections of Reservation subsurface to the Tribe if GNP receives off-
Reservation federal coal reserves in Montana as compensation for the 
transfer. An updated version of that agreement is near completion. With 
the willing cooperation of GNP and the Tribe, the United States is now 
in a position to remedy an ongoing federal mistake that greatly impacts 
the Northern Cheyenne Tribe. The Northern Cheyenne have waited many 
decades for this opportunity.
    The Tribe--GNP agreement also provides that the Tribe will receive 
40 percent of the net revenue from the off-Reservation coal that is 
subbituminous and 24 percent of the net revenue from the off-
Reservation coal that is lignite. The federal coal tracts, which have 
been identified for the transfer and are depicted in maps referenced in 
S. 2442, consist of tracts in the vicinity of the Bull Mountains and 
East Fork mine areas. Despite their relative proximity to those mine 
areas, current development plans are such that the coal in this 
sections would not be mined for at least 10 to 15 years. The Tribe's 
royalty interest in the Bull Mountains and East Fork tracts would 
provide desperately-needed revenue to the impoverished Northern 
Cheyenne Tribe. Those Tribal royalty interests would, if the tracts 
were ever mined, yield the only source of funding available to the 
Tribe to deal with the impacts of the mining of those tracts near the 
Reservation. All of these tracts contain subbituminous coal and the 
Tribe would therefore hold a 40 percent interest in the royalties 
derived from the future development.
    The royalty revenue would help redress continued economic 
imbalances and burdens imposed on the Tribe by off-Reservation coal 
development. The Northern Cheyenne Reservation lies in the heart of 
Montana's Powder River coal region. As shown in the attached maps, the 
Reservation is surrounded on all sides by major existing and proposed 
coal-related projects and includes a network of roads used by these 
offReservation projects to travel through the reservation and the 
region. This pattern of development produces major influxes of 
newcomers to the area and leads to undesirable socioeconomic effects on 
the Tribe, including on-Reservation crime, traffic and accidents. 
Because our Tribal government lacks adequate legal authority and 
resources to deal with these non-Indian incursions, there are 
heightened tensions between Tribal members and non-Indian visitors.
    Public services and facilities on the Reservation have long been 
grossly inadequate, both in absolute terms and in marked contrast to 
off-Reservation communities. The surrounding development increases 
pressures on those public services and facilities. Severe deficits have 
been documented in Reservation housing, water and sewer, solid waste, 
education, health care, law enforcement, fire protection, and 
transportation. Those deficits increase as on-and offReservation 
populations increase with development.
    With no tax base and minimal on-Reservation economic development, 
the Tribe thoroughly lacks the financial resources to address these 
socio-economic impacts and respond to the increased demands caused by 
the off-reservation coal development. In contrast, the surrounding 
development produces tremendous public revenues (lease bonuses, rents 
and royalties, state production taxes, real and personal property 
taxes, and other exactions) for the United States, the State of Montana 
and the counties and municipalities that adjoin the Reservation. The 
Tribe is privy to none of these public revenues. We suffer the impacts 
of development but receive no revenues that would allow us to minimize 
the ills inflicted by this development.
    Also, while the Northern Cheyenne suffer chronic unemployment rates 
averaging over 60 percent, very few Northern Cheyenne are employed in 
these off-Reservation projects. Indeed, Reservation unemployment rates 
have not improved during the course of the development of coal mines 
and power plants in the vicinity of the Reservation. Historically, 
Native American employment in Montana's Powder River Basin mines has 
averaged approximately 3.5 percent of the total labor force, absent any 
special hiring-agreement mandates. State law does not authorize the 
holders of State mining leases to offer any employment preference to 
local Native Americans. The bottom line is that average per-capita 
income on the Northern Cheyenne Reservation is a minor fraction of that 
in surrounding communities, and the Tribal unemployment rate is many 
multiples of the off-Reservation rate.
    In summary, because of the very weak economic ties between the 
Reservation and surrounding off-Reservation communities, the Northern 
Cheyenne have not shared in the economic gains from regional coal 
development. The Reservation does not benefit significantly in terms of 
jobs, construction contracts, general business activity, or increases 
in Tribal governmental revenues from the regional increase in economic 
activity generated by additional off-Reservation coal development. 
Thus, the Northern Cheyenne suffer an array of major adverse impacts 
from the off-Reservation (largely federally-sponsored or facilitated) 
coal-related development and enjoy few, if any, of the compensating 
benefits enjoyed by the United States, the State and surrounding 
communities and residents. However, the Tribe may be able to share in 
those compensating benefits someday via a revenue sharing agreement 
that will only be possible if the Northern Cheyenne Lands Act becomes 
law.

The Tribe Settled its Claims Over the Otter Creek Coal Transfer in 
        Exchange for Promises to Support the Goals Contained in S. 2442
    The Congressionally-directed transfer of the massive federal Otter 
Creek Coal Tracts to the State of Montana in 2002 perpetuates and 
exacerbates the existing economic and social inequities between the 
Reservation and surrounding communities. The Otter Creek Tracts 
comprise about 8,000 acres of coal lands along both sides of Otter 
Creek south of Ashland, Montana, and just east of the Northern Cheyenne 
Reservation. The Tracts are estimated to contain 533 million tons of 
recoverable coal reserves checkerboarded with more than 700 million 
tons of private and other State coal. The result is the single largest 
block of currently available, developable coal reserves in Montana. 
Those resources have now been entirely leased to a wholly-owned 
subsidiary of Arch Coal, Inc., the Nation's second largest coal mining 
company, and Arch is aggressively proceeding toward development. The 
surface rights to the Otter Creek Tracts are held by private 
landowners, the State of Montana and the Bureau of Land Management. 
Otter Creek is a tributary to the Tongue River, which forms the eastern 
boundary of the Northern Cheyenne Reservation.
    The Tribe, in extensive correspondence and meetings with all major 
interests, strongly and repeatedly expressed opposition to the proposed 
transfer of the Otter Creek tracts by the Secretary of the Interior to 
the State without accompanying measures to mitigate the enormous 
negative economic and social impacts that development of the Otter 
Creek tracts would have on the Reservation. The Tribe filed a lawsuit 
in Federal District Court in Washington, D.C. to enjoin the Secretary's 
transfer of the Otter Creek Tracts to the State.
    In an effort to achieve a settlement of its claims, the Tribe met 
with members of Congress, the Governor, the other top elected officials 
of the State, the Secretary of the Interior, BLM, BIA, industry and 
other interested parties. As a result, the Montana State Land Board 
agreed to support the enactment of Federal legislation providing impact 
funding to the Tribe, directing the transfer of the GNP-owned 
subsurface tracts within the Reservation to the United States and 
compensating GNP with a transfer of federal coal, and providing the 
Tribe with an economic interest in the development of the coal received 
by GNP. In return for the foregoing State commitments, the Tribe agreed 
to, and did, dismiss with prejudice its federal lawsuit. Features of 
that settlement are in the Northern Cheyenne Lands Act; namely, the 
provisions related to clearing title to the 5,000 subsurface acres 
currently held by GNP and the accompanying revenue sharing opportunity 
for the Tribe in revenue generated from the tracts to be transferred to 
GNP.
    In negotiating its Otter Creek settlement with all parties from 
beginning to end, the Tribe worked closely and with the encouragement 
of the Montana Congressional delegation and BLM's Montana State Office. 
The understanding reached was that federal impact funding of $10 
million per year for seven years would be sought through legislation, 
structured in a way to assure that that financial resource would be a 
permanent resource, available to the Tribe to fund on-Reservation 
public services, facilities and other governmental matters, as new 
development projects proceeded within 25 miles of the Reservation. In 
fact, $70 million of impact funding was included in a 2004 iteration of 
the bill.
    The Tribe, in good faith, relied on all of these commitments in 
consummating the Otter Creek settlement and dismissing its litigation 
against the Otter Creek transfer. However, the impact funding has not 
been included in S. 2442 in light of the current difficulties in 
securing any direct funding from Congress. Someday, we hope to secure 
such funding. As things currently stand, therefore, the proceeds of the 
proposed Tribal 40 percent interest in the GNP royalties stand as the 
only potential source of impact funding available to the Tribe to cope 
with the accrued and future impacts of surrounding coal-related 
development, including the massive development envisioned for the Otter 
Creek tracts.
    In addition to foregoing tens of millions of dollars of impact 
funding, the Tribe has addressed several concerns raised in prior 
versions of the bill. First, the location of the federal tracts GNP 
would receive is in proximity to existing mines. Prior iterations of 
the bill included tracts in pristine and highly controversial areas, 
such as the Otter Creek area. Second, in contrast to other tracts in 
prior bills, the tracts GNP would receive are not within any mine plan 
or scheduled for development. Currently, the tracts would not be 
developed for at least 10-15 years. It is entirely possible the tracts 
are never mined given current coal market conditions. Third, the 
concerns of the owners of the surface lands over the federal minerals 
are addressed. The bill includes a provision retaining the federal 
right of surface owners to control whether mining occurs below their 
lands even after the federal tracts are transferred to GNP. Prior 
iterations of the bill did not include this element either.
    However, for several reasons, the Tribe would like to work with the 
Committee to address the inclusion of Section 5(a)(2)(A)(ii) in S. 
2442, which prohibits surface mining on federal tracts conveyed to GNP 
if those tracts were not ``determined to be acceptable for further 
consideration for leasing'' in the 1984 BLM Billings Resource 
Management Plan (RMP). First, as mentioned above, Section 5(a)(2)(A)(i) 
already protects the rights of surface owners by retaining the federal 
right of surface owners to control whether mining occurs below their 
lands even after the federal tracts are transferred to GNP. Second, 
prohibiting surface mining on tracts based on the 1984 RMP could limit 
the Tribe's ability to earn income on these tracts if they are ever 
developed. As part of the exchange agreement between the Tribe and GNP, 
the Tribe will receive a significant income derived from the royalties 
paid from the mining of coal underneath the tracts affected by the 1984 
RMP provision. In the future, if it is determined that those tracts 
could be surface mined, appropriate mining permits are issued and 
surface owner consent is obtained, the RMP provision would limit the 
Tribe and GNP from monetizing the resources they own under the affected 
tracts. As discussed above, the Tribe has already compromised by 
agreeing to forgo $70 million in impact aid at this time. Thus, the 
Tribe's royalty interest in the Bull Mountains and East Fork tracts is 
the only funding in the bill available to assist the Tribe in dealing 
with the impacts of off-Reservation coal development. Therefore, it is 
important to the Tribe that it receive the maximum return possible on 
its royalty interest to provide desperately-needed income.
The Tribe is Entitled to Manage its Own Water Rights Trust Fund
    Section 6 of S. 2442 concerns a $5 million trust fund account, 
referred to as the ``Northern Cheyenne Trust Fund,'' which is currently 
held on behalf of the Tribe by the OST. The earnings are applied for 
the benefit of the Northern Cheyenne Tribe. The principal amount in the 
Fund originated from the 1991 Water Rights Compact between the United 
States, State of Montana, and the Tribe.
    These same parties reached a settlement agreement in 1999 which 
states that the principal of the Fund shall remain in perpetuity, that 
the earnings of the Fund are to be paid to the Tribe, and that the 
Tribe may transfer the Fund from federal to private management. OST has 
paid the earnings from the Fund to the Tribe, including over the last 
few years. However, in 2008, OST took a position inconsistent with the 
settlement agreement: because the appropriation could only be used for 
purposes expressly authorized by Congress, the principal account 
balance must remain under federal control. The Tribe strongly disagrees 
and believes that it is entitled to transfer the funds to private 
management, as originally agreed upon by the parties. This issue would 
be resolved if Congress directed OST to transfer the funds to the 
Tribe's permanent fund for private management.
    The Tribe's Permanent Fund Plan states that the principal must be 
held in perpetuity and only a certain percentage of the earnings may be 
used each year, specifically: 5 percent of the average quarterly market 
value of the Permanent Fund during the immediately preceding four 
fiscal years. The earnings can be used for a limited number of uses: 
law enforcement, education, youth or elderly programs, burial, public 
services, culture, land acquisition, natural resources, economic 
development, Reservation district allocations, and governmental 
services. By directing the Secretary to transfer the fund to the 
Tribe's Permanent Fund, the funds would be held in perpetuity and the 
earnings would be used for these vital services.
    The Permanent Fund is a very secure vehicle for these funds. The 
Permanent Fund plan cannot change without a vote of the Tribe's 
membership and the membership has repeatedly shown that it is reluctant 
to make any changes to this fund. The fund has grown by several 
millions of dollars in its almost two decades of existence.
    The United States has failed to manage the Northern Cheyenne Trust 
Fund in compliance with its fiduciary responsibilities, resulting in a 
very low rate of return. This gives rise to claims against the United 
States for trust fund mismanagement. Such claims would be waived by the 
Tribe under S. 2442.

The Tribe Would Benefit from Consolidating Fractionated Trust Lands 
        That Are Suitable for Agriculture
    The final section of S. 2442, Section 7 directs the Secretary to 
prepare an inventory of fractionated lands within the Northern Cheyenne 
Reservation that the United States holds in trust for the Tribe or 
individual Indians and to provide information about the suitability of 
those fractionated lands for agricultural purposes. The Secretary is 
also directed to submit the land inventory to this Committee, as well 
as the House Committee on Natural Resources, within 180 days of 
enactment. The Tribe is interested in creating additional income and 
employment opportunities on the Reservation through agriculture. The 
Tribe hired a consultant several years ago to examine the Reservation's 
potential for agriculture. The consultant determined that the Tribe 
would need at least 6,000 contiguous acres under Tribal ownership, with 
the correct conditions to operate a Tribal farm within the Reservation. 
We have not been able to identify locations on the Reservation that 
could support a farm because many tracts suitable for agriculture are 
highly fractionated. Obtaining leases from the individual owners of 
fractionated lands is hindered by the often extreme number of heirs who 
must consent to a lease. The inventory called for by Section 7 of the 
bill would help the Secretary and the Tribe identify the extent of 
fractionation as it relates to agricultural lands, which will help the 
Tribe determine how to consolidate fractionated interests into Tribal 
ownership to create tracts suitable for agriculture.
    Section 7 of the bill directs the Secretary to prepare periodic 
reports regarding obstacles to consolidating trust land ownership on 
the Reservation, the Tribe's progress toward making agricultural use of 
trust land economical, and any outcomes or lessons learned by the 
Secretary and the Tribe as a result of the Tribe's land consolidation 
efforts. These reports shall be submitted to this Committee and the 
House Committee on Natural Resources no less than once per year for the 
next five years. As one of the first tribes to sign a cooperative 
agreement with the Department of the Interior Land Buy-Back Program for 
Tribal Nations, the Tribe is excited to share news of its land 
consolidation obstacles and achievements with Congress.

Conclusion
    The Tribe has pursued passage of S. 2442 with integrity and honor. 
S. 2442, if enacted, would achieve the following constructive results:

        (1)  Consolidate the Tribe's land base and the Tribe's ability 
        to self-govern.

        (2)  Enhance the Tribe's opportunity for economic development 
        on the Reservation.

        (3)  Protect the area around Bear Butte, which is sacred to the 
        Northern Cheyenne and other tribes.

        (4)  Remediate the federal government's 114-year error which 
        has deprived the Tribe of ownership of eight sections of 
        Reservation subsurface. As S. 2442 provides, in return for the 
        mineral conveyances provided for in the bill, the Tribe would 
        release any and all claims it may have against the United 
        States for that error.

        (5)  Prevent GNP (or anyone else) from developing the eight 
        sections without Tribal consent or benefit, irrespective of the 
        long-standing Tribal concerns about Reservation coal 
        development.

        (6)  Provide a potential revenue stream to the Tribe to help 
        the Tribe cope with the accrued and future impacts of adjoining 
        off-Reservation coal-related development.

        (7)  Address the long-standing injustices suffered by the Tribe 
        from federallysponsored and facilitated coal-related 
        development in areas near the Reservation, while the Tribe's 
        trustee financially benefits from such development.

        (8)  Secure the Northern Cheyenne Trust Fund to be held in 
        perpetuity to fund vital Tribal programs for the youth, elderly 
        and other underprivileged Tribal members. The Tribe would 
        release the United States from liability related to management 
        of the Fund.

        (9)  Reward the Tribe for its self-generated, steadfast and 
        honorable effort to resolve these matters by agreement rather 
        than litigation.

        (10)  Give the Tribe an inventory of fractionated trust lands 
        that will allow the Tribe to direct its land consolidation 
        efforts toward achieving a Tribal-owned land base suitable for 
        agriculture.

        (11)  Provide Congress with helpful information on lessons 
        learned by the Secretary and the Tribe during the trust land 
        consolidation process.

    Again, Chairman Tester and Committee Members, I want to thank you 
for your consideration of S. 2442, the Northern Cheyenne Lands Act. 
Enactment of this bill will help address many wrongs that have been 
done to the Northern Cheyenne by the United States over the centuries. 
The Tribe did not create the situation we now find ourselves in. We 
implore Congress and the Administration to do the right thing and 
enable the Northern Cheyenne to control their own lands and trust 
funds, and therefore control their own destiny.
    Attachments
    Northern Cheyenne Lands Act--Historical Perspective--May 7, 2014
    Struggle for the Reservation. The Northern Cheyenne cherish their 
land. To them, their Reservation is everything. It has provided for the 
Northern Cheyenne for centuries. Northern Cheyenne bands made their way 
back to the Tribe's original lands in Southeast Montana after the 
notorious massacres at Sand Creek and Washita. Later, they were 
forcibly relocated to the Oklahoma Territory in 1878 as retribution for 
their resistance to White domination and their participation in the 
Battle of the Little Bighorn (the Custer Battle), and then (uniquely 
among all other tribes relocated to the Oklahoma Indian Territory) 
fought their way back to their historic homeland in Montana. The 
journey came at great cost to the Tribe--death, imprisonment and other 
deprivations--hounded along the way by thousands of hostile military 
and settlers. The Northern Cheyenne eventually made it back to Montana 
to reclaim their homeland.
    1884 Reservation. In 1884, by Executive Order, President Arthur 
established a 371,200 acre reservation for the Northern Cheyenne Tribe 
extending westward from the eastern border of the Crow reservation to 
10 miles east of the Tongue River in Montana. \1\ The Reservation 
included non-Indian settlers within its boundaries. A number of Tribal 
members living east and west of the Tongue River were not encompassed 
within the Reservation. Violent conflicts arose between Tribal members 
and early white settlers. Pending resolution of the situation, the 
Secretary of the Interior withdrew additional lands in 1886, including 
lands between the Reservation's eastern boundary and the Tongue River, 
as well as land to the east of the Tongue River. \2\ These withdrawals 
further heightened the hostilities.
---------------------------------------------------------------------------
    \1\ Exec. Order of Nov. 26, 1884.
    \2\ See Brief for the Northern Cheyenne Tribe as Amicus Curiae 
Supporting Defendants-Appellees, Fidelity Exploration & Production Co. 
v. U.S., 506 F.3d 1182 (9th Cir. 2007).
---------------------------------------------------------------------------
    1900 Expansion of Reservation. In 1898, Congress directed the 
Secretary to investigate and report on the situation and, specifically, 
to determine whether it was feasible to relocate the Northern Cheyenne 
to the adjacent Crow Reservation. \3\ In November, 1898, U.S. Indian 
Inspector James McLaughlin reported to Congress that the Tribe was 
unwilling to move to the Crow Reservation and the Crows were unwilling 
to receive them. McLaughlin recommended that ``if the reservation were 
cleared of white settlers, who occupied much of the best land on the 
reservation, and if a sufficient amount of other desirable land could 
be added to the reservation, many of the difficulties of the Northern 
Cheyenne could be eliminated.'' \4\ He also reported on his 
negotiations with the white settlers (legal and illegal) for the 
acquisition of their lands within the expanded limits of the 
Reservation so as to entice those Northern Cheyenne living east of the 
Tongue River to relocate to the expansion area. \5\
---------------------------------------------------------------------------
    \3\ Id. at 4. See also Opinions of the Solicitor of the Department 
of the Interior, M-34758, Validity of Patents Issued to Northern 
Cheyenne Indians (September 5, 1947).
    \4\ Id. at 1469.
    \5\ Id. See also James McLaughlin, My Friend the Indian 302 
(Houghton Mifflin Co. 1910). In his biographical novel, McLaughlin 
noted that in implementing the expanded Reservation he ``found it 
necessary not only to buy out ranchers and individual settlers on a 
small scale, but actually to buy up the town of Hutton, Montana, which 
had been located on the reservation lands, through the incorrectness of 
a map of the portion of Custer County.''
---------------------------------------------------------------------------
    In a second report issued in February 1900, McLaughlin recounted 
his negotiations with the Northern Pacific Railway Company for the 
purchase of the railway holdings within the expansion area. The Railway 
held checkerboard sections of public lands (surface and subsurface) 
under prior Acts of Congress \6\ intended to induce westward Railway 
expansion. In early 1900, McLaughlin reported that he had reached 
purchase agreements with the Railway and persons who had purchased 
surface land from the Railway within the expansion area. \7\
---------------------------------------------------------------------------
    \6\ Northern Pacific Land Grant Act, July 2, 1864 (13 Stat. 365); 
Joint Resolution 67, May 31, 1870 (16 Stat. 378).
    \7\ Opinions of the Solicitor of the Department of the Interior, M-
34758 at 1469.
---------------------------------------------------------------------------
    On March 19, 1900, President McKinley by Executive Order expanded 
the Reservation as McLaughlin had recommended. The boundaries of the 
Northern Cheyenne Reservation now ran from the Crow Reservation on the 
West to the middle of the Tongue River on the East. \8\ On May 31, 
1900, Congress appropriated the funds necessary to pay for lands 
purchased by McLaughlin, including those of the Railway and its 
successors. The Secretary then revoked 1886 withdrawal orders covering 
the public lands east of the Tongue River. \9\
---------------------------------------------------------------------------
    \8\ Exec. Order of March 19, 1900.
    \9\ Opinions of the Solicitor of the Department of the Interior, M-
34758 at 1469.
---------------------------------------------------------------------------
    GNP's 5,000 Acres of Subsurface. The Railway had previously sold 
some of its surface lands within the Reservation expansion area to 
others, while retaining ownership of about 5,000 acres of the 
underlying subsurface. In purchasing from the railway, McLaughlin 
unfortunately neglected to acquire that underlying Railway subsurface. 
In 1992 (92 years later), Great Northern Properties (``GNP'') purchased 
those subsurface lands from a subsidiary of the Railway. This split 
estate (between Tribal surface ownership and third party subsurface 
ownership), subsists 112 years after Congressional direction to 
purchase the private in-holdings within the expanded Reservation in 
trust for the Tribe. These 5,000 acres are the only subsurface within 
the Reservation not owned by the Tribe.
    Tribal Homeland. Today, the Northern Cheyenne Reservation is 
bordered on the west by the 4-5 times larger Crow Indian Reservation 
and on the east by the Tongue River. The Northern Cheyenne Reservation 
is truly the homeland of the Northern Cheyenne. The Reservation 
population is a 90 percent Northern Cheyenne. Non-Indian presence on 
the Reservation is minimal. A majority of the Tribe's almost 10,000 
Tribal members reside on the Reservation. Traditional Cheyenne values 
and culture still thrive on the Reservation and the Cheyenne language 
is still spoken. The Reservation remains culturally distinct from the 
surrounding land and communities.
    Significantly, the Northern Cheyenne Reservation was the last 
Reservation to be allotted by Congress. Because of that very late 
Allotment Act, the Tribe's reverence for the Reservation, and a long-
standing Tribal buy-back program, almost all of the Reservation surface 
is held in trust for the Tribe as an entity and its members. 
Furthermore, the Reservation surface is overwhelmingly controlled and 
used by the Tribe and its members. The primary land uses are cattle 
grazing, timber harvesting (entirely suspended for years due to adverse 
market conditions), farming, and ceremonial and subsistence use. The 
entire Reservation mineral estate--except for the 5,000 acres that are 
the subject of the Northern Cheyenne Lands Act--is owned by the Tribe 
as a single entity. Because of the paramount importance to them of the 
Reservation, the Northern Cheyenne feel a sacred duty to pursue 
ownership of the 5,000 acres of Reservation subsurface held by GNP.
    GNP Leases 5,000 Acres to Peabody. In 1965, the coal industry began 
to express interest in the Northern Cheyenne Reservation. Encouraged by 
BIA and USGS (and without benefit of any independent expertise), in an 
effort to alleviate its abject poverty the Tribe authorized BIA and 
USGS to prepare documents necessary to conduct a public lease sale of 
its coal reserves. \10\ In three successive coal sales (1966, 1968 and 
1971), the vast bulk of the Reservation was carved up by a collection 
of the Nation's leading energy companies and speculators, all on 
unconscionable terms. During this episode, the Railway separately and 
independently leased its 5,000 acres of Reservation subsurface to 
Peabody Coal Company.
---------------------------------------------------------------------------
    \10\ See Hearings before the U.S. Senate Select Committee on Indian 
Affairs on S. 2126--A Bill Relating to Certain Leases Involving the 
Secretary of the interior and the Northern Cheyenne Indian Reservation, 
90th Cong. 32-39 [''S. 2126 Hearing''] (testimony of Allen Rowland, 
President of the Northern Cheyenne Tribal Council).
---------------------------------------------------------------------------
    Cancellation of Reservation Coal Transactions. Realizing that it 
had lost control over about 70 percent of the Reservation, in 1973 the 
Tribe submitted a 600-page petition to the Secretary of the Interior 
seeking cancellation of the permits and leases encumbering the 
Reservation. The Tribe argued: (1) the royalty rate of 17.5 cents per 
ton (reduced to 15 cents if the coal, as most companies intended, was 
processed on the Reservation) was unconscionable; (2) the 25,000-30,000 
lease options granted by the BIA-approved exploration permits grossly 
exceeded the 2,500 acre limitation specified in federal regulations; 
(3) the United States performed no prior environmental analyses before 
approving the coal transactions; (4) the documents contained no 
significant environmental protection or restoration provisions; and (5) 
the BIA leasing process was otherwise littered with regulatory and 
statutory violations.
    The Secretary responded to the Tribe's petition by suspending all 
further coal development under the transactions, recognizing that the 
United States had effectively turned over the Reservation to the coal 
industry and speculators. To restore the balance of power to the Tribe, 
and in the hope that the transactions would be renegotiated, the 
Secretary declined to cancel the permits and leases outright, but 
assured the Tribe that ``the terms and conditions upon which mineral 
development may proceed on the Northern Cheyenne Reservation will 
require [the Tribe's] joint agreement and support prior to any further 
approval by [the Secretary].'' \11\ In the ensuing years, the Tribe 
remained so traumatized and deeply offended by what had been done, that 
it rejected all overtures of the involved coal companies and 
speculators to renegotiate the transactions.
---------------------------------------------------------------------------
    \11\ See Report from the Committee on Interior and Insular Affairs 
on S. 2126 (September 23, 1980).
---------------------------------------------------------------------------
    Congressional Solution. In approximately 1978, the Tribe approached 
the coal companies with a proposal to seek federal legislative action 
which would facilitate the companies' voluntary relinquishment of their 
claims on the Reservation. Recognizing that their development prospects 
on the Reservation were nil, the companies joined with the Tribe in a 
cooperative effort to seek legislation. At the request of the Tribe and 
the companies, in 1979, S. 2126 entitled ``A Bill Relating to Certain 
Leases Involving the Secretary of the Interior and the Northern 
Cheyenne Indian Reservation'' was introduced. The final bill 
incorporated the concepts of noncompetitive leases and ``bidding 
rights'' as compensation for expenditures on the Reservation. S. 2126 
as enacted authorized the Secretary to negotiate with the Tribe and 
each affected party for a ``cancellation agreement'' under which the 
permit or lease would be cancelled in exchange for either (a) a much 
smaller noncompetitive lease for federal coal adjacent to an existing 
mining unit that was unlikely to be mined separately, or (b) a 
certificate of bidding rights. \12\ The final bill also established the 
value of the bidding rights at a level equal to the amount of the 
permit holder's or lessee's actual cash investment plus interest.
---------------------------------------------------------------------------
    \12\ A Bill Relating to Certain Leases Involving the Secretary of 
the Interior and the Northern Cheyenne Indian Reservation, Pub. L. No. 
96-401, 94 Stat. 1707 (1980).
---------------------------------------------------------------------------
    S. 2126 was enacted on October 9, 1980. \13\ Over the next year, 
separate cancellation agreements among the Department of the Interior, 
the companies, and the Tribe were entered into, except as to the tracts 
secured by the speculators, whose claims on the Reservation were 
therefore cancelled by Congressional fiat as provided in the Act. \14\ 
The speculators then sued the United States for a Fifth Amendment 
``taking'' in the U.S. Court of Claims. \15\ That suit was essentially 
unsuccessful. The Court gave token judgment by ordering reimbursement 
by the United States of the very minimal bonuses they had paid for the 
permits. \16\
---------------------------------------------------------------------------
    \13\ Id. at 4.
    \14\ The speculators offered to pay the Tribe an initial payment 
and an overriding royalty on the federal coal (located in the Tongue 
River Valley) they sought, if the Tribe would sign the necessary 
cancellation agreement. The Northern Cheyenne Tribal Council rejected 
that offer.
    \15\ NRG Co. v. U.S., 24 Cl. Ct. 51 (1991).
    \16\ NRG Co. v. U.S. (``NGR II''), 30 Fed. Cl. 460 (1994).
---------------------------------------------------------------------------
    Class I Air. In the late 1970s, utilities owning the Colstrip power 
plants about 15 miles north of the Reservation sought to greatly expand 
the size of that project. The Tribe was very concerned about the likely 
adverse effects on Reservation air quality and the pattern of exclusion 
of Northern Cheyenne from employment in the power plants, 
notwithstanding appalling unemployment rates on the Reservation (the 
area's largest local community). To address these issues, the Tribe 
took the bold and unprecedented step of reclassifying the air quality 
standard above its Reservation to Class I--the most pristine standard 
under federal law. \17\ The Tribe was the first governmental entity of 
any kind in the Country to do so. EPA granted the reclassification and 
litigation challenging it was unsuccessful. \18\ The end result was an 
agreement between the Northern Cheyenne Tribe and the power plant 
owners providing for the adoption of enhanced air quality control 
technology for the plant expansion, employment and other commercial 
opportunities for the Northern Cheyenne, and funding for Tribal 
government.
---------------------------------------------------------------------------
    \17\ Redesignation of Northern Cheyenne Indian Reservation for 
Prevention of Significant Deterioration, 42 Fed.Reg. 40695 (August 11, 
1977).
    \18\ Nance v. EPA, 645 F.2d 701 (9th Cir. 1981).
---------------------------------------------------------------------------
    Powder River Coal Sale. In 1982, Secretary of the Interior James 
Watt authorized the largest federal coal lease sale in history. The 
Power River Basin Sale included tracts to the north, east and south of 
the Reservation, as well as tracts in Wyoming. The Montana tracts 
included so-called tracts for an existing mine in Colstrip 15 miles to 
the north, tracts for the Decker mines 25 miles to the south, and 
tracts for new mines to be established to the east in the Tongue River 
Valley.
    The Tribe made extensive efforts to resolve its concerns with this 
enormous coal lease sale without litigation. Those efforts were spurned 
by the Secretary and industry and, on the eve of the Powder River Basin 
lease sale, the Tribe filed suit against the Secretary asking that any 
leases issued in the forthcoming sale be voided on the ground that the 
leasing process essentially ignored or minimized the very adverse 
effects on the Northern Cheyenne. The Tribe's claims were filed under 
the federal coal leasing statues and regulations, the federal trust 
responsibility, and NEPA. The Tribe based its claims on exclusion of 
the Tribe from impact funding, the physical and socio-economic on- 
Reservation impacts such development would engender, and the historic 
pattern of exclusion of Northern Cheyenne from employment opportunities 
at existing off- Reservation coal-related projects.
    In federal District Court, the Tribe won a sweeping victory on all 
counts. All leases, including those authorizing new production tracts 
in the Tongue River Valley, were voided. \19\ The United States and the 
involved companies appealed only the remedial provisions of the 
District Court decision. \20\ Ultimately, the new production tract 
leases in the Tongue River Valley were terminated and the Tribe 
negotiated a mitigation agreement with the Colstrip mine (which had 
initially received tracts in the 1982 sale) that provided, among other 
items, jobs for Tribal members and some Tribal impact funding.
---------------------------------------------------------------------------
    \19\ Northern Cheyenne Tribe v. Hodel, 12 Ind.L.Rep. 3065 (D. Mont. 
1985).
    \20\ Northern Cheyenne Tribe v. Hodel, 851 F.2d 1152 (9th Cir. 
1988).
---------------------------------------------------------------------------
    Termination of Montco Project. In the 1980s, federal mining permits 
were issued for the proposed Montco Mine project in the Tongue River 
Valley, adjacent to the Reservation. While the Tribe had concerns about 
the project from its inception, a lack of resources prevented the Tribe 
from taking legal action to challenge it, although the Northern Plains 
Resource Council (NRPC) and others tried unsuccessfully to block the 
project. In the 1990s when the Montco Project was applying for yet 
another renewal of its mining permit (after several prior renewals), 
the Tribe finally decided to legally challenge the project.
    The Tribe was successful in administrative proceedings. Montco 
appealed to the District Court, which reversed the administrative 
decision. The Tribe then appealed to the Montana Supreme Court. 
Although NPRC was a party to the proceedings, the Tribe took the lead 
in preparing the pleadings, writing the briefs, and arguing the case. 
In a case of first impression, the Montana Supreme Court agreed with 
the Tribe's position and denied further renewal of the Montco permit. 
\21\ Since then, there have been no efforts to resuscitate the Montco 
Project.
---------------------------------------------------------------------------
    \21\ Montco v. Simonich, 285 Mont. 280, 947 P.2d 1047 (1997).
---------------------------------------------------------------------------
    Otter Creek. In 1989, Crown Butte Mines proposed a precious metals 
mine--the New World Mine--on private and U.S. Forest Service lands 
located approximately 3 miles from the border of Yellowstone National 
Park. During the federal environmental review process for the New World 
Mine, several issues arose about the impact of mining on the 
surrounding area, including the Clark's Fork of the Yellowstone River, 
and the permitting process for the mine became extremely controversial.
    With this controversy and the increasing likelihood that the New 
World Mine would never receive the necessary federal permits, 
negotiations began between Crown Butte Mines, local environmental 
groups and the Council on Environmental Quality as to how to buy-out 
the valid existing rights held by Crown Butte Mines. In August 1996, 
President Bill Clinton announced an agreement between the United States 
and Crown Butte Mines which, among other items, committed the United 
States to pay $65 million for patented and unpatented mining claims 
held by Crown Butte Mines.
    In April 1997, the United States proposed to fund this $65 million 
payment with either a diversion of federal royalties from currently 
producing coal, oil, and gas operations in Montana or an exchange of 
other federal assets. To identify appropriate revenue streams, Montana 
Governor Marc Racicot commenced the Montana Initiative to identify 
federal coal and timber lands in Montana. \22\ Ultimately, for various 
reasons, none of the revenue streams or exchange property identified by 
the State of Montana or the United States was workable as payment to 
Crown Butte Mines.
---------------------------------------------------------------------------
    \22\ Hearing before the Subcommittee on Energy and Mineral 
Resources of the Committee on Resources, U.S. House of Representatives, 
New World Mine Proposed Buyout, H.Rpt. 105-40 (May 20, 1997); CRS 
Report for Congress, New World Gold Mine and Yellowstone National Park, 
No. 96-669 ENR (August 27, 1996).
---------------------------------------------------------------------------
    However, the Fiscal Year 1998 Balanced Budget Agreement entered 
into by Congressional leadership and President Clinton included $300 
million for ``high priority land acquisitions.'' \23\ This total 
included $65 million for the purchase by the United States of Crown 
Butte Mines' interests in patented and unpatented mining claims. \24\ 
Despite their inclusion in the Balanced Budget Agreement, the 
Republican Congress did not wholeheartedly endorse the ``high priority 
land acquisitions'' identified by President Clinton. The Senate 
Appropriations Committee included money for ``high priority land 
acquisitions'' in the Fiscal Year 1998 Appropriations Bill for the 
Department of the Interior provided that separate legislation was 
enacted authorizing the acquisition while the House Appropriations 
Committee did not include any funding for the acquisitions.
---------------------------------------------------------------------------
    \23\ The Balanced Budget Act of 1997, Pub. L. No. 105-33 (Aug. 5, 
1997).
    \24\ It also included $250 million for the Headwaters Forest 
acquisition in northern California.
---------------------------------------------------------------------------
    In the fall of 1997, negotiations began in earnest between the 
White House and Congressional Republicans on the Fiscal Year 1998 
Appropriations Bill for the Department of the Interior. Congress 
eventually decided to fund and authorize the Administration's ``high 
priority land acquisitions'' including $65 million for the New World 
Mine property. The authorization for the New World Mine acquisition 
included a number of terms and conditions insisted upon by the 
respective authorizing Committees in the House and Senate. \25\ It also 
included two items of particular importance to the State of Montana: 
(1) $12 million for the maintenance and rehabilitation of the Beartooth 
Highway through Wyoming into Montana and (2) $10 million in federal 
mineral rights to the State of Montana.
---------------------------------------------------------------------------
    \25\ An Act Making Appropriations for the Department of the 
Interior and Related Agencies for the fiscal year ending September 30, 
1998 and for other purposes, Pub. L. No. 105-83 (Nov. 20, 1997).
---------------------------------------------------------------------------
    As to the transfer of the federal mineral rights to the State of 
Montana, the Act authorized that the Secretary of the Interior to 
convey to the state ``without consideration'':

  <bullet> $10,000,000 in mutually agreeable federal mineral rights in 
        the State; or

  <bullet> all federal mineral rights in Otter Creek tracts 1, 2, and 
        3.

    Over the next four years, the State and the federal government 
failed to identify mutually agreeable federal mineral rights to convey 
to the State. \26\ Thus, the Secretary was obliged to convey the Otter 
Creek tracts 1, 2 and 3 to the State.
---------------------------------------------------------------------------
    \26\ The Montana Mineral Exchange: H.R. 2107, Section 503 of the 
Department of Interior & Related Agencies Appropriations Act, 1998, 
Briefing & Information Packet (January 1999).
---------------------------------------------------------------------------
    Otter Creek Settlement. Throughout this time, the Northern Cheyenne 
Tribe repeatedly expressed concerns to the State of Montana and the 
Department of the Interior about transferring the Otter Creek tracts to 
the State of Montana. The Otter Creek tracts are approximately 3-4 
miles from the Tongue River, the eastern boundary of the Northern 
Cheyenne Reservation. The Tribe was worried that transfer of the 
property from federal to state ownership would adversely impact the 
Reservation if the tracts were developed, since the Tribe would lose 
federal trust protections and the environmental protection requirements 
of the federal coal leasing program would no longer apply. The Tribe 
met on numerous occasions with the Montana Congressional delegation, 
representatives of the Department of the Interior, the Governor, other 
State officials, and Great Northern Properties (GNP), to work out a 
settlement.
    In January 2002, Montana Governor Martz formally requested that the 
Secretary of the Interior Norton transfer the Otter Creek tracts 1, 2 
and 3 to the State. The Tribe met with Secretary Norton, to present its 
concerns and request time to negotiate a multi-party settlement. 
Shortly after that meeting, the Tribe was advised that the Secretary 
would withhold action on the transfer pending such settlement 
discussions. The Department then ``withheld action of the transfer of 
any federal mineral rights to the State of Montana in order to support 
the discussions between the State of Montana and the Northern Cheyenne 
Tribe.'' \27\
---------------------------------------------------------------------------
    \27\ Draft Environmental Assessment for Compliance with Section 503 
of the Department of the Interior and Related Agencies Appropriation 
Act of 1998, Public Law 105-83 at pp. 17--19 (Feb. 4, 2002). It is 
unclear if a final EA was ever issued for the transfer of the Otter 
Creek Tracts.
---------------------------------------------------------------------------
    On the eve of a public hearing before the State Land Board to 
consider and consummate an Otter Creek Settlement Agreement negotiated 
by the Tribe and the State, the Tribe learned that, notwithstanding the 
Secretary's stand-still assurance, the Otter Creek transfer would go 
forward virtually immediately. Within two business days, the Tribe 
filed suit against the Secretary in federal District Court in 
Washington, D.C. to enjoin the transfer. \28\ The Tribe's settlement 
discussions with Governor Martz, the Montana State Board of Land 
Commissioners, the Montana Congressional delegation and Great Northern 
Properties (the owner of the private coal checkerboard in Otter Creek) 
to resolve its litigation and objections to the Otter Creek transfer 
were ultimately successful.
---------------------------------------------------------------------------
    \28\ Northern Cheyenne Tribe v. Norton, Docket # 1:02-cv-00146-TPJ 
(D.D.C. 2002). The Tribe's complaint was filed on January 25, 2002.
---------------------------------------------------------------------------
    Under the settlement, the Land Board and the Congressional 
delegation agreed to support the enactment of federal legislation which 
would provide impact funding to the Tribe and resolve the Tribe's 
claims against the United States arising from the Otter Creek transfer 
and the 1900 failure to acquire 5,000 acres of subsurface rights within 
the Reservation. The State Land Board agreed to require any lessee of 
the Otter Creek tracts, in close consultation with the Tribe, to 
fashion Operating Plans which would provide employment and commercial 
opportunity to the Northern Cheyenne, enhance environmental protection 
for the Reservation, require project workforce and truckers to meet 
conduct codes while on the Reservation, and protect Tribal historic, 
cultural and religious interests and values in the Tongue River Valley. 
The Land Board also agreed to support efforts to improve off-
Reservation roads to lessen resulting traffic loads on the Reservation, 
new cooperative law enforcement arrangements, and Congressional 
enactment of federal legislation to facilitate federal impact funding 
to the Tribe. In exchange, the Tribe agreed to dismiss, with prejudice, 
its judicial challenge to the Otter Creek transfer.
    The Settlement Agreement was signed by the President of the 
Northern Cheyenne Tribe, Governor Martz, Montana Secretary of State 
Brown, and Montana Director of Natural Resources and Conservation 
Clinch in February 2002. \29\ The Bureau of Land Management issued the 
State of Montana a patent for the Otter Creek tracts on April 10, 2002. 
\30\
---------------------------------------------------------------------------
    \29\ Settlement Agreement by the Montana State Board of Land 
Commissioners and Northern Cheyenne Tribe (Feb. 19, 2002).
    \30\ State of Montana, Office of the Governor, Executive Order No. 
12-02, Executive Order Certifying Transfer of Title to Federal Property 
Interests (May 28, 2002).
---------------------------------------------------------------------------
    Legislative Follow-Up on Otter Creek Settlement. Consistent with 
the terms of the Otter Creek Settlement, in 2004, Senator Burns 
introduced the Montana Mineral Conveyance Act. \31\ The 2004 Montana 
Mineral Conveyance Act was cosponsored by Senators Baucus and Campbell. 
As introduced, the bill conveyed to the United States the Northern 
Cheyenne Reservation tracts owned by Great Northern Properties for 
other coal reserves owned by the United States in Montana. The Northern 
Cheyenne Tribe agreed to waive its breach of trust claims against the 
United States. The legislation also authorized a $70 million impact 
assistance fund for the benefit of the Northern Cheyenne Tribe. No 
hearings were held on the 2004 Montana Mineral Conveyance Act.
---------------------------------------------------------------------------
    \31\ S. 2225, 108th Cong., 2d Sess. (2004).
---------------------------------------------------------------------------
    H.R. 1158 was introduced in 2011, as was a similar bill in the 
Senate, S. 647. Another iteration of the bill was introduced in the 
Senate as S. 2110. In contrast to the predecessor 2004 Bill and the 
negotiated Otter Creek Settlement, neither H.R. 1158 nor the Senate 
bills provided the promised $70 million in federal impact funding to 
the Tribe. This provision was removed in light of federal budget 
realities and to increase the likelihood of enactment. H.R. 1158 was 
reported favorably by unanimous consent out of the House Indian and 
Alaska Native Affairs with a recommendation that it would pass. No 
hearing was held in the Senate.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you, President Fisher.
    We had a number of members show up, and Senator Flake is 
here. I promised when Senator Flake showed up he could 
introduce the bill that he is a sponsor of, and Senator McCain. 
Then you are free to stay or go, whatever you want, Senator 
Flake. So go ahead.

                 STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. Thank you, Mr. Chairman, members of the 
Committee. I really appreciate this opportunity to testify in 
support of S. 2503, the Bill Williams River Water Rights 
Settlement Act of 2014.
    This is an important piece of legislation for Arizona. I 
would like to recognize the Chairman of the Hualapai Tribe, Ms. 
Sherry Counts, who will be testifying today. Both her efforts 
and those of the Hualapai Tribal Council on this measure are 
appreciated, and I am happy to join her in advancing this 
legislation.
    Also I want to thank my colleague from Arizona, Senator 
McCain, for his long role in addressing Indian water rights in 
Arizona, and for his co-sponsorship of this bill. It is rare to 
find a piece of legislation that that can garner bipartisan, 
bicameral support from the entire State congressional 
delegation. I am happy to report that Congressman Gosar and the 
entire Arizona delegation have introduced a companion measure, 
H.R. 4924. At its core, this legislation seeks to resolve a 
dispute between the Hualapai Tribe, the mining company Freeport 
Minerals Corporation, the United States as trustee for the 
tribe and the allottees, and the Arizona Game and Fish 
Commission, and the Arizona Department of Water Resources 
related to competing interests and shared water resources in 
the Bill Williams Basin.
    Basically this legislation would recognize the Hualapai 
Tribe and the allottees' right to 694-acre feet of water in 
three parcels. It establishes protections for the tribe's 
culturally significant interests in the Cofer Hot Springs and 
it caps Freeport's water use at Wikieup well field at 10,055 
acre feet per year. It facilitates the transfer of a portion of 
land known as Planet Ranch to the Arizona Game and Fish 
Commission for use as part of a Lower Colorado River Multi-
Species Conservation Plan, or MSCP, which provides endangered 
species related mitigation enabling current and future water 
management activities along the Colorado River in Arizona, 
Nevada and California. It secures non-Federal contributions 
from Freeport to the Hualapai Tribe and toward a future 
settlement of water disputes in two other river basins. It also 
ensures enforceability of the settlement only occurs after any 
objections by the non-settling parties have been resolved in a 
final non-appealable decision.
    Due to the statutory time requirements requiring parties to 
use or potentially lose water rights within five years, there 
is a sense of urgency to passing this legislation quickly. But 
also I would like to note that as a legal settlement of claims 
where parties are negotiating sensitive deal terms, the 
settlement negotiations were subject to a confidentiality 
agreement among the parties. The practice is not unusual. It 
enables the parties to negotiate with each other in good faith.
    However, with the introduction of the legislation at 
today's hearing, the public vetting process has begun. A lot of 
people have been concerned that they haven't been involved in 
the process. This is the beginning of the process and they will 
be involved.
    To that end, I understand there are some concerns that have 
been raised by Mojave County and La Paz County in reviewing 
this settlement. I further understand the Department of 
Interior and Department of Justice will raise some issues at 
today's hearing. I look forward to working with all interested 
stakeholders on improving the bill.
    With regard to the Department's testimony on the limited 
waiver of sovereign immunity, I would note that the parties to 
the settlement must have the ability to enforce the terms of 
the agreement. In light of the Supreme Court precedents, I 
believe the waiver must be express and unequivocal. The waiver 
included in this legislation is not unprecedented; it is 
similar to the waiver included in the White Mountain Apache 
Settlement authorized by Congress in 2010. I believe this 
settlement will mark an important step for Arizona. I am 
pleased to join Senator McCain and the entire House delegation 
and the Hualapai Tribe to advance this bill. I appreciate the 
Committee's support in that effort.
    Finally, with the Committee's indulgence, I would ask that 
my written statement, the Hualapai Tribe Resolution 40-2014 in 
support of the settlement, letters in support from the Governor 
of Arizona, Jan Brewer, the Arizona Chamber of Commerce and 
Industry, the Nature Conservancy, written testimony in support 
of S. 2503 from Freeport Minerals Corporation, as well as a 
letter and statement in opposition from Mojave County, be 
entered into the legislative record. Thank you, Mr. Chairman.
    The Chairman. Without objection, so ordered. Thank you, 
Senator Flake.
    [The prepared statement of Senator Flake follows:]

    Prepared Statement of Hon. Jeff Flake, U.S. Senator from Arizona

    Mr. Chairman, Mr. Vice Chairman, and Members of the Committee, I 
appreciate the opportunity to appear before you today to testify in 
support of S. 2503, the Bill Williams River Water Rights Settlement Act 
of 2014. Thank you for scheduling this hearing on what I believe is an 
important piece of legislation for the state of Arizona. I would also 
like to recognize the Chairwoman of the Hualapai Tribe, Ms. Sherry 
Counts, who will be testifying today. Both her efforts and those of the 
Hualapai tribal council on this measure are appreciated, and I am happy 
to join her and the Tribe in advancing this legislation. Finally, I 
would like to thank my colleague from Arizona, Senator McCain, for his 
long-held role in addressing Indian water rights in Arizona and his 
cosponsorship of this settlement.
    It is rare to find a piece of legislation that can garner the 
bipartisan and bicameral support of an entire state congressional 
delegation, but in this instance we appear to have a confluence of 
seemingly disparate interests flowing in the same direction. With the 
introduction of S. 2503, as well as Congressman Gosar's companion 
measure, H.R. 4924, Congress has an opportunity to resolve a water-
rights dispute among the Hualapai Tribe; a mining company, Freeport 
Minerals Corporation; and the United States, as trustee for the Tribe 
and Allottees. Better yet, we can resolve this dispute without 
authorizing any new federal spending. In addition, the bill would 
enhance the Lower Colorado River Multi-Species Conservation Plan or 
MSCP--a program that provides endangered species related mitigation 
enabling current and future water-management activities along the 
Colorado River in Arizona, Nevada, and California.
    The dispute this legislation resolves arose over competing 
interests in shared water resources in western Arizona. There, the 
Hualapai Tribe and Allottees own parcels of land along the Big Sandy 
River. The Big Sandy River is a tributary of the Bill Williams River, 
which flows into the Colorado River at Lake Havasu. Nearby, Freeport 
owns and operates a large copper and molybdenum mine in Bagdad, 
Arizona. Like the Tribe, the company draws its water for that operation 
from wells located in the Big Sandy River watershed.
    In an effort to safeguard its water uses against potential legal 
challenges that could disrupt mining operations, Freeport purchased 
land and water rights associated with two properties in the basin known 
as Planet Ranch and Lincoln Ranch. The company then sought to shift a 
portion of the water rights associated with those ranches to its 
wellfield. However, a number of parties, including the United States, 
as trustee for the Tribe and the Allottees, the Arizona Game and Fish 
Commission, and Mohave County filed objections. Due to a statutory time 
clock regarding surface water in Arizona, Freeport has five years 
before it must either use or potentially lose those water rights they 
purchased for the express purpose of safeguarding their economic 
activity in that part of the state. That time clock creates a sense of 
urgency for passing this legislation, otherwise Freeport would be 
required to make significant investments in irrigation infrastructure 
or risk losing water rights.
    With prompt passage, this legislation would resolve much of the 
dispute among the Tribe, Freeport, the United States as trustee for the 
Tribe and the Allottees, the Arizona Game and Fish Commission, and the 
Arizona Department of Water Resources. Specifically, the settlement 
would:

  <bullet> Recognize the Hualapai Tribe's and the Allottee's right to 
        694 acre-feet of water on three parcels in the Big Sandy River 
        basin;

  <bullet> Establish protections for the Tribe's culturally significant 
        interest in Cofer Hot Springs;

  <bullet> Cap Freeport's water use at the Wikieup Wellfield at 10,055 
        acre-feet per year;

  <bullet> Facilitate the transfer of a portion of Planet Ranch to the 
        Arizona Game and Fish Commission for use as part of the MSCP;

  <bullet> Secure a non-federal contribution from Freeport to the 
        Hualapai Tribe toward a potential future settlement of water 
        disputes in two other river basins; and

  <bullet> Ensure that enforceability of the settlement only occurs 
        after any objections of non-settling parties have been resolved 
        in a final and non-appealable decision.

    As a legal settlement of claims, where parties are negotiating 
sensitive deal terms, these negotiations were subject to a 
confidentiality agreement among the parties. This practice is not 
unusual, particularly in the context of Indian water rights 
settlements, as it enables the parties to negotiate with each other in 
good faith. However, with the introduction of legislation, where 
Congress is ratifying and confirming the agreements negotiated by those 
parties, the settlement enters a new phase of public review. As such, I 
see introduction of this bill and today's hearing as the beginning of 
the public vetting process. To that end, I understand that some 
concerns have been raised by Mohave and La Paz counties as they begin 
to review the settlement. I further understand that the Department of 
the Interior and the Department of Justice will raise some issues in 
today's testimony. I look forward to working with those and all other 
interested stakeholders in finding ways that we can improve this 
legislation.
    I would like to take a minute to just briefly discuss one of the 
issues raised in the Department's testimony that could garner 
attention: the limited waiver of sovereign immunity. I believe the 
parties to this settlement must have the ability to enforce the terms 
of the agreements amongst each other. As this Committee is aware, the 
Supreme Court's recent decision in Michigan v. Bay Mills Indian 
Community, confirms that Congress must ``unequivocally'' express its 
intent to waive tribal immunity in the context of such agreements. 
Likewise, the Supreme Court in Orff v. United States, concluded that 
waiver of the United States' sovereign immunity must be explicit.
    The waiver included in this legislation would expressly allow the 
parties to enforce the terms of the settlement against each other. It 
is not unprecedented; in fact, a similar waiver was included in the 
White Mountain Apache Settlement authorized by Congress in 2010. I am 
concerned by the Department's suggestion that instead Congress should 
employ existing waivers in the Tucker Act, Administrative Procedure 
Act, or the McCarran Amendment. I will continue to work with the 
Department to find a path forward, but I believe the relevant Supreme 
Court precedent requires an unequivocal statement by Congress regarding 
the parties' ability to enforce the settlement.
    I would like to conclude by noting that last year the Arizona 
Department of Water Resources issued a report highlighting that of 
Arizona's 22 federally recognized Indian tribes, 13 have enacted 
settlements that either partially or fully resolve water rights 
disputes. I believe the Bill Williams River Water Rights Settlement Act 
would mark another important step in that long tradition. As such, I am 
pleased to join Senator McCain, the Arizona House delegation, and the 
Hualapai Tribe in trying to advance this bill, and I appreciate the 
Committee's support in that effort.
    Thank you.

    The Chairman. Before we go back to the tribal witnesses, 
Senator McCain, do you have anything you would like to add?

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. I am grateful that the Committee is holding 
this hearing. The Bill Williams River Water Rights Settlement 
Act, and I am proud of the leadership of my colleague, Senator 
Flake. He, as you know, Mr. Chairman, has succeeded Senator 
Kyle, who was a leader on numerous water rights settlements in 
our State.
    I am also glad to hear our Committee testimony from the 
Chairwoman of the Hualapai Tribe, Ms. Sherry Counts. Welcome. 
And Mr. Chairman, there are many, many beautiful Indian lands 
in this Country. But I would argue that if you have the chance 
to go down to the Hualapai Tribe, it is really incredibly 
magnificent beauty. I am sure that, Chairwoman Counts, you 
would invite a Democrat down there, wouldn't you? I think so, 
yes.
    [Laughter.]
    Senator Udall. This Democrat has been down there before.
    [Laughter.]
    Senator McCain. They didn't want you back, though.
    [Laughter.]
    Senator McCain. Actually, Senator Udall's father was a key 
element in so many of not only the water rights settlements, 
but settlements amongst Native Americans. In his eight-year 
tenure, his outstanding tenure as Secretary of Interior, an 
incredible legacy that he has passed on to his son.
    Senator Flake described the legislation, I hope to 
everyone's satisfaction. So I won't repeat it. But it isn't a 
full settlement of the Hualapai Tribe's water rights claims. 
But it does offer the tribe a path forward for a future 
comprehensive settlement using the million dollars provided by 
Freeport. I would like to thank all the parties involved for 
working together to reach a speedy agreement.
    I understand that the Interior Department has some 
concerns, and we look forward to working those out. The issue 
of the 21st century in the Southwest, including my State of 
Arizona, is water. We have to conclude our Native American 
water rights settlements if we are going to have a predictable 
supply of water for Indians and non-Indians alike. We have to 
give the highest priority to settling these Indian water rights 
issues rather than see years and years of litigation that go on 
and benefit only lawyers.
    I thank you, Mr. Chairman.
    The Chairman. I couldn't agree with you more, Senator 
McCain. Thank you for your endorsement of the bill.
    With that, we are going to go back to our tribal witnesses. 
Aletha Tom, you have the floor, and know that as with everyone 
else, your full written testimony will be a part of the record. 
Go ahead, Aletha.

STATEMENT OF HON. ALETHA TOM, CHAIRWOMAN, MOAPA BAND OF PAIUTE 
                            INDIANS

    Ms. Tom. Mr. Chairman, members of the Committee, good 
afternoon. I am Aletha Tom, Chairwoman of the Moapa Band of 
Paiutes.
    The tribe strongly supports S. 2479, and we deeply 
appreciate the efforts of the many people who have helped us 
move this forward, especially Senator Reid and also Congressman 
Horsford, who has introduced a companion bill in the House.
    The bill would restore about 26,000 acres to our 
reservation. These are desert lands adjacent to our reservation 
that are currently managed by BLM and Bureau of Reclamation. 
The lands were all part of our original Southern Paiute 
homeland and were part of the original Moapa Reservation, which 
once comprised over 2 million acres. Unfortunately, pressures 
from miners and settlers led Congress to shrink our reservation 
in 1875 from over 2 million down to 1,000 acres. Our 
reservation remained tiny until 1980, when Congress restored a 
small portion of our lands, about 70,000 acres, back to our 
reservation.
    The current bill would continue this process by restoring 
around 26,000 additional acres. The lands addressed in the bill 
are particularly important to us. One portion, about 7,500 
acres, is located near where most of us live on the 
reservation. These additional lands will be directly useful for 
housing and community needs for our people. Right now, housing 
is extremely scarce and many of our young adults must move off 
the reservation. These lands would give our young people an 
opportunity to stay home and contribute to our community.
    A second portion, about 11,500 acres, is located just south 
of our main commercial development, a travel plaza with a 
convenience store and gas station. We see using these lands to 
enhance outdoor recreation and conservation opportunities. The 
plaza area is located along the natural path to Las Vegas' 
growth, on Interstate 15, by an exit which leads to the Valley 
of Fire, Nevada's oldest and largest State park.
    A third portion, around 4,500 acres on the north side of 
the reservation, has special significance to the tribe and 
would be preserved for cultural purposes. The remaining lands 
are purely desert areas that would be very useful for our solar 
energy development. Our tribe already has three solar projects 
in different stages of development. Our reservation is uniquely 
situated to provide solar power in the region. We are located 
near power lines and substations, as well as major markets 
which need extra energy exactly when the sun is shining most 
brightly, for air conditioning.
    Again, solar development would benefit both the tribe and 
the greater community, and would increase the tribe's stake in 
the prosperity of the region.
    The bill specifically endorses these purposes, housing, 
recreation and renewable energy development, as well as 
traditional and cultural uses and environmental stewardship. 
The bill also provides that the land would not be used for 
gaming. We have no problem with that, although Indian gaming is 
not really an issue in Nevada.
    We again want to thank Senator Reid and the Committee. Not 
only would this bill help rectify past injustices, but it also 
gives in very practical ways hope to our future of our tribe.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Tom follows:]

Prepared Statement of Hon. Aletha Tom, Chairwoman, Moapa Band of Paiute 
                                Indians

    Mr. Chairman and Members of the Committee:
    Good afternoon. I'm Aletha Tom, Chairwoman of the Moapa Band of 
Paiutes. The Tribe strongly supports Senate Bill 2479, and we deeply 
appreciate the efforts of the many people who have helped us move this 
forward, especially Senator Reid, and also Congressman Horsford, who 
has introduced a companion bill in the House.
    The bill would restore about 26,000 acres to our Reservation. These 
are desert lands adjacent to our Reservation that are currently managed 
by BLM and the Bureau of Reclamation.
    The lands were all part of our original Southern Paiute homeland, 
and were part of the original Moapa Reservation, which once comprised 
over 2,000,000 acres. Unfortunately, pressures from miners and settlers 
led Congress to shrink our Reservation in 1875 from over 2,000,000 down 
to only 1,000 acres. Our Reservation remained tiny until 1980, when 
Congress restored a small portion of our lands--about 70,000 acres--
back to our Reservation. The current bill would continue this process 
by restoring around 26,000 additional acres.
    The lands addressed in the bill are particularly important to us.
    One portion, about 7,500 acres, is located near where most of us 
live on the Reservation. These additional lands will be directly useful 
for housing and community needs for our people. Right now, housing is 
extremely scarce, and many of our young adults must move off the 
Reservation. These lands would give our young people an opportunity to 
stay home and contribute to our community.
    A second portion, about 11,500 acres, is located just south of our 
main commercial development, a travel plaza with a convenience store 
and gas station. We see using these lands to enhance outdoor recreation 
and conservation opportunities. The plaza area is located along the 
natural path of Las Vegas's growth, on Interstate 15, by an exit which 
leads to the Valley of Fire, Nevada's oldest and largest state park.
    A third portion, around 4,500 acres on the north side of the 
Reservation, has special significance to the Tribe and would be 
preserved for cultural purposes.
    The remaining lands are purely desert areas that would be very 
useful for solar energy development. Our Tribe already has three solar 
projects in different stages of development. Our Reservation is 
uniquely situated to provide solar power in the region. We're located 
near powerlines and substations, as well as major markets which need 
extra energy exactly when the sun is shining most brightly, for air 
conditioning. Again, solar development would benefit both the Tribe and 
the greater community, and would increase the Tribe's stake in the 
prosperity of the region.
    The bill specifically endorses these purposes--housing, recreation, 
and renewable energy development--as well as traditional and cultural 
uses and environmental stewardship. The bill also provides that the 
lands would not be used for gaming. We have no problem with that, 
although Indian gaming is not really an issue in Nevada.
    We again want to thank Senator Reid and the committee. Not only 
would this bill help rectify past injustices, but it also gives, in a 
very practical way, hope to our people for the future.

    The Chairman. Thank you, Aletha, for your testimony.
    Chairman Melendez, the floor is yours.

STATEMENT OF HON. ARLAN MELENDEZ, CHAIRMAN, RENO-SPARKS INDIAN 
                             COLONY

    Mr. Melendez. Good afternoon, Chairman Tester, Vice 
Chairman Barrasso and distinguished members of the Committee. 
My name is Arlan Melendez, and I have been the Chairman of the 
Reno-Sparks Indian Colony, Paiute, Washoe and Shoshone People, 
for the last 23 years.
    I am honored to be speaking today for all the tribes in S. 
2480, who comprised the Nevada Tribal Lands Coalition. I would 
also like to express our heartfelt thanks to Senators Reid and 
Heller for their bipartisan sponsorship of this bill, and to 
the Committee for scheduling today's hearing.
    I also wish to thank Congressmen Mark Amodei and Don Young 
and Congresswoman Dina Titus for introducing companion 
legislation in the House. A few weeks ago, the House Committee 
on Natural Resources unanimously reported the bill to the 
Floor. The membership numbers of our tribes are growing, and 
the caring capacity of our current lands is very limited. With 
limited exceptions, the majority of tribes in Nevada have very 
small land bases. Some are so small they don't even show up on 
State maps.
    As see in the chart on the easel to my right, the 
comparison to the large land bases of other tribes in many 
western States is dramatic. It is unrealistic to expect that we 
can thrive, manage our natural resources, practice traditional 
culture, provide housing and encourage economic development on 
so little land. It is only by being able to expand and 
consolidate our lands that our tribes and cultural practices 
can thrive. Each of our tribes has specific reasons for seeking 
to expand our lands. We are united in our need for better 
management and more effective use of these lands.
    Over 80 percent of the land in our State is Federal land. 
BLM administers nearly 48 million acres of land in Nevada. Even 
with these transfers, BLM lands would still comprise 67 percent 
of the land base in Nevada. The transfers would only reduce 
BLM's total percentage of land owned statewide by around 2 
tenths of a percent. Yet the transfer of this tiny percentage 
of land to BIA to be held in trust could be one of the most 
important developments for our tribes in a generation. The 
positive impact will be experienced by our peoples for 
generations to come.
    The other tribes will be submitting statements for the 
record, but let me quickly summarize these situations. For the 
South Fork Band of the Te-Moak Tribe, the bill would transfer 
BLM land to expand grazing and agriculture, develop housing and 
cultural and agricultural areas. Currently reservation lands 
are checkerboarded. Their population has tripled since the 
1940s, but their land base is the same size.
    For the Elko Band of Te-Moak Tribe, a small parcel of land 
would be transferred to the Elko Band who have sought to expand 
their current small land base for 17 years for housing, 
cultural activities, recreation, economic development and 
gravesites. The bill would also transfer 275 acres of BLM land 
to Elko County to establish a motocross track, which is also 
supported by the tribes. For the Fort McDermitt Paiute and 
Shoshone Tribe, the bill would transfer BLM land to resolve 
checkerboard land issues. This would address law enforcement 
and emergency personnel jurisdictional questions as well as 
enable housing development.
    Planned land use and development of natural resources will 
also ensure environmental biodiversity and ensure better public 
health and safety. For the Shoshone Paiute Tribe of the Death 
Valley Reservation, this bill would transfer a small parcel of 
Forest Service land, a longstanding goal. When the Forest 
Service located a district headquarters, housing units were 
abandoned. The tribes would like to renovate these units to 
address chronic housing shortages and to help recruit medical 
professionals, law enforcement and conservation personnel.
    For the Summit Lake Paiute Tribe, the bill would accomplish 
a long-sought transfer of BLM land for protection and 
management of Summit Lake's natural resources and fish 
population and unify the reservation, which surrounds the lake 
except in one area. Summit Lake is home to the cutthroat trout, 
which was integral to the tribe's culture and a vital food 
source. The transfer will allow for improved management and 
habitat restoration.
    For the Pyramid Lake Paiute Tribe, the bill would transfer 
BLM land to expand the reservation boundary to fully 
incorporate the watershed of Pyramid Lake. Other sections near 
the lake would be used for potential economic development and 
management efficiency.
    For my tribe, the Reno-Sparks India Colony, the bill would 
alleviate the strain caused b the small size of our 
reservation, because we simply need land for housing, cultural 
preservation and development. For decades the colony members 
were residing on just 27 acres in Reno, Nevada. In 1986, due to 
overcrowding, then-Nevada Congresswoman Barbara Vucanovich 
assisted us in acquiring a parcel of land in Hungry Valley near 
Reno. She said if we needed more land in the future, we should 
come back to Congress and ask for it.
    In closing, we have made the best use the limited parcel. 
We have constructed housing, a water system with production 
wells and other facilities, such as a community center. We have 
purchased mining claims within the area, proposed to be 
transferred, and the wells in the Hungry Valley community are 
also within the proposed transfer plot. BLM has told us they 
don't have enough staff to effectively monitor all the 
activities and the urban interface adjacent to Hungry Valley. 
As a result, our people have suffered from many adverse 
activities such as recreational shooting, including the use of 
assault weapons near residential areas, creating a dangerous 
safety situation; illegal dumping; unauthorized creation of a 
dirt bike race track; disruptive bike events; heavy off-road 
vehicle activities harming the land. While we are not against 
off-road vehicles or recreational shooting, we are concerned 
with the intensity of the activities adjacent to our community 
and homes and its impact on our quality of life.
    The legislation will move it a safe distance away and allow 
for growth. Our tribes are fully capable of being effective 
stewards of these lands. Thank you for this opportunity to 
testify and I would be happy to answer any questions that you 
may have.
    [The prepared statement of Mr. Melendez follows:]

Prepared Statement of Hon. Arlan Melendez, Chairman, Reno-Sparks Indian 
                                 Colony

    Chairman Tester, Vice Chairman Barrasso and distinguished Members 
of the Committee on Indian Affairs. I am pleased to submit this 
testimony in support of S. 2480, legislation introduced by Nevada 
Senators Harry Reid and Dean Heller. We are also pleased that nearly 
identical legislation (H.R. 2455), introduced in a bi-partisan fashion 
by Congressmen Mark Amodei (RNV), Dina Titus (D-NV) and Don Young (R-
AK) has been introduced and was unanimously reported out of the House 
Committee on Natural Resources a few weeks ago.
    Thank you for accepting this testimony of the Reno-Sparks Indian 
Colony (the Colony) on S. 2480 and for considering our views. My 
remarks herein are mostly specific to the Colony's land expansion 
needs. The other tribes in this bill may be submitting their own 
written statements for the record, and their statements should be 
relied upon for more specific details pertinent to their land transfer 
requests. However, there are common themes among all our tribes which I 
would like to share. In my oral testimony I will be speaking not just 
on behalf of the Colony but on behalf of all the tribes in this 
important bill. I am honored speak on behalf of the Nevada Native 
Nations Lands Act Tribal Coalition, consisting of the following tribes:

  <bullet> Elko Band of the Te-Moak Tribe of Western Shoshone Indians
  <bullet> South Fork Band of the Te-Moak Tribe of Western Shoshone 
        Indians
  <bullet> Fort McDermitt Paiute and Shoshone Tribe
  <bullet> Duck Valley Shoshone Paiute Tribe
  <bullet> Summit Lake Paiute Tribe
  <bullet> Pyramid Lake Paiute Tribe
  <bullet> Reno-Sparks Indian Colony
Expansion of Our Reservations Critical to Preserve Our Futures
    Our tribes' membership numbers are growing and the carrying 
capacity of our current lands is very limited. It is only by being able 
to expand and consolidate our lands for housing, preservation and other 
purposes that our tribes and cultural practices can continue to thrive. 
While each tribe in S. 2480 has specific reasons for seeking to expand 
the lands of our reservations we are united in our need for better 
management and more effective use of these lands. We are fully capable 
of assuming these responsibilities.
    We would also ask that you examine almost any map of Indian 
reservations in this country and you will see that through historic 
quirks of fate, the majority of land bases of the tribes in Nevada, 
particularly when compared to the land bases of many other tribes, are 
so small as to border on being non-workable. There are numerous million 
plus acre reservations in Montana, North Dakota, South Dakota, 
Washington, Utah, Wyoming, Arizona and New Mexico and many more 
reservations that are hundreds of thousands of acres in size yet the 
majority of Paiute and Shoshone tribes of the Great Basin ended up with 
almost nothing. In many instances our existing homelands are so small 
they don't even show up on some state maps. For instance the Elko Band 
has just 193 acres. The principal so-called ``downtown'' Reno-Sparks 
Indian Colony lands constitute a mere 27 acres. These are not viable 
land bases. We cannot house our people; we cannot attract business or 
engage in economically viable agriculture.
    S. 2480 would put to effective use by tribes lands that are greatly 
underutilized and not being adequately managed. With the exception of a 
small parcel owned by the Forest Service, the lands in question are 
presently controlled by the Bureau of Land Management so transferring 
title to a different agency within the Department of Interior (Bureau 
of Indian Affairs) is not going to, for instance, affect the local tax 
bases. In many instances Indian tribes have been able to undertake 
economic activities that have benefited both reservation and off-
reservation economies and helped create jobs.
Nevada Native Nations Lands Act Preserves BLM Control Over Vast Area of 
        Nevada
    BLM administers nearly 48 million acres of public land in Nevada. 
We would like to emphasize that even with these lands transfers, BLM 
lands would still comprise 67 percent of the total land base of the 
state of Nevada, and that does not include the large percentage of land 
controlled by other federal agencies. In the aggregate over 80 percent 
of the land in our state is owned by the federal government. The 
transfers would only reduce BLM's total percentage of land owned state-
wide by 0.20 percent (two tenths of one percent). Yet the transfer of 
this tiny percentage of land from BLM to BIA to be held in trust for 
our tribes would be one of the most important developments for our 
tribes in a generation. And the positive impact will be experienced by 
our peoples for generations to come.
Background on Reno-Sparks Indian Colony
    In the 1880's, an urban Indian settlement made up of landless 
Indians from the regional Washoe, Shoshone and Paiute tribes started 
along the Truckee River next to the City of Reno. A land base of 20 
acres was purchased in 1917 by the Federal Government to provide a 
permanent home for this urban settlement. The Colony population grew 
along with the City of Reno. In 1934, the Reno-Sparks Indian Colony was 
established as a federally recognized Tribal government under the 
Indian Reorganization Act. By the mid-1980's, the City of Reno had 
grown and eventually engulfed the undersized lands of the Colony. The 
land base of the Colony, near downtown Reno, is now just 27 acres of 
densely packed homes in the residential area as well as additional 
commercial property. Less than three percent of the land base is 
designated as park and open space. The residential area is totally 
built out and could not accommodate another home.
    In 1986, pursuant to a bill introduced by former Representative 
Barbara Vucanovich (R-NV), Congress transferred three sections of land 
north of Reno from the Bureau of Land Management (BLM) to the Colony to 
address the need for additional community housing. Currently, this 
area, known as the Hungry Valley community, houses approximately half 
the Colony's population. The Hungry Valley community is seven miles 
west of the Spanish Springs community and 10 miles north of the City of 
Reno. The Colony has spent millions of dollars in public improvements 
and community development. For example, we have built homes; a water 
and sewer system; community buildings; and constructed Eagle Canyon 
Road from Pyramid Lake Highway to the Hungry Valley community. We also 
created a tribal utility district to supply water and sanitary sewer 
service to residents. The water system includes production wells, water 
tanks and a water treatment facility. The community sewer system 
provides for the treatment of all wastewater. The Hungry Valley 
Community Center we built is the primary public facility serving 
residents, with a volunteer fire department, offices for Housing 
Department, Utility District, Head Start Program, a gym, and meeting 
rooms.
    When Congresswoman Vucanovich got the bill passed establishing the 
Hungry Valley Reservation she told us that if at some point in the 
future we needed to supplement the Hungry Valley land, that we should 
make such a request of the Congress. We are now doing exactly that 
after extensive cooperation and coordination with key stakeholders 
including Washoe County and the BLM. We are very pleased to have the 
support of the Washoe County government for our proposed transfer.
The Need to Supplement the Land Base of the Hungry Valley Residential 
        Community
    The Hungry Valley community is surrounded by BLM public lands to 
the west, north, and east. Directly to the south and southeast is an 
active open aggregate mining pit which conducts blasting on a regular 
basis. Many adverse activities are routinely occurring (in some cases 
permitted by the BLM, in other cases in violation of BLM regulations) 
on the lands adjacent to our residents' homes in Hungry Valley 
including:

  <bullet> Unlimited off highway vehicle (OHV) recreation area.
  <bullet> Loud and disruptive motorcycle events.
  <bullet> Illegal dumping.
  <bullet> Unauthorized creation of motorcycle race tracks.
  <bullet> Military practice operation with simulated explosive 
        devices. (Hopefully an activity that won't be repeated.)

    These are not activities anyone would want to see in proximity to a 
residential area. While we are not against off road vehicles, we are 
concerned with the intensity of the activities adjacent to our native 
community and its impact on our quality of life. A buffer is needed and 
will be established by this legislation.
Proposed Land Transfer from BLM to BIA
    As shown on the attached map, the Colony is proposing to acquire 
through a Congressional transfer approximately 13,434 acres from the 
BLM to the Bureau of Indian Affairs (BIA) to be held in trust for the 
Colony in order to expand and consolidate our land base at the Hungry 
Valley residential community. These 13,434 acres represent a minute 
fraction of the almost 48 million acres of BLM lands in Nevada, lands 
that were once the exclusive domain of Paiute, Washoe and Shoshone 
tribes of Nevada.
    The local BLM staff are overwhelmed and unable to enforce their own 
regulations and ordinances in the area around Hungry Valley. BLM has 
told us that they don't have enough staff to effectively monitor all of 
the activities in the urban interface cover adjacent to Hungry Valley. 
Transferring this land to the BIA's jurisdiction to be held in trust 
for the Colony is important for the citizens of our tribe and for the 
surrounding communities. The current situation is untenable. Our 
residents should be able to live in peace and quiet and should not have 
to deal with unregulated off-road race tracks carved out near their 
homes. We have met with a majority of the Washoe County Commissioners, 
including all those who represent the immediately surrounding 
communities and as stated above, the County has endorsed our land 
transfer request.
    In addition to public safety concerns, there are important cultural 
reasons why Hungry Valley is of great significance to us. We seek to 
manage this land so as to ensure for future generations that the open 
natural landscape that provides essential spiritual and traditional 
cultural support for our people will continue to be accessible and be 
properly managed. It is the intention of our tribe to preserve and 
manage these scenic, cultural and natural resources. In the past, the 
Hungry Valley region was a traditional link between Pyramid Lake and 
the Truckee Meadows. Many camps and cultural resources have been 
identified by past archaeological studies. Many elders and residents 
continue to use Hungry Valley for spiritual and traditional ways. 
Several prominent landscape features in the Hungry Valley area are used 
for traditional religious practices and are a source of medicinal 
plants.
    We are very proud of the many cooperative efforts we have entered 
into with the State ofNevada and with the governments that surround our 
downtown reservation as well our existing Hungry Valley lands. We 
assure the Congress that this spirit of good will and cooperation will 
continue and that all parties in the local and surrounding areas will 
benefit by this proposal.
    Thank you for your consideration of this bill. I am pleased to 
answer any questions you might have.

    The Chairman. There will be questions. Thank you, Chairman 
Melendez.
    Chairwoman Counts, your presentation, please.

 STATEMENT OF HON. SHERRY J. COUNTS, CHAIRWOMAN, HUALAPAI TRIBE

    Ms. Counts. I would like to thank Senator Flake and Senator 
McCain for sponsoring this bill for the Hualapai Tribe, S. 
2503.
    My name is Sherry J. Counts. I am Chairwoman of the 
Hualapai Tribe. Thank you for the invitation and opportunity 
testify in support of S. 2503, the Bill Williams River Water 
Rights Settlement Act of 2014.
    I would also like to say, all Democrats and Republicans are 
invited to the Sky Walk.
    [Laughter.]
    Ms. Counts. The Colorado River forms the 108-mile northern 
boundary of the Hualapai Reservation through a portion of the 
Grand Canyon. Our reservation has no significant surface 
streams other than the Colorado River, and it has very limited 
groundwater resources. While the tribe is presently able to 
supply its main residential community, Peach Springs, with 
groundwater, the only feasible water for satisfying the future 
needs of the reservation is the Colorado River.
    Over the past three years we have been negotiating a 
comprehensive settlement of all the tribe's reserved water 
rights with the Justice and Interior Departments, the State of 
Arizona and major private entities in Arizona. The basic 
principles of the settlement have been agreed upon, but the 
settlement is not yet ready for submission to Congress, because 
the tribe needs to complete a feasibility study of the 
alternatives for constructing the infrastructure needed to 
deliver Colorado River water to the reservation. In the 
meantime, the tribe, along with the United States and Freeport 
Minerals Corporation have reached an agreement settling our 
water rights claims in the Big Sandy Creek, south of our main 
reservation. The settlement faces a deadline, which is why we 
and the other parties are seeking enactment of S. 2503 now, in 
advance of the comprehensive settlement of our reservation 
water rights.
    This deadline is imposed by the possible application of 
provisions of Arizona State law and could result in the 
forfeiture of certain water rights Freeport holds in the Bill 
Williams Basin. To meet this deadline, the tribe urges Congress 
to enact S. 2503 this year, ahead of considering our 
comprehensive water rights settlement.
    Let me now describe the important benefits to the Hualapai 
Tribe. First, as a result of this legislation, the two major 
landholders and water users in the Big Sandy Creek, the United 
States and Freeport Minerals Corporation, will confirm 
federally-reserved water rights for the tribe totaling 300 acre 
feet a year relating to a 60-acre parcel of the reservation 
land along Big Sandy Creek. Freeport and the United States will 
also confirm federally-reserved water rights totaling 394 acre 
feet a year to two off-reservation trust allotments issued to 
Hualapai tribal members in the Big Sandy.
    Second, the agreements ratified by S. 2503 also provide 
vital protections for the tribe's water rights on fee land it 
owns along Big Sandy Creek called Cholla Canyon Ranch. This 
ranch contains a spring that is sacred to the tribe, Cofer Hot 
Spring, the flows of which have diminished in recent years due 
to the pumping by Freeport. Freeport has already ceased all but 
the most minimal pumping the aquifer that feeds Cofer Hot 
Spring. In the agreements ratified and approved by S. 2503, 
Freeport agrees permanently to cease pumping more than minimal 
amounts from that aquifer. Freeport also gave the tribe a right 
of first refusal to purchase nearby lands to protect the flow 
of Cofer Hot Spring.
    In addition to these important benefits at the Big Sandy 
area, Freeport will also immediately contribute $1 million to 
the cost of a central engineering study by the tribe that has 
been initiated to determine the feasibility and cost of 
bringing Colorado River water to the Hualapai reservation. This 
contribution from Freeport, in combination with the funding we 
have received from the Bureau of Reclamation and the tribe's 
own funds will allow the tribe to complete this study, then 
finish its ongoing negotiations for a comprehensive Colorado 
River water settlement with the Justice and Interior 
Departments, the State of Arizona and various private entities 
in Arizona.
    Lastly, with the timely enactment of this legislation, 
Freeport will contribute a substantial additional sum to the 
tribe's economic development. These Freeport funds are 
designated for the tribe to purchase Colorado River water 
rights. These additional water rights to be purchased with the 
Freeport contribution are critical to the tribe's ability to 
negotiate a comprehensive settlement of our Colorado River 
water rights.
    For all of these reasons, the tribe strongly supports S. 
2503. The tribe is very pleased with the provisions of this 
legislation that will protect its water rights and those of 
tribal member allottees along the Big Sandy Creek, and lay the 
foundation for the tribe to complete its negotiation in the 
near future for a comprehensive settlement of all the tribe's 
reserved water rights on the reservation. The tribe hopes the 
Committee will support S. 2503 and that Congress will speedily 
enact it. We do have some technical corrections to the 
legislation that are explained in my testimony. I respectfully 
the Committee to consider those corrections.
    Thank you for the opportunity to testify before you today. 
I would be pleased to answer any questions you may have, and 
our tribe will help in any way it can to secure enactment of 
this legislation. Thank you very much.
    [The prepared statement of Ms. Counts follows:]

Prepared Statement of Hon. Sherry J. Counts, Chairwoman, Hualapai Tribe
    Chairman Tester, Vice Chairman Barrasso and Members of the 
Committee, I am Sherry Counts, the Chairwoman of the Hualapai Tribe. 
Our Hualapai Tribal Leaders and Members strongly support S. 2503, the 
Bill Williams River Water Rights Settlement Act of 2014. Before I 
describe the several critical benefits the Tribe receives from this 
legislation, let me briefly inform the Committee of the Tribe's water 
needs.
    The Hualapai Reservation encompasses approximately 1 million acres 
in northwestern Arizona. All lands on the Reservation are tribal trust 
lands; there are no allotments or fee inholdings. The Colorado River 
forms the 108-mile northern boundary of the Reservation through a 
portion of the Grand Canyon.
    Our Reservation has no significant surface streams other than the 
Colorado River, and has very limited groundwater resources. While the 
Tribe is presently able to supply its main residential community, Peach 
Springs, with groundwater, the only feasible water supply for 
satisfying the future needs of most of the Reservation is the Colorado 
River.
    The Tribe is in dire need of Colorado River water in order to 
realize the opportunities for economic development we have already 
undertaken. We have constructed and operate Grand Canyon West, a world 
class tourist development on the Reservation on the western rim of the 
Grand Canyon. Grand Canyon West currently employs over 250 tribal 
members and hosts approximately 700,000 visitors a year. But it is 
located a two-hour drive away from Peach Springs, where virtually all 
tribal members who reside on the Reservation live. Thus tribal 
employees at Grand Canyon West have daily commutes of four hours a day, 
and longer in inclement weather.
    The Tribe also employs approximately 100 other tribal members in a 
tribally-owned hotel in Peach Springs and a seasonal tribal river 
rafting enterprise. Without conducting any gaming, our Tribe is moving 
towards achieving full employment for our members and economic self-
sufficiency.
    The lack of water is the major obstacle to our reaching these 
goals. The nearest groundwater to Grand Canyon West is 35 miles away, 
and that supply is barely adequate for current operations, and 
completely inadequate for growth. With additional water, the Tribe 
could take advantage of the potential for further development that 
would provide additional jobs to tribal members and revenues to the 
tribal government. Water at Grand Canyon West would also support the 
development of a residential community there so our tribal members 
would not have to commute from Peach Springs to get to their jobs.
    Over the past three years, we have been negotiating a comprehensive 
settlement of all the Tribe's reserved water rights with the Justice 
and Interior Departments, the State of Arizona and major private 
entities in Arizona. The basic principles of this settlement have been 
agreed upon, but the settlement is not yet ready for submission to 
Congress because the Tribe needs first to complete a comprehensive 
study of the engineering feasibility of the various alternatives for 
constructing the infrastructure needed to deliver Colorado River water 
to Grand Canyon West, and a detailed projection of construction and 
OM&R costs of those alternatives. We expect that this study will be 
ready to submit to the Bureau of Reclamation and other parties to the 
negotiations by early next year.
    In the meantime, the Tribe--along with the United States and 
Freeport Minerals Corporation--have reached an agreement settling our 
water rights claims in the Big Sandy Creek, south of our main 
Reservation. This settlement faces a deadline, which is why we and the 
other parties seek enactment of S. 2503 now, in advance of the 
comprehensive settlement of our Reservation water rights. This deadline 
is imposed by the possible application of provisions of Arizona state 
law that could result in the forfeiture of water rights Freeport holds 
in the Bill Williams Basin. Freeport wishes to sever and transfer some 
of these water rights upstream to its Wikieup well field, which serves 
its nearby copper mine, and contribute the rest of these water rights 
to state and federal agencies as part of the Lower Colorado Multi-
Species Conservation Plan.
    To meet this deadline, the Tribe urges Congress to enact S. 2503 
this year, ahead of considering our comprehensive water rights 
settlement. Let me now describe the important benefits the Hualapai 
Tribe receives under S. 2503.
    First, as a result of this legislation, the two major landowners 
and water users in Big Sandy Creek--the United States and Freeport 
Minerals Corporation--will confirm federally reserved water rights for 
the Tribe totaling 300 acre feet a year (afy) relating to a 60-acre 
parcel of land added to our Reservation along Big Sandy Creek by an 
Executive Order signed by President Taft in 1911. Freeport and the 
United States will also confirm federally reserved water rights 
totaling 394 afy to two off-reservation trust allotments issued to 
Hualapai tribal members in the Big Sandy. Both of these amounts were 
calculated by the Tribe's expert hydrologist using the methodology set 
forth in controlling decisions of the United States Supreme Court and 
the Arizona Supreme Court. The agreements this legislation ratifies 
also require Freeport to provide supplemental water to the tribal and 
allotted lands in certain circumstances to ensure the Tribe and 
allottees can fully utilize these reserved water rights.
    Second, the agreements ratified by S. 2503 also provide vital 
protections for the Tribe's water rights on fee land it owns along Big 
Sandy Creek called Cholla Canyon Ranch. The Tribe has applied to the 
Secretary of the Interior to take the Ranch into trust for it, and 
Freeport has agreed to support that application. This Ranch contains a 
spring that is sacred to the Tribe, Cofer Hot Spring, the flows of 
which have diminished in recent years due to pumping by Freeport. 
Freeport has already ceased all but the most minimal pumping in the 
aquifer that feeds Cofer Hot Spring, and in the agreements ratified and 
approved by S. 2503, Freeport agrees permanently to cease pumping more 
than minimal amounts from that aquifer. Freeport also will give the 
Tribe a right of first refusal to purchase Freeport's lands at Banegas 
Ranch and surrounding land Freeport owns to protect the flow of Cofer 
Hot Spring. Once these agreements become effective, Freeport will 
record a binding covenant in the county land records that will impose 
the same pumping limitations on any future purchaser of any portion of 
Banegas Ranch, should Freeport decide to sell and the Tribe decides not 
to buy these lands.
    Under the agreements, Freeport's pumping at the Wikieup well field 
is capped at 10,055 afy. The Tribe has requested the Interior 
Department to drop objections it has filed to Freeport's sever and 
transfer applications to bring water from Planet and Lincoln Ranches up 
to the Wikieup well field, and in these agreements Interior agrees to 
do that.
    In addition to the important benefits S. 2503 provides for the 
Hualapai Tribe in the Big Sandy Creek, Freeport will also immediately 
contribute $1 million to the costs of an essential study the Tribe has 
initiated (thus far with its own funds and a grant from the Interior 
Department Bureau of Reclamation) to determine the feasibility and 
costs of bringing Colorado River water to the Hualapai Reservation. 
This contribution from Freeport will allow the Tribe to complete this 
study, and then to finish its ongoing negotiations for a comprehensive 
Colorado River water settlement with the Justice and Interior 
Departments, the State of Arizona, and various private entities in 
Arizona.
    Lastly, with the timely enactment of this legislation, Freeport 
will contribute a substantial additional sum to the Tribe's economic 
development fund that the Tribe will use to purchase rights to use 
Colorado River water. The legislation provides that these two 
contributions by Freeport will count as non-federal contributions to 
the final comprehensive Colorado River water rights settlement the 
Tribe is negotiating with federal and state parties.
    For all of these reasons, the Tribe strongly supports S. 2503. We 
do, however, request two technical changes that are needed to conform 
the bill to the Hualapai BWR Agreement. In Section 6(d)(3)(B), page 26, 
line 20, after ``Agreement'' and before the semicolon, the words ``or 
the Hualapai Tribe Water Rights Settlement Agreement'' should be 
inserted. This would conform the bill to Paragraph 7.1(iii)(b) of the 
Hualapai BWR Agreement. And in Section 6(e)(1)(A), page 27, lines 10-
11, after ``relating to,'' the words ``injury to'' should be deleted 
and the words ``claims for'' should be inserted. That would conform the 
bill to Paragraph 7.3(i)(a) of the Hualapai BWR Agreement.
    In conclusion, the Tribe is very pleased with the provisions of 
this legislation that will protect its lands and those of tribal member 
allottees in the Big Sandy Creek and lay the foundation for the Tribe 
to complete its negotiations in the near future for a comprehensive 
settlement of all its reserved water rights on its Reservation. The 
Tribe hopes that the Committee will support S. 2503 and that Congress 
will speedily enact it.
    Thank you for the opportunity to testify before you today. I will 
be pleased to answer any questions you may have, and our Tribe will 
help in any way it can to secure enactment of this legislation.

    The Chairman. Thank you, Chairwoman Counts. We appreciate 
your testimony.
    Mr. Canfield, you have the floor.

 STATEMENT OF MICHAEL CANFIELD, PRESIDENT/CEO, INDIAN PUEBLOS 
            MARKETING, INDIAN PUEBLO CULTURAL CENTER

    Mr. Canfield. Thank you, Mr. Chairman.
    Chairman Tester, Vice Chairman Barrasso, distinguished 
members of this Committee and also of course my home Senator, 
Senator Udall, thank you very much for allowing me to testify 
in support of S. 2465, the Albuquerque Indian School Land 
Transfer Act.
    As was mentioned earlier, my name is Mike Canfield. I am 
the President and CEO of the Indian Pueblo Cultural Center, 
IPCC, and Indian Pueblo's Marketing, IPMI. Both of these 
corporations are owned and operated by the 19 Pueblos of New 
Mexico and located on the old Albuquerque Indian School 
property.
    I am also a very proud member of one of our 19 Pueblos, the 
Pueblo of Laguna.
    The vision for our organizations that are located on the 
property include creating unique and successful businesses, 
providing professional and economic advancement opportunities 
for our workforce, nurturing self-sustainable developments 
while providing financial returns to our Pueblo communities and 
promoting Pueblo arts, culture and lifestyles.
    In 1969, the United States began the long process of 
converting the 1884 Albuquerque Indian School Reserve, which 
was the former site of a Federal Indian Boarding School. The 
first 11 acres conveyed were used to build the Indian Pueblo 
Cultural Center, which was completed in 1976. The Cultural 
Center has a long history of successful self-sufficient 
operations. In fact, in 2013, we were recognized as the Tribal 
Destination of the Year by the American Indian and Alaska 
Native Tourism Association. We are also a major contributor to 
our State and local economy, as we are one of the top three 
most visited attractions in New Mexico, hosting approximately 
470,000 visitors per year.
    In 1993, the United States placed an additional 44 acres of 
the former Indian School property in trust for the 19 Pueblos. 
Those 44 acres make up the majority of the former Indian School 
property. The Pueblos successfully created land development 
protocols with the City of Albuquerque and this potion of the 
former Indian School property is now the home to two large 
office buildings occupied by the Bureau of Indian Affairs and a 
hotel owned by the 19 Pueblos. He Pueblos are proceeding with 
additional office and retail development projects that remain 
on this property.
    In 2008, Congress enacted P.L. 110-453, requiring the 
Secretary of Interior to convey an additional 8.5 acres of the 
former Albuquerque Indian School Reserve to the 19 Pueblos. 
These parcels included the last remaining Indian School 
structure. Building 232, which formerly housed the BIA's 
Southern Pueblos Agency, was originally built in 1931 and 
designed by Architect Joseph Padilla, a tribal member from 
Isleta Pueblo. The building had been slated for demolition, but 
IPMI was able to save it by financing the renovation project. 
The renovated building now houses the Native American Community 
Academy, a public school chartered under Albuquerque Public 
Schools, that serves approximately 380 Native students.
    S. 2465 directs the Secretary of Interior to place an 
additional 11.11 acres of land in trust for the 19 Pueblos, 
consolidating several small parcels contiguous with the 44 acre 
tract that has been held in trust for the 19 Pueblos since 1993 
and with the Indian Pueblo Cultural Center that has been held 
in trust since 1978.
    Mr. Chairman, my written testimony includes a map and a 
detailed description of the tracts of land this bill seeks to 
convey. My written testimony also includes a letter of support 
from the Mayor of Albuquerque, Mayor Richard Berry.
    Mr. Chairman, S. 2465 completes the process of transferring 
the BIA's portion of the former Albuquerque Indian School 
Reserve to the 19 Pueblos. Most importantly, S. 2465 will allow 
the 19 Pueblos to continue the achievements of our vision for 
this property by providing economic development, educational 
and cultural opportunities for our Pueblos, the City of 
Albuquerque and the State of New Mexico.
    Thank you again to this Committee for inviting me to 
testify this afternoon, and I would welcome any questions.
    [The prepared statement of Mr. Canfield follows:]

 Prepared Statement of Michael Canfield, President/CEO, Indian Pueblos 
                Marketing, Indian Pueblo Cultural Center
    Chairman Tester, Vice Chairman Barrasso, my home Senator, Mr. 
Udall, and members of the Committee, thank you for the opportunity to 
testify here today in support of S. 2465, the Albuquerque Indian School 
Land Transfer Act.
    My name is Mike Canfield: I am president and CEO of the Indian 
Pueblo Cultural Center (IPCC) and Indian Pueblo's Marketing (IPMI). 
Both of these corporations are owned and operated by the 19 Pueblos of 
New Mexico and located on the old Albuquerque Indian School property in 
Albuquerque, New Mexico.
    The vision for our organizations located on this property include 
creating unique and successful businesses, providing professional and 
economic advancement opportunities for our workforce, nurturing self-
sustainable developments while providing financial returns to our 
Pueblo communities and promoting Pueblo arts, culture, and lifestyles.
    In 1969, the United States began the long process of converting the 
1884 Albuquerque Indian School Reserve which was the former site of a 
Federal Indian Boarding School. The first 11 acres conveyed were used 
to build the Indian Pueblo Cultural Center which was completed in 1976. 
The Cultural Center has a long history of successful self-sufficient 
operations. In 2013 we were recognized as ``The Tribal Destination of 
the Year'' by the American Indian Alaska Native Tourism Association. We 
are also a major contributor to our state and local economy as we are 
one of the top 3 most visited attractions in New Mexico hosting 
approximately 470,000 visitors per year.
    In 1993, the United States placed an additional 44 acres of the 
former Albuquerque Indian School Reserve in trust for the 19 Pueblos. 
Those 44 acres make up the majority of the former school property. The 
Pueblos successfully created land development protocols with the City 
of Albuquerque, and this portion of the former school property is now 
the home to two large office buildings occupied by the Bureau of Indian 
Affairs, and a hotel owned by the Pueblos. The Pueblos are proceeding 
with additional office and retail development on the remaining 
property.
    In 2008, Congress enacted Public Law 110-453 requiring the 
Secretary of the Interior to convey an additional 8.5 acres of the 
former Albuquerque Indian School Reserve to the United States in trust 
for the 19 Pueblos. These parcels included the last remaining Indian 
School structure. Building 232, which formerly housed the BIA's 
Southern Pueblos Agency, was originally built in 1931 and designed by 
Architect Joseph Padilla, a tribal member from Isleta Pueblo. The 
building had been slated for demolition, but IPMI was able to save it 
by financing a renovation project. The renovated building now houses 
the Native American Community Academy, a public school chartered under 
Albuquerque Public Schools that serves approximately 380 students.
    S. 2465 directs the Secretary of the Interior to place 11.11 acres 
of land in trust for the 19 Pueblos, consolidating several small 
parcels contiguous with the 44 acre tract that has been held in trust 
for the 19 Pueblos since 1993 and the Indian Pueblo Cultural Center 
property that has been held in trust for the Pueblos since 1978.
    Mr. Chairman, my written testimony includes a map and a detailed 
description of the tracts of land this bill seeks to convey. My written 
testimony also includes a letter of support from Albuquerque Mayor 
Richard Berry.
    Mr. Chairman, S. 2465 completes the process of transferring the 
BIA's portion of the former Albuquerque Indian School Reserve to the 19 
Pueblos. Most importantly, S. 2465 will allow the 19 Pueblos to 
continue the achievement of our vision for this property by providing 
economic development, educational and cultural opportunities for our 
Pueblos, the City of Albuquerque and the State of New Mexico.
    I want to thank the Committee for inviting me to testify this 
afternoon and I am happy to answer any questions.
    Attachments
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    The Chairman. Thank you for your testimony, Mr. Canfield. 
Thank you all for your testimony.
    I am going to start with you, President Fisher, on the 
Northern Cheyenne's struggle with the subsurface rights on the 
land. These are subsurface rights that you were supposed to 
have but never had them. How long has the tribe been pursuing 
this legislation?
    Mr. Fisher. For 20 years. We started out in 1993, when we 
first approached GNP to transfer those lands to the tribe.
    The Chairman. So tell me, if we are able to make this 
transfer, what are going to be the impacts on the tribe once it 
is done? If we get this transfer done, how will it benefit the 
tribe?
    Mr. Fisher. The tribe would then own all the subsurface on 
the reservation. We own 445,000 acres, and there's only the 
5,000 acres in trust. Then it would be beneficial to the tribe, 
we can plan what we are going to with our royalties in the 
future.
    The Chairman. Okay. So there is no other subsurface on 
that, on the reservation you guys don't own? This is the only 
potion of subsurface rights that the tribe does not have?
    Mr. Fisher. Right. The tribe owns all the other subsurface 
underneath the reservation.
    The Chairman. Okay. Let's talk a little bit about the bill 
would transfer control of the Northern Cheyenne Trust Account 
into the Northern Cheyenne Permanent Fund. There are some folks 
who don't understand how funds are administered by the Office 
of Special Trustee and how that works. Where did the funds in 
the Office of Special Trustee Account come from and how will 
the transfer to the Northern Cheyenne Permanent Fund benefit 
the tribe? Why would that be positive?
    Mr. Fisher. In 1992, the tribe has a water rights 
settlement. There was $30 million set aside to renovate the 
Tongue River Dam in Montana. And there was $5,000 left over and 
that was placed in a OST trust fund. Since then, the tribe has 
been utilizing the interest off that trust fund. When that is 
placed in our permanent fund, we would get a better investment 
from our permanent fund being utilized for tribal programs.
    The Chairman. Got you. In your testimony you also discuss 
land near Bear Butte in South Dakota and how it could protect 
that land from commercial development. What does the tribe plan 
to do with the land it owns near Bear Butte in South Dakota if 
those lands are taken into trust?
    Mr. Fisher. When we purchase land, land is everything to 
the Northern Cheyenne Tribe. We purchased land around Bear 
Butte, at the base of our sacred mountain. Many tribes, as well 
as the Northern Cheyenne go to fast there, tribes from 
Oklahoma, New Mexico, South Dakota all come to fast there and 
worship from that mountain. We want to preserve that mountain 
from commercial development.
    The Chairman. Okay, so just to follow up a little bit, and 
we talked about this a little bit yesterday when you were in my 
office, but tell us the tribes in South Dakota that you have 
worked with on Bear Butte?
    Mr. Fisher. We sent letters out to all the tribes in the 
State of South Dakota, asking for their support. The only tribe 
that gave me support right away over the phone was Rosebud, 
South Dakota.
    The Chairman. I would like to ask you, President Fisher, as 
you get written support for the South Dakota effort, if you 
could pass those along to the Committee, I would appreciate it.
    Mr. Fisher. I think we can get written support from the 
tribes in South Dakota. We just need to have time to get that 
information back to you.
    The Chairman. Very good, thank you.
    With that, Vice Chairman Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    President Fisher, just kind of along the lines of what we 
have been talking about here, the Northern Cheyenne Lands Act 
would give your tribe the opportunity to benefit from coal 
development. And when I kind of look at some of the details in 
your testimony, you say there are some requirements out there 
going back to 1984. Your testimony indicates that this 
requirement could limit the tribe's return on some of the 
royalty investment that you should be getting.
    Could you tell us a little bit more about how that plan 
from back in 1984 would affect the revenue that you would get, 
so you wouldn't get as much as you think you should get?
    Mr. Fisher. This legislation was passed in 1948. We feel 
that it is going to affect us from not getting any revenue from 
this coal development for another 10 years or so. We are not 
going to receive any revenue from that coal development.
    Senator Barrasso. So it would affect it for the next 10 
years?
    Mr. Fisher. Right.
    Senator Barrasso. Your written testimony also describes how 
important coal development will be long term for your tribe and 
tribal members. There are some potential roadblocks, like 
limited access to ports and markets that could limit the 
development of these resources. Could you describe how 
important foreign markets and domestic markets are for these 
resources and how that will affect your tribal economy?
    Mr. Fisher. Right now we have no intention for developing 
our coal. It is going to be up to the Northern Cheyenne people 
to have a referendum vote. I as tribal chair cannot give you an 
answer as to whether we are going to develop the coal or not. 
It is going to be up to the people by referendum vote if we go 
with coal development. So right now, there is no movement for 
coal development on the reservation.
    Senator Barrasso. Thank you. Thank you, Mr. Chairman.
    The Chairman. Senator Udall?
    Senator Udall. Thank you, Chairman Tester. In my 
introduction of Mr. Canfield I forgot to recognize the strong 
ties he has to the New Mexico community. He serves on a number 
of boards. He is on the board of directors of the Native 
American Community Academy, the American Indian Chamber of 
Commerce, the Albuquerque Chamber of Commerce, Junior 
Achievement of New Mexico, University of New Mexico Business 
and Advisory Board, the CNM Foundation Board and the New Mexico 
State Workforce Board. He stays active, in addition to running 
the Indian Pueblo Cultural Center.
    Mike, every time I visit the Indian Pueblo Cultural Center, 
I am amazed by the breadth and quality of exhibits and the 
level of community engagement. Could you talk some about the 
events that occur there and the purposes that the Cultural 
Center serves in the community?
    Mr. Canfield. Thank you, Mr. Chair, Senator Udall. We are 
very proud of the Cultural Center as it stands now. As I 
mentioned, it is a self-sufficient organization that our 
forefathers founded back in the 1970s to create a meeting place 
for our people, as well as a place where we could share the 
important factors of our culture with all visitors throughout 
the world. We think we do a great job in accomplishing that 
with our visitors. We have several exhibits, we have a 
permanent exhibits which has a display of all 19 Pueblos and 
helps visitors understand the importance of our Pueblo 
communities.
    We also offer special services to all of our Pueblo members 
to come in and meet and use the facility. We are also a very 
profitable organization. As I mentioned, there are two 
corporations. One is a for-profit, Section 17, and the other is 
a non-profit. The for-profit, through economic development, 
generates all the funds necessary to run the non-profit. So we 
haven't had to go out to our Pueblos and ask for contributions 
to maintain the level of service that you mentioned. It is an 
organization and an area that we are very, very proud of. 
Hopefully we are fulfilling the mission that our forefathers 
set before us.
    Senator Udall. Thank you very much. I believe you were here 
when BIA Director Mike Black testified, and the issues he 
raised, the one with the fire department and some of the legal 
description. Do you see any reason we can't work through those 
issues?
    Mr. Canfield. Mr. Chairman and Senator Udall, absolutely 
not. In fact, I talked with him earlier. Our intent was to 
honor that to allow them to still own that land as long as they 
needed it. I talked with the area director and he is in support 
of that. If we do that through an MOU or through language in 
this bill, we are absolutely open to that, and understand that 
they should be able to use it as long as they need it.
    Senator Udall. Great. Thank you.
    Now, you have noted that the Mayor of Albuquerque is 
supportive, and I think you said there was a letter that he had 
submitted. Did you submit that for the record?
    Mr. Canfield. Mr. Chairman and Senator Udall, yes, I did.
    Senator Udall. Good. Are there other stakeholders, in 
addition to the Mayor of Albuquerque, the city council, others? 
Is there any opposition that you see on this?
    Mr. Canfield. No, actually the only other party that is 
involved might be the neighborhood association itself, of which 
I serve on the board there. And they are working very 
diligently with us in support of everything that we are doing. 
I can't think of anybody that doesn't think this is a great 
idea.
    Senator Udall. Great. Thank you for all your hard work on 
this. We appreciate it. Thank you, Chairman Tester.
    The Chairman. Thank you, Senator Udall.
    Aletha, dealing with economic development, you have S. 2479 
that is going to restore about 26,000 acres to your 
reservation, adding to the 75,000 that you currently have that 
were restored back in 1980. That first reacquisition allowed 
the Moapa Paiute to establish within their small land base 
housing and commercial opportunities. In your testimony you 
state that 11,500 of the 26,000 acres of the proposed 
transferred land on the south side of the reservation would be 
used for recreation and conservation development. I think that 
is great. Tell us more about that.
    Ms. Tom. It will provide us a little bit more recreation 
opportunities. The bill will also help to address the injustice 
that resulted from diminishment of the Moapa and Paiute tribes 
in 1875. So it would help develop more opportunities in our 
area.
    The Chairman. What kind of recreation are we talking about?
    Ms. Tom. Similar to tribal tourism area for our tribe. 
Something we can do, because we are right off I-15, right off 
the major highway.
    The Chairman. Good. I want to hear a little bit about the 
solar energy production that I think if developed could provide 
some necessary energy to surrounding communities, electrical 
energy. Could you tell us more about the tribe's proposed solar 
projects and where they are in our overall development?
    Ms. Tom. Yes. We have three right now, ResSolar, and we 
also have ResAmerica and we are working with a smaller 
development, Stronghold Solar. We would like to pursue that in 
our extra land.
    The Chairman. So some of the land proposed for transfer 
would be for solar development?
    Ms. Tom. Right, exactly. For energy, yes.
    The Chairman. I want to talk about that proposed housing 
development on 7,500 acres of the proposed land transfer. You 
state that housing is hard to come by on your reservation. But 
it might be helpful if you explain just how difficult it is for 
families to find homes, what are the housing needs of your 
tribe, how will this transfer help your tribe meet the housing 
needs required.
    Ms. Tom. We have two types of housing development on the 
reservation, it's with HUD and also with the HIP program, the 
Housing Improvement Program. If we did get additional land, we 
would be able to provide more housing for our tribe, if we had 
additional land there, we would be able to get more housing for 
our people.
    The Chairman. Do you know how many units you are short 
right now?
    Ms. Tom. Yes, we are. Our tribal members have to kind of 
stand in line in order to get a HUD home.
    The Chairman. All right, thank you very much, Aletha.
    Chairman Melendez, as you state in your written testimony, 
the area devoted to Indian uses in Nevada is smaller than any 
of the other western and plain States. Your colony is basically 
landlocked by the City of Reno. In 1986, the tribe was able to 
get legislation for land expansion in Hungry Valley, in order 
to meet the needs of the tribe's housing and other community 
development. Could you explain why the tribe needs this 
expansion?
    Mr. Melendez. Yes. Our tribe originally, we are called 
colonies because we are small land bases. We had 28 acres in 
downtown Reno. The city has grown up around us. In 1986, 
Barbara Vucanovich sponsored a bill which was successful in 
gaining nearly 2,000 acres in Hungry Valley. Hungry Valley is 
about 30,000 acres of a valley, we are basically 2,000 of the 
30,000 acres. It is actually one mile wide by three miles long, 
that is the additional land from the Vucanovich legislation in 
1986.
    We are trying to, our wells out in Hungry Valley, our rural 
reservation, are actually on BLM lands. The water is actually 
pumped onto the small reservation. So we are trying to 
basically widen the reservation so the wells would be on 
reservation land, the watershed.
    Then we want to get back to the cultural aspect. On 28 
acres, we want to teach our culture. We do sweat lodges right 
in downtown Reno. We would like to get out to a more rural area 
to perform those ceremonies. So I think that to teach our 
children about the outdoors and the trails and all the 
different things, petroglyphs and different things out in the 
area, I think it enhances our culture to really have a larger 
land base. That is really significant to us.
    The Chairman. In your testimony, you state the BLM is 
currently unable to manage this land and transferring it to the 
BIA will benefit the administration of this land. Just explain 
how the tribe and the BIA will do a better job managing these 
lands than the BLM.
    Mr. Melendez. It would primarily, we work very well with 
the Bureau of Land Management in the state of Nevada. They have 
told us that they just don't have the manpower to patrol the 
land with all of the littering and the things that are 
happening out there, off-road vehicles. I know that the tribe 
is probably in a better position in Hungry Valley with our 
police officers to really help them.
    We have assisted them in some areas identifying people who 
have really desecrated the land there. We have helped out. But 
I think we could do a better job because we have a little more 
manpower than BLM.
    The Chairman. Good. Let's talk a little bit about local 
support for transfers, because I think they are pretty 
critical. Has your tribe worked with the city or local 
governments on these transfers, and what has been the reaction?
    Mr. Melendez. It has been very good. We worked with the 
Washoe County Commission, which has jurisdiction up in the 
Hungry Valley area. It has been real positive, we haven't had 
any negative feedback from anybody. I think in our economic 
development endeavors, in the city of Reno, we have worked very 
well with the Mayor. That is one of the reasons we have been 
successful, is that we work well with local governments.
    The Chairman. That is good. Just curious, maybe you 
mentioned it in your testimony, do you have letters of support 
from them?
    Mr. Melendez. Yes, we do. I believe we have letters from 
the county. We do have those.
    The Chairman. Perfect. S. 2480 prohibits tribes from Class 
2 and Class 3 gaming. How do you feel about that?
    Mr. Melendez. Since Nevada is a gaming State, we are not 
really into gaming. I think it is a sovereignty right that 
tribes believe we should have. It is the same for a lot of 
things. But since this bill prohibits gaming, I don't think 
that is an issue here.
    The Chairman. Good. Thank you very much.
    Chairwoman Counts, I understand the deadline imposed by the 
Big Sandy settlement requires that Congressional ratification 
needs to take place sooner rather than later. How would the 
enactment of S. 2503, your bill, fit into the comprehensive 
agreement you are negotiating with the State and other water 
rights holders?
    Ms. Counts. It would bring us the ability to gain water 
rights. We have been on the Colorado from time immemorial and 
the Hualapai Tribe has no water rights. Our goal is to be able 
to obtain water rights for the tribe. This bill would fit into 
that.
    It would also help us to do the infrastructure study that 
would bring water up from the Colorado up to our resort, so 
that we could expand. Our tribal members travel 57 miles, 100 
miles round trip every day, rough roads, just to get to work. 
So we want to build a community out there. But in doing that, 
we need water.
    The Chairman. Got you. Not that this will happen, but if 
Congress was unable to act before December, how would that 
impact ratification of the Big Sandy and Hualapai agreements?
    Ms. Counts. It probably would all go away. All the work 
that we have done, it would go away, because of the deadlines 
that are existing.
    The Chairman. Okay. Based on your written testimony, the 
Freeport Minerals Corporation and the tribe have been working 
together very closely and effectively to hammer out everyone's 
water rights. How have the tribe and the corporation cultivated 
this relationship?
    Ms. Counts. We have a very good relationship. When I came 
into office in August of 2012, they were already working 
together. I just came in and there was a table of 30, 40 people 
just sitting down working out this agreement. Here we are 
today, we have a really good relationship there. Really 
friendly to us. They really want to see us achieve the goals 
that we have. So our relationship is very good, and we would 
like to thank them for all their help.
    The Chairman. That is good. I think your ability to be 
inclusive is critically important. So we thank you for that.
    The Hualapai's development of the Grand Canyon West is 
exactly the kind of tribal economic development that I think we 
need in Indian Country. I am interested to hear more about the 
plans that the tribe has for cultivating business and 
cultivating industry. Could you share with us some of the 
tribe's business goals and how S. 2503 would help you achieve 
those goals?
    Ms. Counts. One of our goals is to become a major economic 
development for the people to provide resources and also to 
become a world class resort. We are working toward those goals. 
This settlement will really help us. We are working on 
infrastructure out there to Grand Canyon West. We have jumped 
through a lot of hoops to get where we are today. We are going 
to open our new Diamond Bar Road, which will give better access 
to the resort. Those are some of the things we are doing. This 
comprehensive settlement will help us achieve the water rights 
that we need for the future.
    The Chairman. Thank you, Chairwoman Counts. We appreciate 
your leadership as well as the leadership of the other folks 
from Montana, Nevada and others. So thank you very, very much.
    Mr. Canfield, I would be remiss if I didn't at least you 
one question. Senator Udall isn't here, he got his questions 
in. The Indian Pueblo Cultural Center is one of the most 
visited tourist attractions in New Mexico, I am told. It is an 
example of what can happen when a tribe, or in this case, all 
Pueblos work jointly together with local and State partnership.
    I ask this question because I think it sets a good example 
for Congress. Maybe we need to pay attention to what you are 
doing and maybe we will be a little bit more effective. Can you 
describe how the Pueblos are able to work with local 
governments so successfully?
    Mr. Canfield. Thank you, Mr. Chairman, I can. One of the 
unique things we have done at the property is that we have 19 
different owners, sovereign owners. So we have formed a 
political subdivision of 19 Pueblos, having resolutions from 
each tribal council empowering their government to act on their 
behalf. So that streamlined the bureaucratic process of passing 
ordinances and tax codes and so forth.
    We also have a business side and we have a governance side. 
The business side is run by a five-person board, myself and our 
staff. And then there is a governance side. We understand the 
mutual beneficial relationship for both, taxes as well as 
commerce, and we have the ability on the business side to 
operate as a business without encumbering ourselves with 
bureaucratic challenges and government challenges, frankly. So 
we are free to do what we need to do to make that business 
work. That has been a key to our success there.
    The Chairman. Okay. The transfer of this land has taken 
place over a reasonably long period of time. Why didn't it all 
get transferred?
    Mr. Canfield. Mr. Chairman, I am not exactly sure of the 
exact reasons. But my opinion is that we probably didn't have a 
good plan for everything and a good structure for it. Sometimes 
things happen or a reason. So I feel like this last transfer, 
we will be better prepared than we ever have been to take 
advantage of that. So it kind of completes the BIA transfer and 
gives us the ability to develop the entire piece of property, 
and now we have resources, plans, support to accomplish that.
    The Chairman. So to be clear, these final 11.11 acres means 
that all the former Pueblo Indian School Reserve Land will have 
been transferred, is that correct?
    Mr. Canfield. Mr. Chairman, it does, with the exception of 
one small parcel on the map that right now is currently under 
GSA ownership. So this does complete the BIA's holdings over to 
us, but now our sights are going to be to finish off, we are 
going to be working on that.
    The Chairman. How big is that?
    Mr. Canfield. I think it is probably about 20 acres or so. 
I am sorry I don't have the exact coordinates.
    The Chairman. It is contiguous with the other parcels of 
land?
    Mr. Canfield. It is, yes, sir.
    The Chairman. Thank you very much. As I said several times 
today, I appreciate all your testimony. I appreciate your 
willingness to make the trek to D.C. It is not easy for folk 
who live in the west. So thank you very, very much.
    With that, I will state that the hearing will remain open 
for another two weeks for any additional information people 
might want to submit. With that, this hearing is adjourned.
    [Whereupon, at 3:59 p.m., the Committee was adjourned.]
                            A P P E N D I X

    Prepared Statement of Hon. Harry Reid, U.S. Senator from Nevada
    Thank you Chairman Tester and Vice-Chairman Barrasso for the 
opportunity to submit testimony on these two bills that would transfer 
land into trust for a total of eight Indian tribes in Nevada.
    Nevada's Great Basin has always been home to the Washoe, Paiute and 
Western Shoshone Peoples. The first Nevadans have long been a voice for 
protecting our wild landscapes and enriching our state through their 
language and cultural heritage. I take the many obligations that the 
United States has to tribal nations seriously. Land is lifeblood to 
Native Americans and these bills provide space for housing, economic 
development, traditional uses and cultural protection. I would like to 
commend the tribes, whose immense work and collaboration made these 
bills possible, and I look forward to continuing to work with our First 
Nevadans on protecting homelands.
S. 2479, The Moapa Band of Paiutes Land Conveyance Act
    The Moapa Band of Paiute Indians have been in Nevada and the West 
since time immemorial and suffered great land losses through federal 
Indian policy. When the Moapa River Reservation was established in the 
late 1800s, it consisted of over two million acres. In its lust to 
settle the West, Congress drastically reduced the reservation to just 
1,000 acres in 1875. It wasn't until 1980 that Congress restored 70,500 
acres to the reservation. Today the reservation is approximately 71,954 
acres.
    The Moapa Band of Paiutes Land Conveyance Act, S. 2479, would 
direct the Secretary of the Interior to take more than 26,000 acres of 
land currently managed by the Bureau of Land Management (BLM) and the 
Bureau of Reclamation into trust for the Moapa People who live outside 
of Las Vegas, Nevada. This legislation would provide much needed land 
for the tribe's housing, economic development and cultural 
preservation.
    Located on I-15, the tribe runs the Moapa Paiute Travel Plaza. The 
tribe is the first in Indian Country to develop utility-scale solar 
projects on tribal lands. Since southern Nevada has critical habitat 
for the desert tortoise, a species listed as threatened under the 
Endangered Species Act, the tribe works closely with federal, state, 
and local partners, members of the conservation community and 
interested stakeholders to develop their community in an 
environmentally responsible manner.
S. 2480, The Nevada Native Nations Land Act
    The Nevada Native Nations Land Act, S. 2480, would transfer land 
into trust for seven northern Nevada tribes--the Elko Band of the Te-
Moak Tribe of Western Shoshone Indians, the Fort McDermitt Paiute and 
Shoshone Tribe, the Duck Valley Shoshone Paiute Tribes, the Summit Lake 
Paiute Tribe, the Reno-Sparks Indian Colony, the Pyramid Lake Paiute 
Tribe and the South Fork Band of the Te-Moak Tribe of Western Shoshone 
Indians. Like S. 2479, the Nevada Native Nations Land Act would allow 
these seven tribes to build housing for their members, preserve their 
cultural heritage and traditions, and provide opportunities for 
economic development.
    Since time immemorial, the Western Shoshone have been living in 
what is now known as southern Idaho, central Nevada, northwestern Utah, 
and the Death Valley region of southern California. The Elko and South 
Fork Bands are two of four bands that comprise the Te-Moak Tribe of 
Western Shoshone Indians.
    The Elko Band's reservation, or colony, is landlocked by the 
growing City of Elko, where band members have been coming for mining 
and railroad jobs for decades. The colony needs additional lands for 
housing and economic development. My legislation would expand the Elko 
Band's reservation by transferring 373 acres of BLM-managed land into 
trust for the tribe.
    S. 2480 would also convey 275 acres, just west of the City of Elko, 
to Elko County to provide space for a BMX, motocross, off-highway 
vehicle, and stock car racing area.
    The South Fork Reservation, home to the South Fork Band, is 
comprised of 13,050 acres. The Band was one of the groups of Western 
Shoshone that refused to move to the Duck Valley Reservation and stayed 
at the headwaters of the Reese River, near the present Battle Mountain 
Colony. Established by Executive Order in 1941, the colony was 
originally 9,500 acres of land purchased under the Indian 
Reorganization Act. In addition to rugged high desert terrain near the 
foothills of the Ruby Mountains, the reservation has open range which 
is used for open cattle grazing and agricultural uses. The Nevada 
Native Nations Land Act would place 28,162 acres of BLM land into trust 
for the tribes and release the Red Spring Wilderness Study Area (WSA) 
from further study.
    The Northern Paiutes made their homes throughout what is now known 
as Idaho, California, Utah and Nevada. Due to westward expansion, our 
government pushed some Western Shoshones and Northern Paiutes into the 
same tribe and onto the same reservation where their descendants 
remain.
    The Fort McDermitt Paiute and Shoshone Tribe now make their home 
along the Nevada-Oregon border. Starting as a military fort in 1865, 
the military reservation was turned into an Indian Agency in 1889 then 
established as an Indian reservation in 1936. The reservation is 
currently made up of 16,354 acres in Nevada and 19,000 acres in Oregon. 
The Nevada Native Nations Land Act would add 19,094 acres now managed 
by the BLM in Nevada to the lands already held in trust for the tribe.
    The Duck Valley Indian Reservation is the home of the Shoshone-
Paiute Tribes who live along the state line between Nevada and Idaho. 
The reservation is 289,819 acres, including 22,231 acres of wetlands. 
The tribes have limited economic opportunities and tribal members have 
made their way farming and ranching. This bill would place 82 acres of 
U.S. Forest Service land into trust for the tribes. The tribes plan to 
rehabilitate structures that were used by Forest Service employees into 
much-needed housing on the parcel.
    The Summit Lake Reservation is one of the most rural and remote 
reservations in Nevada along the Oregon and California borders. 
Established in 1913 for the Summit Lake Paiute Tribe, the reservation 
today is 12,573 acres. The tribe seeks land to maintain the integrity 
of its reservation, protect Summit Lake and restore the Lahontan 
Cutthroat Trout. S. 2480 would transfer 941 acres of BLM-managed land 
into trust for the tribe.
    The Reno-Sparks Indian Colony has a very small 28-acre reservation 
in Reno, Nevada. The colony has 1,100 Paiute, Shoshone and Washoe 
members some of whom live on a 1,920 acre reservation in Hungry Valley, 
which is 19 miles north of Reno. The Hungry Valley Reservation is 
surrounded by shooting and ATV activities and tribal member have 
requested a buffer zone to ensure the safety of their community. The 
legislation would transfer 13,434 acres of BLM land into trust for the 
tribe.
    The Pyramid Lake Paiute Tribe have made their homelands around 
Pyramid Lake, a unique desert terminal lake. Pyramid Lake is one of the 
most valuable assets of the tribe and is entirely enclosed within the 
boundaries of the reservation. S. 2480 would expand the reservation 
with an additional 30,669 acres of BLM-managed land.
    This legislation is so important to me and the Indian tribes in 
Nevada. Throughout the history of our country, Native Americans have 
been removed and disenfranchised from their homelands. They have been 
treated so poorly. One of the first pieces of legislation I worked on 
when I came to Congress was the historic Pyramid Lake/Truckee-Carson 
Water Rights Settlement. This involved two states, several cities, a 
lake, a river, endangered species, and two Indian tribes. These Indian 
water rights needed to be protected, just as tribal lands need to be 
restored especially in Nevada where tribal landbases are smaller and 
more rural and remote than any other parts of Indian Country. During my 
time in the Senate, I will continue to do what I can to right some of 
the many wrongs and help tribes restore their homelands.
    I greatly appreciate that the Chairman and Vice-Chairman have made 
time for this hearing and I look forward to working with the Committee 
to advance these bills.
                                 ______
                                 
   Prepared Statement of the Board of Supervisors of Mohave County, 
                                Arizona
Introduction
    Mohave County is located in northwestern Arizona, with its western 
boundary being generally the Colorado River and southern boundary being 
the Bill Williams River. Our County is approximately 13,500 square 
miles in area, which makes it the fifth largest county by area in the 
Continental United States. Mohave County is an important gateway to 
recreational opportunities in the Grand Canyon, the Lake Mead National 
Recreational Area, the Colorado River, and numerous wildlife refuges 
and wilderness areas. The Kaibab, Fort Mojave and Hualapai Indian 
Reservations also lie within our County.
    Our County's largest city is Lake Havasu City, which along with 
Bullhead City, is right on the Colorado River. Kingman is our County 
seat, and it is a transportation hub that lies at the intersection of 
two major highways, Interstate I-40 and U.S. Route 93. Interstate I-40 
runs across the Southern United States, connecting Wilmington, North 
Carolina, to Barstow, California. Route 93 connects Phoenix, Arizona, 
to Las Vegas, Nevada. In the future, proposed Interstate I-11 as 
designated by the United States Congress in the 2012 Surface 
Transportation Act will generally follow the alignment of U.S. Route 
93. When that happens, Kingman and Mohave County will be then at the 
intersection of two major interstate highways. Mohave County also is 
served by the mainline of the Burlington Northern Santa Fe Railroad, 
and by several regional airports.
    Our population growth over the past twenty years has been dramatic. 
In 1990, our population was 93,000--less than half of what it is today. 
By 2000, we had grown to 155,000 people, and today, over 200,000 people 
currently call Mohave County home. This growth has been accommodated 
through coordinated and careful planning by Mohave County, as well as 
by the municipalities of Lake Havasu City, Kingman and Bullhead City. 
Because Mohave County lies within the Mohave Desert where water is 
scarce to non-existent, we are extremely concerned about the wise use 
of our water resources--perhaps more than any other crucial factor, 
water availability will limit and define how we grow in the future.
    With this background in mind, we offer to the Committee on Indian 
Affairs our statement opposing Senate Bill S.2503 as currently drafted. 
\1\
---------------------------------------------------------------------------
    \1\ As noted above, our comments are also applicable to the current 
draft of H.R. 4924.
---------------------------------------------------------------------------
Basis for Our Opposition to Senate Bill S. 2503
    We have been largely kept in the dark about the status of this 
legislation. In 2010, our County filed a protest to an application 
filed by Freeport Minerals Corporation (``Freeport'') to sever and 
transfer water rights appurtenant to Planet Ranch on the Bill Williams 
River to Freeport's well field on the Big Sandy River. On Friday, June 
6, we were informed by the Arizona Department of Water Resources that 
our objections had been summarily rejected. \2\ Based on that rejection 
of our protest, we retained counsel who learned that the introduction 
of this legislation was imminent. Initial efforts to obtain even a 
draft of the proposed S. 2503 and the two settlement agreements that 
are referenced therein were met with resistance, although Senator Jeff 
Flake's office did provide a draft copy of the legislation six days 
before its introduction on June 19, 2014. Approximately a week after 
the introduction of S. 2503, our County received drafts of the two 
settlement agreements.
---------------------------------------------------------------------------
    \2\ Mohave County has challenged ADWR's rejection of our objections 
by filing an administrative appeal with the Arizona Office of 
Administrative Hearings.
---------------------------------------------------------------------------
    To date, and despite repeated requests, we have not received any of 
the numerous exhibits that are referenced in these settlement 
agreements, nor do we know if the agreements have been revised or 
finalized. As a consequence, we are providing these comments with the 
understanding that if and when the exhibits to the settlement 
agreements are ever made available to us, we may find it necessary to 
submit additional comments.
Loss of Property and Sales Tax Revenue if Land is Taken Into Trust for 
        the Hualapai Tribe
    Our current opposition to S. 2503 as introduced is partly based on 
the fact that under this legislation, Mohave County may suffer a loss 
of property tax revenues as developable owned land is transferred from 
private to Federal ownership for the benefit of the Hualapai Tribe. 
Subsection 5(e) of S. 2503 provides as follows:

         As provided in section 10.11 of the Hualapai Tribe Agreement, 
        the parties to the Hualapai Tribe Agreement shall negotiate in 
        good faith with other parties the terms under which any land 
        within the State of Arizona held or acquired in fee by the 
        Tribe may be taken into trust by the United States for the 
        benefit of the Tribe, with any applicable terms to be 
        incorporated into a future agreement settling the claims of the 
        Tribe for rights to Colorado River water, and the Federal law 
        approving the agreement, subject to approval by Congress.

    The Hualapai Tribe Agreement \3\ simply restates this provision-it 
does not restrict or limit the current right of the United States to 
take additional land into Trust for the benefit of the Hualapai Tribe. 
Yet, under the Hualapai Tribe Agreement, the Hualapai Tribe could 
acquire several tracts of land from another party to the settlement, 
Freeport Minerals Corporation (``Freeport''). These tracts are 
identified in Paragraphs 4.2(iii) and 4.2(iv) of the Hualapai Tribe 
Agreement simply as the Benegas Ranch and the ROFR Lands (i.e., ``Right 
of First Refusal Lands''), respectively. No legal description or 
graphic depiction of the ROFR Lands has been provided to us.
---------------------------------------------------------------------------
    \3\ The entire caption of this Settlement Agreement is, ``Hualapai 
Tribe Bill Williams River Water Rights Settlement Agreement.'' As set 
forth above, Section 3 of this Agreement lists numerous exhibits, none 
of which have been made available to Mohave County. Because this 
Agreement is only available in draft form, references in our comments 
to sections or paragraphs of this Agreement are to the 6-23-2014 
version of the same. The Banegas Ranch and the ROFR Lands are 
referenced as being graphically depicted on Exhibit 2.8 to the 
Agreement which again, has not been provided to Mohave County.
---------------------------------------------------------------------------
    Under the worst case scenario, the Hualapai Tribe could acquire the 
Banegas Ranch or ROFR Lands (or both) by exercising its rights of first 
refusal; the Hualapai Tribe could then ask the United States to take 
these lands into Trust for its benefit. Nothing in S. 2503 or the 
Hualapai Settlement Agreement precludes this from happening. Under such 
circumstances, these lands would no longer be subject to taxation by 
Mohave County, and access across such tracts would be restricted by 
both the Tribe and United States. Long-term development on lands along 
the 1-11 corridor might also be restricted, or if these lands are 
developed by the Hualapai Tribe, such development might conflict with 
the general plan for Mohave County, and our zoning requirements and our 
development criteria. All of this would impose on our residents 
additional property tax burdens. \4\
---------------------------------------------------------------------------
    \4\ Mohave County is very cognizant of the current dispute between 
the Tohono O'Odam Nation and the City of Glendale over land that the 
Nation purchased for construction of a casino in the west Salt River 
valley. This Board of Supervisors does not wish to replicate that 
dispute in Mohave County.
---------------------------------------------------------------------------
    Because of this concern, S. 2503 should be amended to provide that 
no additional land within the Big Sandy River watershed will be taken 
into Trust without the consent of Mohave County. This amendment does 
not necessarily mean that Mohave County would veto any such effort by 
the Hualapai Tribe. Indeed, Mohave County supports the Hualapai Tribe 
in its efforts to protect Cofer Hot Spring on its Cholla Canyon Ranch 
from excessive groundwater withdrawals. It simply means that prior to 
any land being taken into Trust, our County and the Hualapai Tribe 
would work through and resolve anticipated planning, land use, access 
and water issues arising out of that Federal action.
Planet Ranch Access and Water Issues
    Our Board has similar issues with the donation of the Planet Ranch 
property to the Arizona Game and Fish Commission . The second 
Settlement Agreement referenced in S. 2503 is the ``Big Sandy River--
Planet Ranch Water Rights Settlement Agreement'' (``Big Sandy 
Agreement''). \5\ Again, our County has not been provided with any of 
the exhibits that are referenced in the Big Sandy Agreement, 
notwithstanding the fact that at least 30 such exhibits are referenced 
in that Agreement.
---------------------------------------------------------------------------
    \5\ References are to the 6-23-2014 version of this agreement. We 
do not know whether this agreement has been amended or substantially 
revised.
---------------------------------------------------------------------------
    Under the somewhat cryptic provisions of Section 5.0 of the Big 
Sandy Agreement, Freeport intends to donate to the Arizona Game and 
Fish Commission certain unidentified lands in the Planet Ranch area 
along the Bill Williams River. As outlined above, any such donation 
would remove private land from the Mohave County's tax rolls, thereby 
increasing the tax burden that must be shouldered by the other 
residents of Mohave County.
    In addition, there is no guarantee of access to the Planet Ranch 
property once it is conveyed to the Arizona Game and Fish Commission. 
Subsection 7(c) of S. 2503 states:

         Public Access--Nothing in this Act prohibits reasonable public 
        access to Planet Ranch or Lincoln Ranch in a manner that is 
        consistent with all applicable Federal and State laws and any 
        applicable conservation management plan implemented under the 
        Conservation Program.

    This provision is not an affirmative statement that requires access 
to be provided to the public, but instead only states that access will 
be provided if State and Federal agencies feel like it. Instead, S. 
2503 should affirmatively provide that such lands will be opened to the 
public and available for hunting, fishing and other recreational uses.
    Finally, there remain substantial questions about the validity of 
the Planet Ranch water rights that Freeport proposes to transfer to its 
Big Sandy well field . Each Settlement Agreement and S. 2503 includes 
numerous representations by the parties about the validity of the 
Planet Ranch water rights. Yet, in Subparagraph 4.2.1 (vii) of the Big 
Sandy Agreement, Freeport represents that it is installing irrigation 
facilities to ``re-irrigate'' the Planet Ranch property to prevent 
forfeiture of the water rights by December 13, 2016. That date is five 
years after the date that Freeport acquired the Planet Ranch property 
from the City of Scottsdale. \6\
---------------------------------------------------------------------------
    \6\ The City Scottsdale acquired Planet ranch in 1984 as a water 
farm with the intention of transporting Planet Ranch waters from the 
Bill Williams area to the City of Scottsdale for municipal use. 
Freeport acquired the Planet Ranch from Scottsdale by Special Warranty 
and Quitclaim Deed, dated December 8, 2011, and recorded in the records 
of Mohave County, Arizona, as Fee Number 2011062804 on December 14, 
2011.
---------------------------------------------------------------------------
    Under Arizona law, non-use of a water right for a five year period 
may result in a determination that the water right has been lost 
through forfeiture. See for example, Arizona Revised Statute (A.R.S.) 
Section 45-141.C. Freeport apparently recognizes that these water 
rights have not been used recently, and statements by representatives 
of the City of Scottsdale suggest that irrigation entirely stopped on 
the Planet Ranch property sometime in 2005. \7\ This statement is 
further supported by a quick review of aerial photographs of the Planet 
Ranch Property.
---------------------------------------------------------------------------
    \7\ Peter Corbett, ``Scottsdale Gets $10.15 Million, Water Rights 
Worth $18 Million,'' Arizona Republic (December 23, 2011), available 
at: http://www.azcentral.com/community/scottsdale/articles/2011112/21 
120111221 mining-company-agreesacquire-scottsdale-planet-ranch.html.
---------------------------------------------------------------------------
    The aerial photos and statements by Freeport and others suggest 
that these water rights have already been forfeited and/or abandoned 
through non-use for more than a five-year period. During a public 
hearing before our Board of Supervisors on July 2, 2014, Freeport 
mentioned that it had entered into an agreement with Scottsdale to 
acquire the Planet Ranch in 2006. Around 2007 both Scottsdale and 
Freeport began taking steps to transfer the Planet Ranch water rights 
to Freeport's Big Sandy well field for mining purposes. Thus, the 
Planet Ranch water rights were abandoned seven or eight years ago when 
Scottsdale gave up on its plans to use waters from Planet Ranch for 
municipal purposes.
    At the same hearing, Freeport also stated that it had about 40,000 
acre-feet of water rights that it could use to support its withdrawals 
of water from its Big Sandy well field. \8\ If this is indeed the case, 
then it is not clear why Freeport even needs to sever and transfer 
water rights from Planet Ranch. Instead such rights should be left 
where they already are for the support of the riparian community along 
the lower reach of the Bill Williams River.
---------------------------------------------------------------------------
    \8\ Mohave County does not know anything about these water rights 
and therefore does not concede that such water rights remain valid. 
Indeed, perhaps they have been abandoned too.
---------------------------------------------------------------------------
Conclusion
    For the reasons set forth above, we oppose the passage of S. 2503 
and its companion House Bill, H.R. 4924. As currently drafted, passage 
of this legislation may result in the loss of property and sales tax 
revenues and accessible public land in Mohave County. Instead, those 
parties to the settlement that are pushing this Congress for quick 
passage of legislation should provide the numerous exhibits to those of 
us in Mohave County and others who have a vested interest in this 
settlement, and then work with us to resolve our concerns. Only after 
our concerns have been addressed should this legislation become law.
    Please include our comments in the Congressional Record in this 
matter. We appreciate the opportunity to provide you with comments on 
S. 2503, and we look forward to working with members of your Committee 
to resolve our concerns.
                                 ______
                                 
 Prepared Statement of Hon. Lindsey Manning, Chairman, Shoshone-Paiute 
              Tribes of the Duck Valley Indian Reservation
    On behalf of the Shoshone-Paiute Tribes of the Duck Valley Indian 
Reservation, I write in strong support of S. 2480, the ``Nevada Native 
Nations Land Act,'' and section 201(c) of the legislation which conveys 
82 acres of land administered by the U.S. Forest Service to our Tribes 
to be held in trust by the United States and made part of the Duck 
Valley Indian Reservation. The Shoshone-Paiute Tribes are pleased that 
our Senators, Majority Leader Harry Reid and Senator Dean Heller have 
introduced the bill this session. S. 2480 is the companion bill to H.R. 
2455, introduced by Congressman Mark Amodei in 2013 which the House 
Natural Resources Committee approved for House consideration just last 
month.
    We thank the Committee for holding a legislative hearing on S. 
2480. I join the other Nevada Indian Tribes covered under S. 2480, and 
Reno-Sparks Indian Colony Chairman Arlan Melendez, who testified before 
the Committee on behalf of all the Nevada tribes, in supporting this 
bill. Together with Senators Reid and Heller, I urge the Committee and 
the full Senate to approve the legislation this session.
    The land transfer is supported by both local and national Forest 
Service officials and is not controversial. The property we seek to 
have conveyed to us in trust for our benefit, located about 20 miles 
from Owyhee, Nevada, the site of our tribal government, is currently 
managed by the United States Forest Service within the Department of 
Agriculture. The parcel is located approximately ten miles south of our 
Reservation and near Mountain City, Nevada.
    We seek this parcel of land for the 11 outbuildings, including 
housing units, detached garages, a corral and hay shed, for our use and 
management. Once renovated, we plan to use the housing units to address 
the chronic housing shortage on the reservation and to provide 
construction jobs and job training for our members.
    The Forest Service abandoned the site and existing structures 
located there six years ago when the Service moved its District 
headquarters to Elko, Nevada, about 80 miles south of the property. The 
82 acre Forest Service parcel constitutes a tiny portion of the 82,000 
acres of mostly Bureau of Land Management (BLM) lands that would be 
transferred to tribal and local government control under S. 2480 and 
represents a small portion of the Forest Service's Mountain City Ranger 
Station Administrative Site, but the parcel is very important to us.
    The modest acquisition we seek will allow us to renovate some nine 
homes in close proximity to our Reservation and help us provide much 
needed housing, assist us recruit public safety, health professionals 
and other personnel to work on the Duck Valley Reservation and provide 
construction jobs to our members. Owyhee, Nevada is situated 100 miles 
south of Mountain Home Idaho, a city of about 16,000 and 100 miles 
north of Elko, Nevada, a city of about 18,000. The ability to provide 
housing in close proximity to Duck Valley is immeasurable as 
recruitment and retention is difficult for us in light of our housing 
shortage and isolation.
    The Shoshone-Paiute Tribes' provision is required because the 
Forest Service has limited statutory and regulatory authority to convey 
lands it manages to an Indian tribe and have such lands be held in 
trust by the United States for our benefit. The Service's primary 
authorities for conveying land to non-federal parties comes from the 
Forest Service Facility Realignment and Enhancement Act of 2005, Pub. 
L. 109-54, 119 Stat. 559, as amended (16 U.S.C.  580d), and 
legislation authorizing land exchanges. See 43 U.S.C.  1716 (Federal 
Land Policy and Management Act of 1976, as amended).
    Restrictions in both laws limit the quantity of land the Service 
may transfer, impose other conditions on the Service's conveyances and 
do not clearly provide that conveyance of Forest Service lands when 
made to a federally recognized Indian tribe are held in trust by the 
United States for the Indian tribe's benefit. Sections 201(c)(2)(A) and 
(B) resolve this issue by providing that an the Forest Service parcel 
is held in trust by the United States for the benefit of the Shoshone-
Paiute Tribes and shall be part of Duck Valley Indian Reservation. We 
believe that the provision is entirely consistent with the government-
to-government relationship that exists between the Shoshone-Paiute 
Tribes and the United States.
    Section 202(b) of S. 2480 requires all lands transferred to the 
seven tribes covered under the legislation must use the land for 
traditional and customary uses, stewardship conservation, residential 
or recreational development, renewable energy or mineral development. 
The provisions of this section are consistent with our intended use of 
the Forest Service parcel.
    S. 2480 correctly references the appropriate map, the ``Mountain 
City Administrative Site Proposed Acquisition,'' dated July 29, 2013, 
which reflects the corrected boundaries of the Forest Service parcel to 
be conveyed to us. We had clarified in our 2013 testimony to the House 
Natural Resources Committee concerning H.R. 2455 that the earlier 
referenced site map needed to be corrected to reflect that the proposed 
acquisition site lies entirely to the east of Nevada Highway 225. We 
are pleased to see that the correct map of July 29, 2013, is included 
in section 201(c)(1) of S. 2480. Once the bill becomes law, the 
Secretary of the Interior will complete a survey of the boundary lines 
to establish the boundaries of each parcel taken into trust.
    We are a remote, rural reservation that straddles the Idaho-Nevada 
border along the Owyhee River. The Reservation was established in 1877 
and expanded in 1886 and 1910. Today, the Reservation encompasses 450 
square miles in Elko County, Nevada and Owhyee County, Idaho.
    About 85 percent of our 2,000 enrolled members reside on the 
Reservation. Tribal members make their living as farmers and ranchers, 
though many are employed by the Tribes. We are quite proud of the fact 
that for nearly two decades we have assumed the duties of the Secretary 
of the Interior and the Secretary of the Department of Health and Human 
Services under Indian Self-Determination Act Self-Governance compacts. 
We also carry out federal programs of the Department of Housing and 
Urban Development and the Federal Highway Administration under 
agreements with those agencies. While we employ many tribal members, we 
also employ non-members who require affordable housing in close 
proximity to Duck Valley. Unfortunately, infrastructure on the Duck 
Valley Indian Reservation is in short supply, especially affordable 
housing.
    With abandoned improvements only 20 miles from Owyhee that we can 
renovate, the Forest Service property would help us address our housing 
needs, provide construction and training jobs, strengthen our 
governmental services and programs by assisting us retain health care 
professionals, law enforcement and conservation officers and other 
first responders and personnel and establish a presence on the site 
that has been absent for the last six years.
    Acquisition of the Forest Service parcel, located close to our 
tribal headquarters, elementary and high schools, health clinic, fire 
department, tribal court and public safety offices, would provide us 
with additional housing units close to the Duck Valley Indian 
Reservation. Recent data from the Department of Housing and Urban 
Development shows that within our housing formula area, there are 242 
Native American households that are overcrowded, 205 Native American 
households have housing expenses greater than 50 percent of Median 
Family Income and 877 Native American households that earn less than 80 
percent of Median Family Income. Median family income in Owyhee, Nevada 
is around $30,000 annually.
    If enacted into law this session, S. 2480 will permit us to 
administer the site, plan and begin renovations to utilize the 
improvements for our benefit. The improvements we plan to make would 
provide an opportunity to put our members to work. Unemployment on the 
Duck Valley Reservation is very high. We plan to utilize the renovation 
work as a training exercise through our Tribal Employment Rights 
Ordinance (TERO) and implement a youth employment training program to 
assist in the renovation of the units and other buildings. The work and 
training will benefit our members, as will the required routine 
maintenance of the property and improvements. The close proximity of 
the property to our Reservation and administrative offices will better 
ensure that we properly maintain the site.
    In conclusion, conveyance of the approximately 82 acre Forest 
Service parcel to the us in trust will assist the Shoshone-Paiute 
Tribes address our housing shortage, strengthen our tribal government 
programs by helping us retain personnel who need affordable housing 
near the Duck Valley Indian Reservation and create construction work 
and job training opportunities for our Tribal members. We support S. 
2480 and urge its prompt passage.
    Thank you for affording the Shoshone-Paiute Tribes the opportunity 
to submit testimony to the Committee regarding S. 2480.
                                 ______
                                 
    Prepared Statement of Gerald Temoke, Chairman, Elko Band Council
    Thank you for the opportunity to provide this testimony. The Elko 
Band Council is a constituent band of the Te-Moak Tribe of Western 
Shoshone Indians of Nevada. For the last 17 years Elko Band Council has 
pursued additional land for expansion of its current land base which is 
192.80 acres. Millions of acres within the State of Nevada are under 
the authority of the Bureau of Land Management. Elko Band Council is 
only requesting a small portion of the lands to be held in trust for 
its enrolled membership for housing, cultural activities, recreation, 
economic development, and gravesites. Most Tribes throughout the United 
States have thousands of acres for their land base to provide for the 
needs of their people. Elko Band does not have the adequate land base 
to expand and grow with its population which has increased to 
approximately 1,500 enrolled members. Elko Band has the largest 
population and our land base is the smallest. Additional land is 
greatly needed and essential to sustain growth and provide necessary 
services to our people.
                                 ______
                                 
 Prepared Statement of Steve Charter, Northern Plains Resource Council
    Mr. Chairman and Members of the Committee,
    Thank you for the opportunity to submit testimony on S. 2442, 
Senator Walsh's Northern Cheyenne Lands Act. My name is Steve Charter. 
My family and I ranch above some of the coal proposed for exchange by 
this bill. I write on behalf of us and on behalf of Northern Plains 
Resource Council, whose board of directors I currently chair.
    Northern Plains is a grassroots conservation and family agriculture 
non-profit organization based in Billings, Montana. Northern Plains 
organizes Montana citizens to protect our water quality, family farms 
and ranches, and unique quality of life.
    Northern Plains formed in 1972 over the issue of coal strip mining 
and its impacts on private surface owners who own the land over federal 
and state mineral reserves. Our members care deeply about Montana, its 
future, and the issues surrounding coal. Many of our members' 
livelihoods as ranchers and farmers depend entirely on clean air and 
water, native soils and vegetation, and lands that remain intact. The 
strip mining of coal affects us directly.
    Given that, I'm writing to express some concerns about this bill. 
I'd like to open, however, with what we support.
    What Northern Plains Supports:

        1.  Conveying Coal Beneath the Reservation to the Northern 
        Cheyenne: We think the Tribe ought to have control of all the 
        resources above, on, and below their reservation.

        2.  Surface Owner Consent: This bill seeks to preserve the 
        intent of the Surface Mining Control and Reclamation Act of 
        1977 (SMCRA) by providing some protections for landowners. That 
        bill preserved the right of surface owners like me to decide 
        whether their land will be strip mined if they live above 
        federal coal. Transferring the coal under me to private 
        ownership would normally take away that right, threatening the 
        ranch my family and I have worked for several generations now. 
        By including a provision in the bill that transfers Surface 
        Owner Consent with the exchanged Bull Mountain minerals, I at 
        least maintain some of the existing protections for my ranch 
        and livelihood.

        3.  Maintenance of Resource Management Plan Restrictions on 
        Mining Methods: In addition to SMCRA's provision for Surface 
        Owner Consent, the Bureau of Land Management's Resource 
        Management Plan for the area includes a provision that the 
        federal coal sought for exchange in this bill be mined 
        exclusively by underground methods. My family and our neighbors 
        worked hard for that, and it's something we don't want to lose. 
        There is currently no strip mining in the Bulls. Adding surface 
        mining to existing longwall mining operations would risk 
        destroying aquifers, making sustained agriculture in the Bulls 
        untenable. It would destroy invaluable cultural artifacts 
        (there are pictographs and other artifacts out here, a product 
        of many generations of Native American use of these lands). And 
        it would be a tremendous insult to the history of the families 
        who live and work here now. My family's ashes are scattered on 
        this ground. I don't want to see it torn up.
    As alternatives to the RMP language currently in the bill, we would 
support an outright ban on surface mining of the conveyed Bull Mountain 
tracts. We would also be supportive of removing Bull Mountain tracts 
from the bill, which would perhaps be progress toward address our 
concern detailed below.
    What Needs To Be Changed:

        1. Any Exchange Should Be More Balanced: This bill proposes a 
        ton-for-ton trade of coal, giving Great Northern Properties 
        roughly the same number of tons of coal being conveyed to the 
        Tribe. Merely operating on a ton-for-ton basis is unreasonable- 
        that's like trading a house in Shepherd, Montana for a house in 
        the Hamptons.

           The coal that Great Northern Properties would acquire in 
        this bill is some of the highest-value coal in Montana--
        adjacent to existing mines with already-established 
        infrastructure. The coal in the Bull Mountains where I live is 
        notably higher BTU than the coal under the Northern Cheyenne 
        reservation. As the Interior Department struggles to address 
        evidence that it is already undervaluing federal coal, 
        taxpayers deserve a hard look at the balance of how much coal 
        is exchanged in this bill. This bill should convey less coal to 
        Great Northern Properties in an attempt to make the exchange 
        more balanced and to avoid unduly transferring public wealth to 
        a private corporation.

    In closing, we strongly agree with the bill's intent to return coal 
to the Northern Cheyenne. I more than many know what it's like to have 
someone else owning the coal beneath your land. However, as a country, 
we should be able to fix this problem and strike a more equitable 
balance on behalf of federal taxpayers at the same time.
                                 ______
                                 
  Prepared Statement of Randi DeSoto, Chairwoman, Summit Lake Paiute 
                                Council
    On behalf of the Summit Lake Paiute Tribe, I wish to thank you for 
the opportunity to offer testimony in support of S. 2480, the Nevada 
Native Nations Lands Act.
Background
    The Summit Lake Paiute Tribe is a federally recognized Indian Tribe 
and has a government-to-government relationship with the Federal 
Government.
    By election on October 24, 1964, the members of the Agai Panina 
Ticutta (Summit Lake Fish Eaters) Tribe of the Northern Paiute Nation 
gave up their traditional form of government, to conditionally adopt a 
form of government suggested by the Indian Reorganization Act of 1934 
(see Articles of Association (Constitution) and changed the name of the 
Tribe to the ``Summit Lake Paiute Tribe.''
    The Tribe's Articles of Association were approved by John A. Carver 
Jr., Acting Secretary of the U.S. Department of the Interior on January 
8, 1965.
    The Tribe's Reservation is in a very remote location in 
northwestern Nevada about 50 miles south of the Oregon state line, and 
about 50 miles east of the California state line. Additionally, it 
takes 5 hours to travel to the Reservation from Reno, Nevada, with the 
final 3 hours on a seasonally impassible dirt road.
    Prior to contact with Europeans and Euro-Americans, the Agai Panina 
Ticutta controlled at least 2,800 square miles of land including land 
that is now in the states of Oregon and California.
    At one time, the Reservation was part of a military reservation, 
known as Camp McGarry that was established by Executive order in 1867. 
The military reservation was abandoned in 1871 and transferred from the 
War Department to the Department of the Interior.
    The Reservation was established on January 14, 1913 by a 
President's Executive Order, number 1681. The Executive Order set aside 
about 5,026 acres in trust for the Tribe. Successive actions have added 
additional acreage to the Reservation. Today, the total acreage of the 
Reservation is about 12,573 acres. The total surface of the lake 
fluctuates between 900 and over 600 acres between the run off of snow 
melt in spring and dry summer conditions. Reservation lands surround 
Summit Lake except in one area on the west side of Summit Lake. S. 2480 
would incorporate these public domain lands into the Reservation 
thereby restoring the integrity of the Reservation and allowing for 
better, more comprehensive management of the Lake and its fish 
population.
    Summit Lake is home to the federally listed Lahontan cutthroat 
trout. As suggested by the translation of the Tribe's name--''Agai 
Panina Ticutta''--the ``Summit Lake Fish Eaters'', the trout were and 
remain integral to the Tribe's culture and are a vital food source.
    Lahontan cutthroat trout were plentiful in the mid-1880s. But as 
more people moved to the area and began to use the natural resources, 
what was once plentiful became depleted. Overfishing of the lake 
populations, introduction of exotic fish and habitat degradation caused 
the collapse of the commercial Lahontan cutthroat from nearby lakes 
such as Lake Tahoe in 1939 and Pyramid Lake five years later in 1944.
    Cooperative efforts to improve the status of Lahontan cutthroat 
trout began as early as the 1940's. Habitat improvement projects and 
livestock grazing enclosures were initiated as early as 1969.
    S. 2480 presents an opportunity to continue efforts to restore 
Summit Lake and its fishery. Transfer of the 941 acres of public domain 
lands in Township 42 North, Range 25 East, Sections 35 & 36 to the 
Summit Lake Paiute Tribe for inclusion in the Summit Lake Reservation--
the only lands that surround Summit Lake which are not a part of the 
Reservation--will allow for significantly improved management and 
habitat restoration for existing and future Lahontan cutthroat trout 
populations.
    The Summit Lake Paiute Tribe has long sought these lands which 
should have been a part of the Reservation from inception a century 
ago.
    Transfer of these lands will unify the Reservation, allow the Tribe 
to better manage its natural resources and protect Summit Lake and its 
fish population thereby achieving cultural, economic and environmental 
benefits.
    Thank you for your consideration of this bill. On behalf of the 
Summit Lake Paiute Tribe I respectfully and strongly urge your support.
                                 ______
                                 
Prepared Statement of Hon. Elwood Lowery, Chairman, Pyramid Lake Paiute 
                                 Tribe
    On behalf of the Pyramid Lake Paiute Tribal Council, the governing 
body of the Pyramid Lake Tribe and pursuant to the Council's resolution 
dated May 21, 2014, I respectfully offer the following testimony in 
support of S. 2480, the Nevada Native Nations Lands Act.
    The Pyramid Lake Paiute Tribe is a federally recognized Indian 
Tribe and has a government-to-government relationship with the United 
States of America.
    The Pyramid Lake Reservation lies approximately 35 miles northeast 
of Reno, Nevada in northwestern Nevada. It lies almost entirely in 
Washoe County. The Reservation has 742.2 square miles in land area and 
includes all of Pyramid Lake, and all of the Truckee River from the Big 
Bend north. The Reservation is centered on Pyramid Lake, and the lake 
itself comprises 25 percent of the reservation's area. The Reservation 
includes most of the Lake Mountain Range, portions of the Virginia 
Mountains and Pah Rah Range and the southern end of the Smoke Creek 
Desert. There are three communities on the Reservation. Sutcliffe is 
located on the western shore of the Lake, Nixon is at the southern end 
of the Lake, and Wadsworth, the largest, is located near the Big Bend 
of the Truckee at the southern end of the reservation, just north of 
the non-reservation town of Fernley.
    The reservation land was first set aside for the Northern Paiute at 
request of the Bureau of Indian Affairs in 1859. The Reservation was 
not surveyed until 1865. President Ulysses S. Grant subsequently 
affirmed the Reservation's existence by executive order dated March 23, 
1874.
    Our Tribe has a long history of repatriating ancestral lands within 
and contiguous to the reservation to Tribal ownership to protect, 
conserve, and enhance the cultural and natural resources of the Pyramid 
Lake Paiute Reservation.
    The Tribe has long sought the ancestral lands set forth in S. 2480 
(Sec. 201(f)) for inclusion within the legal boundaries of the 
Reservation. In 1990, President George H. W. Bush signed Public Law 
101-618 which included a provision to allow private lands within or 
contiguous to the Reservation to be acquired by means of a Federal Land 
Exchange and then be incorporated within the Reservation. Subsequently, 
a number of land exchanges authorized by PL 101-618 were successfully 
completed enabling the Tribe to acquire certain lands in the Pah Rah 
Mountain Range on the southwest border of the reservation. 
Unfortunately, almost 8,000 acres of private land acquired in the Pah 
Rah Range under PL 101-618 were conveyed to the United States under the 
jurisdiction of the Bureau of Land Management (BLM) rather than into 
Trust status. The Tribe has long held that these properties should have 
been put into Trust status. The proposed legislation would help right 
this perceived wrong and transfer these as well as additional lands in 
the Pah Range that lie in Pyramid Lake's watershed to Trust status.
    Additionally, in 2008 the Tribe acquired private lands contiguous 
to the eastern boundary of the Reservation in the Mud Slough area which 
lands are intermingled with isolated parcels of BLM land. S. 2480 would 
unify the land ownership pattern allowing for better, more 
comprehensive Tribal land management of this area.
    Incorporation of the federal land that is contiguous to the 
Reservation will help protect the Pyramid Lake watershed, and the 
lake's world renowned fishery. Transfer of these lands would also allow 
the Tribe to better manage the watershed of Pyramid Lake, the central 
feature of the Reservation.
    Pyramid Lake is home to the cui-ui, Chasmistes cujus, a large 
sucker fish endemic to Pyramid Lake. The cui-ui is not only a 
critically endangered species, but is also one of the few surviving 
members of its genus. As suggested by the translation of the Tribe's 
name ``Cui ui Ticutta''--the ``Cui ui Eaters''--these fish were and 
remain integral to the Tribe's culture and were a vital subsistence 
food source. Following the construction of Derby Dam in 1905 and 
diversion of much of the Truckee River's flow, the Pyramid Lake fishery 
declined and by 1930 it was no longer capable of supplying even 
subsistence food. Pyramid Lake is also home to the federally listed 
Lahontan cutthroat trout. The trout were and remain integral to the 
Tribe's culture and are central to the Tribe's economy and remain a 
vital food source for Tribal members. Lahontan cutthroat trout were 
plentiful in the mid-1880's. But as more people moved to the area and 
began to use the natural resources, what was once plentiful became 
depleted. Overfishing of the lake's population, introduction of exotic 
fish and habitat degradation caused the collapse of the commercial 
Lahontan cutthroat in Pyramid Lake by 1944. Pyramid Lake was restocked 
with fish captured from Summit Lake (Nevada). However, in the 1970s, 
fish believed to have been stocked almost a century ago from the 
Pyramid Lake strain were discovered in a small stream along the Pilot 
Peak area of western Utah border, and are a genetic match to the 
original strain. This Pilot Peak strain is now integral to the 
reintroduction and planting programs maintained by the U.S. Fish and 
Wildlife Service. The Lahontan cutthroat trout were classified as an 
endangered species between 1970 and 1975, then the classification was 
relaxed to threatened species in 1975, and reaffirmed as threatened in 
2008.
    As stated above, transfer of these lands will allow the Tribe to 
better manage its natural resources and protect Pyramid Lake and its 
fish population thereby achieving cultural, economic and environmental 
benefits.
    Finally, the historic range of the Pyramid Lake Paiute people was 
far greater than the current boundary of the Pyramid Lake Paiute 
Reservation, and transfer of federal lands that are contiguous to the 
current boundary of the Reservation would allow the Pyramid Lake Paiute 
people to expand their present day Reservation to include additional 
lands that they occupied in the past.
    Early on representatives of the Pyramid Lake Tribe reached out to 
nearby stakeholders in an effort to address concerns they may have. We 
have in good faith attempted to address all legitimate concerns that 
have been brought to our attention. And, even though the proposed 
legislation is clearly subject to honoring any and all valid existing 
rights, in an effort to accommodate concerns expressed by mining 
interests and recreationists, the Tribe acquiesced to requests to 
remove over 10,000 acres from the bill as originally proposed. After 
doing so, the Tribe agreed to remove an additional approximately 3,500 
acres to accommodate concerns that were only brought to the Tribe's 
attention on July 22, 2014. I believe the Pyramid Lake Tribe has been 
extremely willing to compromise in order to make this bill a reality 
and on behalf of the Pyramid Lake Tribal Council and all our members, I 
wish to thank Senators Reid and Heller for their support of this 
legislation and respectfully ask that you and your colleagues support 
Senate Bill 2480.
    Thank you for your consideration of the preceding testimony.
                                 ______
                                 
      Prepared Statement of the La Paz County Board of Supervisors
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Prepared Statement of Francis McAllister, Vice President of Land & 
                  Water, Freeport Minerals Corporation
    Chairman Tester, Vice Chairman Barrasso, and members of the 
Committee:
    My name is Francis McAllister and I am the Vice President of Land & 
Water at Freeport Minerals Corporation. Thank you for the opportunity 
to provide testimony in support of S. 2503, the Bill Williams River 
Water Rights Settlement Act of 2014, which authorizes, ratifies, and 
approves agreements between the Hualapai Tribe (Tribe), the U.S. 
Department of the Interior, acting on behalf of itself and as trustee 
for the Tribe, its members and Allottees (U.S. DOI), the Arizona Game & 
Fish Commission (AGFC), the Arizona Department of Water Resources 
(ADWR) and Freeport Minerals Corporation (Freeport).
    Special thanks to Senator Flake and Senator McCain for co-
sponsoring this bill and for their continued support. I would also like 
to thank both of you for scheduling this hearing to consider this 
important piece of legislation, and we greatly appreciate the work 
personal and Committee staff, have devoted to moving this bill through 
the Committee process.
    In brief, this Legislation approves a public/private agreement that 
will:

        1.)  Recognize and confirm the Tribe's existing water rights in 
        the basin and protect culturally significant water supplies;

        2.)  Provide $1,000,000 of non-federal money to the Hualapai 
        Tribe from Freeport for additional water studies and will 
        provide an additional non-federal contribution from Freeport to 
        establish an Economic Development Fund for the Tribe;

        3.)  Donate over 3,400 acres of land for the purposes of the 
        Lower Colorado River Multi-Species Conservation Program (LCR 
        MSCP) to assist the Lower Colorado River water users in 
        complying with Endangered Species Act (ESA) requirements; and

        4.)  Effectuate the transfer of 10,055 acre-feet per year of 
        water rights to Freeport's Wikieup Wellfield and limits 
        Freeport's water consumption from Wikieup at this level.

    This legislation is a win-win for Indian Country, endangered 
species, and sustainable and responsible mining. My testimony provides 
background information and an overview of the terms of the Settlement 
and its benefits.
I. Background
    Freeport is a leading producer of copper and other minerals. The 
Company is headquartered in Phoenix, Arizona and its workforce in the 
U.S. at the end of 2013 included 13,300 direct employees and 1,900 
contractors. In Arizona, Freeport owns and operates a copper smelter 
and five mining operations, which includes a large open-pit copper and 
molybdenum mining complex in Bagdad, Arizona.
    A fundamental element of Freeport's U.S. operations includes direct 
engagement with Native American tribes. Education has been identified 
as a priority issue for Freeport's partnership with Indian Country, and 
in 2013 our Native American University scholarship program awarded 58 
college scholarships to members of the Hualapai, San Carlos Apache, and 
White Mountain Apache tribes. We also contributed, including through 
the Native American Partnerships Fund, approximately $250,000 toward 
initiatives such as training on forest management for carbon 
sequestration on reservations and supported the San Carlos Apache 
Women's Conference, a forum for tribal women to share experiences on 
topics including family health.
    Our technical training program with the San Carlos Apache Tribe in 
Arizona, the first of its kind between Freeport and a U.S. tribe, will 
increase the employability and skills of Apache students who are faced 
with high unemployment in their community. The program will train and 
certify students in heavy equipment operations and industrial 
maintenance, and through the end of 2013, 200 students have entered the 
program and 42 have graduated--most of whom have been hired or are in 
the process of being hired.
    Freeport's partnership in the Bill Williams River Water Rights 
Settlement negotiations (S. 2503) with the Hualapai Tribe marks the 
latest chapter in its proactive effort to work with Native American 
communities that live in and around the Company's operations. This 
legislation is a milestone for all the parties involved, and Freeport 
is honored to join the Hualapai Tribe in advancing this important 
effort.
    We particularly want to acknowledge the tireless effort of Hualapai 
Chair Sherry Counts, who was both steady and inspiring in her 
leadership on this settlement. The Company greatly treasures its strong 
relationship with the Hualapai people that developed through the years 
of settlement discussions that brings us before the Committee today.
    Additionally, I would like to acknowledge the efforts of the 
Federal Team for their work in helping to bring this Legislation to you 
today. In particular, the efforts of Letty Belin, Senior Counsel to the 
Deputy Secretary at the Department of the Interior; Pamela Williams, 
Director, Secretary's Indian Water Rights Office at the Department of 
the Interior; and Ruth Thayer, Program Manager at the Department of the 
Interior, Bureau of Reclamation; all of whom have done a tremendous job 
and I would like to recognize them for their significant time and 
efforts on this matter.
II. Protection of Freeport Bagdad's Water Rights
    Freeport's Bagdad Arizona mining operation is located approximately 
60 miles west of Prescott and 100 miles northwest of Phoenix, in 
Yavapai County. The open-pit mine has been ongoing since 1945, and 
prior mining was conducted through underground workings dating back to 
1882. The Bagdad operation encompasses approximately 21,750 acres, 
comprising 21,150 acres of patented mining claims and other fee lands 
and 600 acres of unpatented mining claims. Production at the Bagdad 
mine in 2013 totaled 216 million pounds of copper and 8 million pounds 
of molybdenum. The direct and indirect economic contribution of the 
Bagdad Mine to Arizona's economy totaled $339.1 million.
    As with all mining operations, the Bagdad operation requires a 
dedicated water supply. The current water supplies for the Bagdad Mine 
include access to groundwater and surface water resources in the Big 
Sandy River Groundwater Basin and the Big Sandy River in the Bill 
Williams River Watershed. Although the Company believes the Bagdad 
operation has sufficient water sources to support current operations, 
Bagdad faces the potential for increases in competing water demands and 
variability in water supplies due to an on-going drought. We are 
particularly sensitive to this issue because litigation at our other 
Arizona facilities may set legal precedents that could adversely affect 
Freeport's water rights at Bagdad.
    The need to protect and ensure a long-term sustainable water supply 
for the Bagdad operation is the basis for Freeport's involvement in the 
water rights settlement with the Hualapai Tribe. Beginning with the 
purchase of Planet Ranch, Freeport sought to shore up its existing 
water rights along the Big Sandy River. Planet Ranch located along the 
Bill Williams River in northwestern Arizona has historically been 
irrigated for agricultural production dating back to 1960s and 1970s. 
The City of Scottsdale (near the City of Phoenix) purchased Planet 
Ranch in 1984 as an additional source of water for its future municipal 
water supplies. After years of failing to move water from Planet Ranch 
to Scottsdale, Scottsdale decided to liquidate its interest in the 
ranch, and in 2006 Freeport and Scottsdale entered into an agreement 
for the purchase of Planet Ranch, which the two parties completed in 
2011 (for $24 million).
    Consistent with Arizona State law, in 2010, Freeport filed with 
ADWR an Application to transfer a portion of the water rights from 
Planet Ranch to Freeport's Wikieup Wellfield along the Big Sandy River 
(located approximately 71 river miles upstream of the Planet Ranch 
property). In response to this filing, the AGFC and U.S. DOI acting in 
its capacity as trustee for the Hualapai Tribe filed objections with 
ADWR to the transfer, citing alleged impacts to water rights in the 
area affecting habitat along the Bill Williams River, specifically the 
Bill Williams Wildlife Refuge, located immediately downstream of the 
Planet Ranch property and areas that are culturally important to the 
Tribe.
    In response to these objections, Freeport began discussions with 
the parties to resolve the water rights dispute. In 2013, the AGFC, 
ADWR, the Hualapai Tribe and Freeport reached an agreement in principle 
to move forward on a settlement and resolution of these objections in 
exchange for, among other things, Freeport's recognition of tribal 
water rights on parcels owned by the Tribe and Allottees in the Big 
Sandy River watershed and Freeport's commitment to make financial 
contributions toward a future settlement of the Tribe's water rights 
claims in other river basins. The agreement in principle is the basis 
of the Bill Williams River Water Rights Settlement Act of 2014.
III. Overview of the Bill Williams Water Rights Settlement Act
    The Bill Williams River Water Rights Settlement Act of 2014 
(Settlement Act) approves, ratifies and confirms the Big Sandy River--
Planet Ranch Water Rights Settlement Agreement and the Hualapai Tribe 
Bill Williams River Water Rights Settlement Agreement (Settlement 
Agreements). The Settlement Act is an important first step and 
blueprint for a comprehensive settlement of the Tribe's water rights 
claims in other river basins, such as the Lower Colorado River.
    Under the terms of the Settlement Agreements, Freeport agrees to 
the confirmation of certain water rights for the Tribe (and the U.S. 
acting as Trustee for the Tribe, it members and Allottees). More 
specifically, the Settlement Agreements provides the Hualapai Tribe 
with waivers and release of claims from Freeport and the U.S. DOI 
(acting on behalf of its constituent bureaus) for diversion of 694 
acre-feet of water in the Bill Williams watershed in Arizona, 
specifically:

  <bullet> Claims for injury resulting from the diversion of water by 
        the U.S. DOI, acting as Trustee for the Tribe or the Allottees 
        for use on the Allotments or the Hualapai Reservation;

  <bullet> Past and present claims of injury for the use of water by 
        the U.S. DOI, acting as Trustee for the Tribe or the Allottees 
        in the amount of 82 acre-feet per year on Trust Land Parcel 1; 
        312 acre-feet per year on Trust Land Parcel 2; and 300 acre-
        feet per year on Trust Land Parcel 3; and

  <bullet> Past, present and future claims arising out of, or relating 
        in any manner to, the negotiation or execution of the 
        Settlement Agreements.

    The Settlement Agreements also provide for the protection of the 
Tribe's water rights at Cofer Hot Spring located on Cholla Canyon, 
which is an area of cultural significance to the Tribe, including: (1) 
Freeport's agreement to curtail the drilling of any new production 
wells (a well with a capacity in excess of 35 gallons per minute) in 
the volcanic aquifer (including on Freeport's Banegas Ranch and other 
Freeport-owned properties) that supplies the Cofer Hot Spring; (2) 
Freeport's agreement that if Freeport's existing pumping (limited to 
certain wells not to exceed 35 gallons per minute) is causing an 
adverse impact to the Cofer Hot Spring, that Freeport will work with 
the Tribe to address the impact; and (3) Freeport's agreement to grant 
to the Tribe a First Right of Refusal to match a bona fide offer to 
purchase Banegas Ranch or other specific Freeport-owned lands.
    The Hualapai Tribe also benefits from two significant non-federal 
financial contributions that will be the cornerstone of a potential 
future comprehensive settlement of the Tribe's water rights claims on 
the Lower Colorado River and Verde River in Arizona.
    First, Freeport is providing a non-federal contribution of 
$1,000,000 that the Tribe can immediately use to develop the necessary 
professional studies to find the most appropriate alternative for 
delivery of Colorado River water directly to the Reservation. 
Completion of this study before comprehensive settlement discussions 
begin will potentially facilitate a settlement of the outstanding 
claims of the Tribe and provide earlier benefits to Tribal members.
    The second non-federal contribution provided by Freeport to the 
Tribe comes in the form of an Economic Development Trust that will 
enable the Tribe to seek the purchase of lands and water rights in 
Arizona along the Colorado River. Without these substantial non-federal 
contributions, the settlement of the Tribe's claims could be 
significantly delayed or reduced and would come at a higher cost to 
federal taxpayers.
    The Agreements related to this Act will also provide for the 
donation of a portion of the Freeport-owned Planet Ranch land and water 
rights to the AGFC. These lands will then be leased to the U.S. Bureau 
of Reclamation for the long-term benefit of the LCR MSCP.
    The LCR MSCP is a program developed cooperatively between the 
federal government and representatives from the States of Arizona, 
California, and Nevada. The goal of the LCR MSCP is to recover ESA-
listed species as well as reduce the likelihood of future listings, and 
all while also protecting current water diversions and power 
production. In addition, the LCR MSCP provides opportunities and ESA 
protection for future water and power development on the Colorado 
River, which is vital to Arizona's water supplies. This legislation 
will approve the long-sought addition of Planet Ranch to the LCR MSCP 
by the United States and it will fulfill important habitat needs of the 
Southwestern Willow Fly Catcher and Yuma Clapper Rail, among many other 
listed species.
    Freeport is also providing waivers to the AGFC for the donation and 
transfer of the water rights to the LCR MSCP leased lands. These lands 
that are currently under private ownership with limited access are, 
under the legislation, to be converted to public lands with public 
access provided consistent with federal and state laws.
    To protect water rights in the area, Freeport further agrees to 
limit its withdrawals of water from the Wikieup Wellfield to no more 
than 10,055 acre-feet per year for the remainder of its mining 
operations at the Bagdad Mine.
    In exchange for these significant concessions, the Settlement 
Agreements provide to Freeport waivers of the objections filed by the 
AGFC and the U.S. DOI acting on behalf of itself and as trustee for the 
Tribe, its members and Allottees which will allow for the partial water 
rights transfer from Planet Ranch to the Wikieup Wellfield. This will 
provide to Freeport secure water rights for its continued operations at 
the Bagdad Mine in northwestern Arizona.
IV. Conclusion
    This Settlement Act is a fair, equitable, and final settlement of 
certain claims among the Tribe, the U.S. DOI acting on behalf of itself 
and as trustee for the Tribe, its members and Allottees, the AGFC, the 
ADWR (in a limited capacity related to the transfer of the water 
rights) and Freeport to water rights in the Bill Williams River 
watershed in the State of Arizona. It is beneficial for all the parties 
involved by providing long-term certainty and promotes a reliable water 
supply for the Tribe, Freeport and the LCR MSCP.
    The Settlement Act is a perfect example of a successful regional 
collaboration to address the Hualapai Tribe's water rights claims. As a 
part of this Act, Freeport is making two significant non-federal 
contributions towards the Tribe's analysis and acquisition of water 
rights, an important factor in enabling a future comprehensive Indian 
Water Rights Settlement. This Settlement would further avoid many years 
of potential litigation at great expense to the parties and the 
continued uncertainty concerning the availability of our precious water 
supplies in the region.
    Thank you again, Mr. Chairman, Mr. Vice Chairman, and other Members 
of the Committee for the opportunity to present this important Indian 
water rights settlement, which will significantly improve the 
reliability of regional water supplies for Freeport, the U.S. and the 
Tribe. Freeport strongly supports S. 2503, and looks forward to seeing 
this provision advance through the legislative process.
                                 ______
                                 
  Prepared Statement of Patrick J. Graham, State Director, The Nature 
                              Conservancy
    The Nature Conservancy supports sections of S. 2503 and H.R. 4924, 
the Big Sandy River-Planet Ranch Water Rights Settlement Agreement, as 
outlined below. We thank you all for your leadership and support of 
this important issue. This can serve as a model for how water 
agreements can benefit both people and nature. It is powerful to have 
our entire delegation as co-sponsors of this legislation.
    The Nature Conservancy (TNC) is an international, nonprofit 
organization dedicated to the conservation of biological diversity. Our 
mission is to conserve the lands and waters on which all life depends. 
Our on-the-ground conservation work is carried out in all 50 states and 
in more than 30 foreign countries and is supported by approximately one 
million individual members. We have helped conserve nearly 15 million 
acres of land in the United States and Canada and more than 102 million 
acres with local partner organizations globally.
    The Conservancy owns and manages approximately 1,400 preserves 
throughout the United States--the largest private system of nature 
sanctuaries in the world. We recognize, however, that our mission 
cannot be achieved by core protected areas alone. Therefore, our 
projects increasingly seek to accommodate compatible human uses, and 
especially in the developing world, to address sustained human well-
being.
    In Arizona, The Nature Conservancy has created a dozen nature 
preserves and developed new funding sources for conservation throughout 
the state. In this capacity, TNC has been a long running member of the 
Bill Williams River Corridor Steering Committee in Arizona. This 
partnership effort has members with diverse management concerns and 
responsibilities, all tied to a unique tributary of the lower Colorado 
River. The committee serves as a venue to address a wide range of 
matters, from the Army Corps' operation of their Alamo Dam facility to 
the issues associated with the Planet Ranch property, and strives to 
produce solutions built on consensus and inclusivity.
    It was within the Steering Committee's discussions that TNC 
developed our position on Planet Ranch in terms of its ownership and 
water rights uses. It is only these areas of the proposed Congressional 
legislation that we are expressing support and comments on proposed 
legislative action. We are very supportive of gaining certainty through 
this agreement for all involved and are supportive of Freeport 
McMoRan's (Freeport) efforts to do the same.
    The Bill Williams River watershed contains large unfragmented lands 
and significant biological diversity for the state of Arizona. It sits 
at the intersection of three arid regions--Sonoran Desert, Mohave 
Desert, and Colorado Plateau--yet includes more than 150 miles of 
perennial streams and rivers. These streams support nine native fish 
species and more than 340 bird species, and the watershed provides 
habitat for at least ten globally rare species. Extensive riparian 
forests of cottonwood, willow, and mesquite line the rivers and include 
the largest and healthiest remnant of the vegetation that once 
characterized the banks of the lower Colorado River.
    The purchase of Planet Ranch by Freeport in late 2011 from the City 
of Scottsdale provides the opportunity for significant benefits to all 
parties and the public by providing more certainty with respect to 
water rights in the watershed and that Planet Ranch will be owned by 
the State of Arizona and used permanently for habitat purposes in 
preserving a natural ecosystem.
    We support the sections of the proposed legislation that would 
accomplish the following:

  <bullet> Portions of Planet Ranch are transferred to the Arizona Game 
        & Fish Department

  <bullet> One-third of Planet Ranch water rights are transferred to 
        Arizona Game and Fish in an equitable manner

  <bullet> Freeport commits, in perpetuity, to no increases in water 
        use for the Wikieup Wellfield, and to regular verification of 
        this agreement and suitable repercussions for failure to follow 
        it, in a way acceptable to the United States Fish & Wildlife 
        Service and the Arizona Game & Fish Department

  <bullet> Federal Government to remove its objections at Arizona 
        Department of Water Resources to the Planet Ranch water 
        transfer

  <bullet> Credit to the Lower Colorado River Multispecies Conservation 
        Program (MSCP) for the new riparian habitat created by the 
        project

    We understand there is a study of the Hualapai Tribe water claims 
currently underway, and we urge future action to provide for the 
settlement and legislative confirmation of the Federal reserved water 
rights for the Bill Williams River National Wildlife Refuge.
    Separate and apart from Congressional action, The Conservancy wants 
to continue a dialogue with Freeport to address issues outside of 
legislative action including:

  <bullet> Disposition of the remaining water rights when the Bagdad 
        mine is no longer in operation; and

  <bullet> Use of the remaining water rights associated with Planet and 
        Lincoln Ranches.

    Thank you again for the opportunity for us to discuss and assist in 
passage of this important action.
                                 ______
                                 
                   Arizona Chamber of Commerce and Industry
                                                       July 8, 2014
Hon. Jon Tester,
Chairman,

Hon. John Barrasso,
Vice Chairman,
U.S. Senate Committee on Indian Affairs,
Washington, DC.

Dear Chairman Tester and Vice Chairman Barrasso:

    The Arizona Chamber of Commerce and Industry urges your support of 
S. 2503, The Bill Williams River Water Rights Settlement Act of 2014. 
The Act will provide long-term certainty to both tribal and other water 
users in northwest Arizona.
    S. 2503 is the result of an agreement between the Hualapai Tribe, 
the U.S. Department of the Interior, the Arizona Game and Fish 
Commission and Freeport Minerals Corporation. In addition to the 
support of each of the stakeholders, the Act also has the support of 
the entire Arizona congressional delegation.
    The Act would ratify the Big Sandy River-Planet Ranch Water Rights 
Settlement Agreement and the Hualapai Bill Williams River Water Rights 
Settlement Agreement, and would facilitate a fair and equitable 
settlement of claims to water rights along the Bill Williams watershed 
in Arizona. In the agreement, Freeport Minerals Corporation will 
provide a tribal water supply study necessary to the Hualapai Tribe's 
claims for Colorado River water and will enable the Tribe to purchase 
Colorado River water rights to help facilitate a future comprehensive 
settlement. In exchange, Freeport will secure water rights for its 
continued operations in northwestern Arizona.
    Water is a critical component to the economic vitality of the state 
of Arizona. The settlement of water rights claims is a priority in our 
state in order to provide clarity and long-term certainty to all water 
users across Arizona.
    We hope that this legislation can be swiftly approved by the Senate 
Committee on Indian Affairs. Please do not hesitate to contact us if we 
can provide any insight into this important issue.
        Sincerely,
                                               Glenn Hamer,
                                                      President/CEO
                                 ______
                                 
         Hon. Mark Lewis, Director, Central Arizona Project
                                                       Phoenix, AZ.
Hon. Jeff Flake,
2200 East Camelback Road, Suite 120,
Phoenix, AZ.
Support of Bill Williams River Water Rights Settlement Act 
                                            of 2014 S. 2503

Dear Jeff,

    I am the senior elected Director on the Central Arizona Project 
board representing Maricopa County. I am writing to you in support of 
the Bill Williams River Water Rights Settlement Act of 2014, S. 2503. 
While most of the bills subject matter does not directly affect the 
Central Arizona Project or my constituents in Maricopa County, I 
personally support this water settlement bill. This bill is one of many 
Indian Water Rights settlements passed and funded over the years, and 
is a great first step in settling the remaining Tribal claims in 
Arizona.
    Maricopa County residents, whom I represent, contribute a small 
share of the $626 million dollar partnership between 3 states and the 
USBOR for Multi Species Conservation Program ``MSCP'' as our 
contribution to preservation of wildlife and habitat on the Colorado 
River, which in turn is part of the conditions for our Environmental 
Permits to withdraw water from the river. Maricopa County residents 
struck a grand balance between water withdraws from the river and 
environmental protection of wildlife, plants and river Biology. This 
legislation and the donation of the water rights from the Planet Ranch 
by natural resource companies save tax dollars and promote the MSCP 
program.
    There are 26 species ``covered'' by the LCR MSCP; 6 threatened and/
or endangered species and 20 non-federally listed species. There are an 
additional five ``evaluation'' species, which could be added to the 
covered species list for the LCR MSCP. Among the threatened and 
endangered species covered are the razorback sucker, the bonytail chub, 
the humpback chub, the southwestern willow flycatcher, the Yuma clapper 
rail, and the desert tortoise. \1\
---------------------------------------------------------------------------
    \1\  http://www.azgfd.gov/w_c/LowerColoradoRiverMulti-
speciesConservationPrograms.shtml
---------------------------------------------------------------------------
    Because of my senior position on the board, and my conservative 
desire to maintain our water withdraw permits for Maricopa County; I 
support the Bill Williams River Water Rights Settlement Act of 2014.
    And while I do not speak for the Board, and I am providing my own 
opinion as the most senior elected director representing Maricopa 
County I am happy to support S. 2503.
        Thank you,
                                                Mark Lewis,
                                 ______
                                 
                                           State of Arizona
                                                       July 7, 2014
Hon. Jeff Flake,
United States Senate,
Washington, DC.

    Dear Senator Flake:

    For over a century, Arizona has taken seriously its obligation to 
all of its citizens to ensure that there are sufficient and secure 
water supplies now and into the future. Arizona has been a leader in 
water conservation and reuse; in securing and delivering water supplies 
to meet the needs of all Arizonans; and in comprehensive water 
management of this vital resource. Earlier this year, I released a 
report entitled, Arizona's Next Century: A Strategic Vision for Water 
Supply Sustainability. In this document we have laid the groundwork for 
moving Arizona securely forward into the next century.
    In light of Arizona's continued commitment to a secure water supply 
future, I am pleased to express my support for the Bill Williams River 
Water Rights Settlement Agreement of 2014 (S. 2503/H.R. 4924). This 
Legislation is consistent with the Strategic Vision for the State of 
Arizona and represents an agreement that brings together Tribal and 
private industry in a solution-oriented way that will serve as an 
example for future water supply development opportunities. The benefits 
to the Hualapai Tribe in securing future water rights for their Tribal 
members is especially important and will be important in laying a 
foundation for continued economic development in this region.
    I truly appreciate your efforts, and those of the entire Arizona 
delegation, in supporting this important legislation.
        Sincerely,
                                Janice K. Brewer, Governor.
                                 ______
                                 
                        Yavapai County Board of Supervisors
                                        Prescott, AZ, July 10, 2014
Hon. Jeff Flake,
United States Senate,
Washington, DC.

Dear Senator Flake,

    As a longtime resident of Yavapai County, former Mayor of the City 
of Prescott and current Chairman for the Board of Supervisors, I am 
expressing my complete support for the Bill Williams River Water Rights 
Settlement Agreement of 2014 (S. 2503/H.R. 4924).
    As history shows, Arizona has been proactively building resilience 
and implementing innovative water management strategies to secure 
dependable water supplies for our future. This proposed Legislation is 
precisely the vehicle needed to bring together our future water supply 
development opportunities and economic security into the next century.I 
appreciate the commitment of our current political leaders in 
supporting this vital legislation.
        Sincerely,
                                Rowle P. Simmons, Chairman.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jon Tester to 
                          Hon. Arlan Melendez

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
